1a
APPENDIX A
IN THE UNITED STATES
COURT OF APPEALS
FOR THE SECOND CIRCUIT
AUGUST TERM, 2019
ARGUED: MARCH 31, 2020
DECIDED: DECEMBER 4, 2020
No. 19-3272
UNITED STATES SECURITIES AND EXCHANGE
COMMISSION,
Plaintiff - Appellee,
v.
ALPINE SECURITIES CORPORATION,
Defendant - Appellant.
Appeal from the United States District Court for the
Southern District of New York.
Before: WALKER, CABRANES, and SACK, Circuit
Judges.
The Securities and Exchange Commission
(SEC) filed a civil enforcement action against Alpine
Securities Corporation (Alpine), a registered brokerdealer specializing in penny stocks and micro-cap
securities. The SEC claimed that Alpine’s failure to
comply with the reporting requirements for filing

2a
Suspicious Activity Reports (SARs) violated the
reporting, recordkeeping, and record retention
obligations under Section 17(a), of the Securities
Exchange Act of 1934 (Exchange Act), and Rule 17a8 promulgated thereunder. The district court granted
in part and denied in part the SEC’s motion for
summary judgment and denied Alpine’s motion for
summary judgment.
On appeal, Alpine argues that the district court
erred: (1) in concluding that the SEC has authority to
bring an enforcement action under Section 17(a) and
Rule 17a-8 on the basis of Alpine’s failure to comply
with the SAR provisions of the Bank Secrecy Act
(BSA); (2) in concluding that Rule 17a-8 is valid; (3)
in concluding that Rule 17a-8 does not violate the
Administrative Procedure Act (APA); and (4) in
finding Alpine liable for violations of Section 17(a)
and Rule 17a-8 on the basis of its deficient SAR
practices. Alpine further challenges the district
court’s imposition of a civil penalty under the
Exchange Act in the amount of $12 million.
For the reasons that follow, we AFFIRM the
judgment of the district court.
RACHEL M. MCKENZIE, Senior
Counsel (Michael A. Conley, Solicitor;
Daniel Staroselsky, Senior Litigation
Counsel, on the brief), for Robert B.
Stebbins, General Counsel, Securities
and
Exchange
Commission,
Washington, D.C., for Plaintiff-Appellee.

3a
MARANDA FRITZ, Thompson Hine
LLP, New York, NY (Brent R. Baker,
Jonathan D. Bletzacker, Aaron D.
Lebenta, Clyde Snow & Sessions, Salt
Lake City, UT, on the brief) for
Defendant-Appellant.
JOHN M. WALKER, JR., Circuit Judge:
The Securities and Exchange Commission (SEC)
filed a civil enforcement action against Alpine
Securities Corporation (Alpine), a registered brokerdealer specializing in penny stocks and micro-cap
securities. The SEC claimed that Alpine’s failure to
comply with the reporting requirements for filing
Suspicious Activity Reports (SARs) violated the
reporting, recordkeeping, and record retention
obligations under Section 17(a), of the Securities
Exchange Act of 1934 (Exchange Act), and Rule 17a8 promulgated thereunder. The District Court for the
Southern District of New York (Denise L. Cote, J.),
granted in part and denied in part the SEC’s motion
for summary judgment and denied Alpine’s motion for
summary judgment.
On appeal, Alpine argues that the district court
erred: (1) in concluding that the SEC has authority to
bring an enforcement action under Section 17(a) and
Rule 17a-8 on the basis of Alpine’s failure to comply
with the SAR provisions of the Bank Secrecy Act
(BSA); (2) in concluding that Rule 17a-8 is valid; (3)
in concluding that Rule 17a-8 does not violate the
Administrative Procedure Act (APA); and (4) in
finding Alpine liable for violations of Section 17(a)
and Rule 17a-8 on the basis of its deficient SAR

4a
practices. Alpine further challenges the district
court’s imposition of a civil penalty under the
Exchange Act in the amount of $12 million.
For the reasons that follow, we AFFIRM the
judgment of the district court.
BACKGROUND
Prior to examining the issues in this case, a brief
review of the relevant statutory and regulatory
authority will be helpful.
i. The Bank Secrecy Act
Congress enacted the Foreign Transactions
Reporting Act of 1970, or Bank Secrecy Act (BSA), in
1970 due to concerns over (1) the adequacy of records
retained by domestic financial institutions, (2) the
failure of such institutions to report to the
government large deposits and withdrawals of
currency,1 and (3) the use of foreign financial
institutions to evade “domestic criminal, tax, and
regulatory enactments.”2
The BSA authorizes the Secretary of the Treasury
to mandate certain recordkeeping and reporting
California Bankers Ass’n v. Shultz, 416 U.S. 21, 27-28 (1974).
Id.; see also Ratzlaf v. United States, 510 U.S. 135, 138 (1994)
(“Congress enacted the Currency and Foreign Transactions
Reporting Act (Bank Secrecy Act) in 1970, Pub.L. 91-508, Tit. II,
84 Stat. 1118, in response to increasing use of banks and other
institutions as financial intermediaries by persons engaged in
criminal activity. The Act imposes a variety of reporting
requirements on individuals and institutions regarding foreign
and domestic financial transactions.”).

1
2

5a
requirements
for
United
States
financial
3
institutions. In enacting the BSA, Congress
concluded that such records and reports “have a high
degree of usefulness in criminal, tax, or regulatory
investigations or proceedings.”4
When the BSA was initially enacted, Treasury
regulations only required broker-dealers to retain
records and file reports relating to domestic and
foreign transactions above a certain dollar amount.5
In 2001, however, Congress amended the BSA
through the USA PATRIOT Act to require the
Treasury, after consultation with the SEC and Board
of Governors of the Federal Reserve System, to
publish regulations requiring broker-dealers to report
suspicious transactions.6 The Secretary of the
Treasury delegated that responsibility to the
Financial Crimes Enforcement Network (FinCEN)
within the Treasury Department.7
In 2002, FinCEN promulgated 31 C.F.R.
§ 1023.320, which requires every broker-dealer to file
a report of any suspicious transaction relevant to a
possible violation of law or regulation. Specifically,
broker-dealers must file a SAR if a transaction “is
conducted or attempted by, at, or through a brokerCalifornia Bankers Ass’n, 416 U.S. at 26.
Id. (citing 12 U.S.C. §§ 1829b(a)(2), 1951; 31 U.S.C. § 1051).
5 See id. at 30-38.
6 Financial Crimes Enforcement Network; Amendment to the
Bank Secrecy Act Regulations–Requirement that Brokers or
Dealers in Securities Report Suspicious Transactions, 67 Fed.
Reg. 44,048 (July 1, 2002) (SAR Regulation Adopting Release).
7 Treasury Order 180-01(a)-(b); Financial Crimes Enforcement
Network, 67 Fed. Reg. 64,697 (Oct. 21, 2002).
3
4

6a
dealer, it involves or aggregates funds or other assets
of at least $5,000, and the broker-dealer knows,
suspects, or has reason to suspect that the transaction
(or a pattern of transactions of which the transaction
is a part):” (1) “[i]nvolves funds derived from illegal
activity;” (2) is designed, “whether through
structuring or other means, to evade” the BSA and its
regulations; (3) “[h]as no business or apparent lawful
purpose;” or (4) “[i]nvolves use of the broker-dealer to
facilitate criminal activity.”8 Section 1023.320 also
requires broker-dealers to retain a copy of any SAR
filed “for a period of five years from the date of filing”
and to “make all supporting documentation available
to FinCEN or any Federal, State, or local law
enforcement agency, or any Federal regulatory
authority that examines the broker-dealer for
compliance with the Bank Secrecy Act, upon
request.”9
Upon the issuance of this regulation, FinCEN
announced that the “regulation of the securities
industry in general and of broker-dealers in
particular relies on both the Securities and Exchange
Commission … and
the
registered
securities
associations and national securities exchanges.”10
ii. The Exchange Act
The Exchange Act delegates to the SEC broad
authority to regulate brokers and dealers in
securities.11 Section 17(a) of the Exchange Act
31 C.F.R. § 1023.320(a)(2).
31 C.F.R. § 1023.320(d).
10 SAR Regulation Adopting Release, 67 Fed. Reg. at 44,049.
11 See 15 U.S.C. § 78b; id. § 78q-1.
8
9

7a
authorizes the SEC to promulgate rules to carry out
Section 17(a)’s requirement that brokers and dealers
“make and keep for prescribed periods such
records … and disseminate such reports as the
Commission, by rule, prescribes as necessary or
appropriate in the public interest, for the protection
of investors, or otherwise in furtherance of the
purposes of this chapter.”12
In 1981, the SEC promulgated Rule 17a-8 under
Section 17(a). Rule 17a-8, instead of duplicating the
reporting and retention requirements of the BSA,
incorporated those requirements by mandating that
every registered broker or dealer “who is subject to
the requirements of the Currency and Foreign
Transactions Reporting Act of 1970 [Bank Secrecy
Act] shall comply with the reporting, recordkeeping
and record retention requirements of chapter X of title
31 of the Code of Federal Regulations.”13 Chapter X of
Title 31 concerns the Treasury’s rules for brokers or
dealers in securities, including FinCEN’s SAR
requirements under Section 1023.320.
The SEC observed that by not duplicating the
existing BSA Treasury requirements, Rule 17a-8
would impose “no burden on competition.”14 The SEC
further specified that the Rule was not confined to any
specific identifiable reports and records so as to allow
for any revisions to reporting requirements that the
Treasury may adopt in the future.15 No comments
15 U.S.C. § 78q(a)(1).
17 C.F.R. § 240.17a-8.
14 Recordkeeping by Brokers and Dealers, 46 Fed. Reg. 61,454,
61,455 (Dec. 17, 1981) (Rule 17a-8 Adopting Release).
15 Id.
12
13

8a
were received from the public in response to the
proposed rule.16 In 2011, the SEC amended Rule 17a8 to make clear that it still considered the Treasury’s
reporting obligations, which at that point included the
SAR reporting requirement, as promoting the goals of
the Exchange Act.17
iii. Current Enforcement Action
Alpine is a registered broker-dealer and Financial
Industry Regulatory Authority (FINRA) member that
“acts as a clearing firm.”18 Over the years, the SEC
and FINRA, which is overseen by the SEC, found
numerous deficiencies in Alpine’s SAR reporting
standards and submissions. In 2012, FINRA found
that Alpine failed to file SARs over a two-month and
a four-month period in 2011 and that many SARs that
Alpine did file were inadequate. In 2015, the SEC
found that for half of the SARs it reviewed, Alpine
failed to provide a clear and complete description of
the financial activity reported and that frequently
Alpine was intentionally trying to obscure the
suspicious nature of that activity.
On June 5, 2017, the SEC filed this civil action
against Alpine to enforce reporting and recordkeeping
requirements of the securities laws. The SEC alleged
that, through non-compliant SAR practices, Alpine
violated the reporting, recordkeeping, and record
retention obligations under Section 17(a) and Rule
Id.
Technical Amendments to Rule 17a-8: Financial
Recordkeeping and Reporting of Currency and Foreign
Transactions, 76 Fed. Reg. 11,327 (Mar. 2, 2011).
18 App’x 48, 50.
16
17

9a
17a-8. The SEC moved for partial summary
judgment, submitting SARs to exemplify the
categories of Section 17(a) and Rule 17a-8 violations
it was alleging. Alpine cross-moved for summary
judgment, principally arguing that the SEC lacked
authority to bring such a suit because the Treasury
had sole authorization to enforce the BSA
requirements.
The district court granted the SEC’s motion in
part, but deferred its resolution of categories of
allegedly deficient SARs pending discovery and
additional briefing. The district court also denied
Alpine’s motion, rejecting Alpine’s argument that the
SEC was improperly enforcing the BSA and
upholding the SEC’s authority to enforce the
reporting and recordkeeping provisions of the
Exchange Act on the basis of non-compliance with
SAR requirements.19
The district court determined that Rule 17a-8 was
a reasonable interpretation of the Exchange Act
because the SEC concluded that the SARs, which
assist the Treasury Department in targeting illegal
securities transactions, would also serve to protect
investors by providing information relevant to
determining whether there is any market
manipulation.20 The district court further found that
nothing in the Exchange Act or the BSA expressly
United States Sec. & Exch. Comm’n v. Alpine Sec. Corp., 308
F. Supp. 3d 775, 789 (S.D.N.Y. 2018), reconsideration denied, No.
17CV4179(DLC), 2018 WL 3198889 (S.D.N.Y. June 18, 2018),
and reconsideration denied, No. 17CV4179(DLC), 2019 WL
4071783 (S.D.N.Y. Aug. 29, 2019).
20 Id. at 796.
19

10a
precluded FinCEN and the SEC from exercising
concurrent regulatory and enforcement authority.21
The district court also rejected Alpine’s argument
that the SEC violated the APA when promulgating
Rule 17a-8. Specifically, the district court noted that
the “text of the regulation itself, as well as the SEC’s
1981 notice of final rule, unambiguously
demonstrate[d] the SEC’s intent [that] the nature of
the Rule 17a-8 reporting obligation [would] evolve
over time through the Treasury’s regulations.”22 The
district court observed that Rule 17a-8’s evolving
nature “made government more efficient by
incorporating the obligations that had been and
would be imposed by the Treasury.”23
After discovery and additional briefing, the SEC
moved for summary judgment as to Alpine’s liability
for thousands of Rule 17a-8 violations based on
deficient SARs reporting and recordkeeping practices.
Evaluating the specific violations alleged, the district
court granted summary judgment to the SEC as to
2,720 violations of Rule 17a-8 on the basis of Alpine’s
SARs reporting and recordkeeping practices in three
categories:
submitting
SARs
with
deficient
narratives, failing to submit SARs on deposit-andsales patterns, and failing to retain support files for
SARs. The district court denied summary judgment

Id.
Id. at 797.
23 Id.
21
22

11a
as to hundreds of other alleged violations by Alpine,
which the SEC then declined to prosecute further.24
The district court then imposed a $12 million civil
penalty and enjoined Alpine from future violations of
Section 17(a) and Rule 17a-8. This appeal followed.
DISCUSSION
On appeal, Alpine argues (1) this enforcement
action is invalid because the SEC lacks authority to
enforce the SAR provisions of the BSA; (2) Rule 17a8, which requires compliance with BSA requirements,
is invalid because it is not a reasonable interpretation
of the Exchange Act; (3) Rule 17a-8 is invalid because
its promulgation did not comply with the APA; and (4)
the district court erred in finding that Alpine violated
Section 17(a) and Rule 17a-8 on the basis of SAR
compliance. Alpine further argues that the district
court erred in imposing a civil penalty of $12 million
on Alpine.
We review motions for summary judgment de
novo.25
I. The SEC Has Authority to Enforce Section
17(a) of the Exchange Act Through This
Civil Action
See, e.g., United States Sec. & Exch. Comm’n v. Alpine Sec.
Corp., 354 F. Supp. 3d 396, 430-31, 443 (S.D.N.Y. 2018),
reconsideration denied, No. 17CV4179(DLC), 2019 WL 4071783
(S.D.N.Y. Aug. 29, 2019).
25 See United States v. Epskamp, 832 F.3d 154, 160 (2d Cir. 2016)
(quoting Roach v. Morse, 440 F.3d 53, 56 (2d Cir. 2006)); Mario
v. P & C Food Mkts, Inc., 313 F.3d 758, 763 (2d Cir. 2002).
24

12a
Alpine first contends that the SEC is not
authorized to bring this civil enforcement action
because the Treasury Department has sole authority
to enforce the BSA. We disagree.
This enforcement action was brought solely under
Section 17(a) of the Exchange Act and Rule 17a-8
promulgated thereunder. This suit therefore falls
within the SEC’s independent authority as the
primary federal regulator of broker-dealers to ensure
that they comply with reporting and recordkeeping
requirements of those provisions.26 The fact that Rule
17a-8 requires broker-dealers to adhere to the
dictates of the BSA in order to comply with the
recordkeeping and reporting provisions of the
Exchange Act does not constitute SEC enforcement of
the BSA. We thus reject Alpine’s argument that the
SEC is enforcing the BSA, and not the Exchange Act.
II. Rule 17a-8, Which Requires Compliance
with BSA Requirements, Is a Reasonable
Interpretation of Section 17(a) of the
Exchange Act
Alpine next challenges the validity of Rule 17a-8,
which requires compliance with BSA requirements,
on that basis that it is not a reasonable interpretation
of the Exchange Act.
We review questions of statutory interpretation
de novo.27 Because this issue centers on an agency’s
See, e.g., VanCook v. SEC, 653 F.3d 130 (2d Cir. 2011)
(enforcement action for violation of Section 17(a)).
27 See United States v. Epskamp, 832 F.3d 154, 160 (2d Cir. 2016)
(quoting Roach v. Morse, 440 F.3d 53, 56 (2d Cir. 2006)).
26

13a
interpretation of a statute, we turn to the analytical
framework established in Chevron, U.S.A. Inc. v. Nat.
Res. Def. Council, Inc.28 “[A] reviewing court must
first ask whether Congress has directly spoken to the
precise question at issue.”29 Only if the statute is
ambiguous or silent on the question need a court
proceed in the analysis. If Congress has not clearly
spoken, “a reviewing court must respect the agency’s
construction of the statute so long as it is
permissible.”30
The Exchange Act expressly delegates to the SEC
the authority to determine which reports from
covered entities, including brokers and dealers, are
“necessary or appropriate” to further the goals of the
Exchange Act. The SEC, pursuant to that authority,
may promulgate rules defining the recordkeeping and
reporting obligations of broker-dealers that the SEC
deems necessary to pursue those statutory aims.31
That is exactly what the SEC has done by
promulgating Rule 17a-8. The Exchange Act aims to
protect the national securities market and
“safeguard[] … securities
and
funds
related
32
thereto.” The SEC determined that the SARs, which
assist the Treasury Department in targeting illegal
securities transactions, would also serve to further
the aims of the Exchange Act by protecting investors
467 U.S. 837 (1984).
Food & Drug Admin. v. Brown & Williamson Tobacco Corp.,
529 U.S. 120, 132 (2000) (internal quotation marks omitted)
(quoting Chevron, 467 U.S. at 842).
30 Id. (citing INS v. Aguirre-Aguirre, 526 U.S. 415, 424 (1999)).
31 15 U.S.C. § 78q(a)(1).
32 15 U.S.C. § 78b; see also 15 U.S.C. § 78q-1.
28
29

14a
and helping to guard against market manipulation.
For example, SARs facilitate the SEC’s effective
enforcement with regard to market abuses associated
with penny stock trading.33 The SEC thus
promulgated Rule 17a-8, which requires compliance
with those BSA regulations. In promulgating Rule
17a-8, the SEC acted pursuant to an express
delegation of rulemaking authority. We thus hold that
the SEC’s interpretation of Section 17(a), as
expressed in Rule 17a-8, is reasonable.34

See Ronald S. Bloomfield, Robert Gorgia, & John Earl Martin,
Sr., S.E.C. Release No. 9553 (Feb. 27, 2014), vacated in part on
other grounds, Robert Gorgia, S.E.C. Release No. 9743 (Apr. 8,
2015) (“Penny stocks present risks of trading abuses due to the
lack of publicly available information about the penny stock
market in general and the price and trading volume of particular
penny stocks.”); see also Testimony Before the S. Comm. on
Banking, Housing and Urban Affairs, 2002 WL 169600 (Jan. 29,
2002) (Annette L. Nazareth, Director, SEC Division of Market
Regulation) (stating that the “SEC and Treasury staff readily
reached consensus” on extending comparable SAR obligations to
combat “money laundering risks.”).
34 Alpine’s argument that the district court improperly applied
Auer deference lacks merit. See Auer v. Robbins, 519 U.S. 452
(1997). As an initial matter, in Kisor v. Wilkie, the case on which
Alpine relies, the Supreme Court held that “Auer deference
retains an important role in construing agency regulations.” 139
S. Ct. 2400, 2408 (2019). Here, the text of Rule 17a-8
unambiguously
encompasses
the
suspicious
activity
recordkeeping and reporting requirements of Section 1023.320
by referring to the chapter of the Code of Federal Regulations in
which those provisions appear. To the extent there is any
ambiguity in Rule 17a-8, the SEC’s interpretation is reasonable
and not “plainly erroneous or inconsistent with the regulation.”
Nat. Res. Def. Council v. EPA, 808 F.3d 556, 569 (2d Cir. 2015)
(citation omitted).
33

15a
Alpine contends that in authorizing the Treasury
to regulate suspicious activity in recordkeeping and
reporting by broker-dealers under the BSA, Congress
has precluded the SEC from regulating recordkeeping
and reporting under the Exchange Act.
When “[c]onfronted with two Acts of Congress
allegedly touching on the same topic, this Court is not
at ‘liberty to pick and choose among congressional
enactments’ and must instead strive ‘to give effect to
both.’”35 Because Alpine’s position is that the
Exchange Act and the BSA cannot be “harmonized,”
it “bears the heavy burden” of showing, based upon “a
clearly expressed congressional intention,” that such
a result should follow.36 Such an intention must be
“clear and manifest,” and courts “come armed with
the stron[g] presum[ption] that repeals by implication
are disfavored and that Congress will specifically
address preexisting law when it wishes to suspend its
normal operations in a later statute.”37
Here, the statutory and regulatory provisions are
easily harmonized. Rule 17a-8 requires brokerdealers to comply with the duties imposed by the
Treasury Department through the BSA.38 Far from
Epic Sys. Corp. v. Lewis, 138 S. Ct. 1612, 1624 (2018) (some
internal quotation marks omitted) (quoting Morton v. Mancari,
417 U.S. 535, 551 (1974)).
36 Id. (quoting Vimar Seguros y Reaseguros, S.A. v. M/V Sky
Reefer, 515 U.S. 528, 533 (1995)).
37 Id. (internal citations and quotation marks omitted).
38 Specifically, the rule requires that “[e]very registered broker
or dealer who is subject to the requirements of the Currency and
Foreign Transactions Reporting Act of 1970 [Bank Secrecy Act]
shall comply with the reporting, recordkeeping and record
35

16a
conflicting, those duties imposed on broker-dealers by
the BSA are “consistent with the purposes of the
Exchange Act and the [SEC]’s obligation to enforce
broker-dealer recordkeeping requirements.”39 Rule
17a-8’s incorporation of the BSA’s reporting
obligation serves the goal of regulatory enforcement
by minimizing regulatory costs on broker-dealers,
who need only comply with one set of reporting
requirements.40 And the Treasury and the SEC have
plainly worked in tandem, issuing policy statements
and reports, and initiating enforcement actions since
the BSA’s inception.41 For example, FinCEN’s
adoption of the SAR regulation in 2002 expressly
referenced Rule 17a-8 when it stated that “both the
SEC and SROs [self-regulatory organizations] will
address broker-dealer compliance” with the SAR
reporting rule.42

retention requirements of chapter X of title 31 of the Code of
Federal Regulations.” 17 C.F.R. § 240.17a-8.
39 Rule 17a-8 Adopting Release, 46 Fed. Reg. at 61,455.
40 Congress was fully aware of this enforcement design. See
Testimony Before the S. Comm. on Banking, Housing and Urban
Affairs, 2002 WL 169600 (Jan. 29, 2002) (Annette L. Nazareth,
Director, SEC Division of Market Regulation) (stating that the
SEC expected that, after Section 1023.320’s promulgation,
“bank-affiliated broker-dealers should be subject to Treasury’s
rule, rather than two separate SAR rules”).
41 See, e.g., Pinnacle Capital Markets, LLC, FinCEN No. 2010-4
(Aug. 26, 2010); Oppenheimer & Co., Inc., SEC Release No.
74141, 2015 WL 331117 (Jan. 27, 2015); SEC & FinCen, SEC
and FinCEN Sign Information Sharing Agreement (Dec. 21,
2006).
42 SAR Regulation Adopting Release, 67 Fed. Reg. at 44,049.

17a
The two cases upon which Alpine relies, Food &
Drug Admin. v. Brown & Williamson Tobacco Corp.43
and Nutritional Health All. v. Food & Drug Admin,44
are unavailing. In Brown & Williamson, the Supreme
Court rejected the claimed authority of the Food and
Drug Administration (FDA) to regulate tobacco
products through the Food, Drug, and Cosmetic Act
(FDCA).45 In support, the Court pointed out that such
FDA authority would conflict with congressional
intent because, if that were the case, the FDCA would
“require the agency to ban [cigarettes]” which would
“contradict Congress’ clear intent as expressed in its
more recent, tobacco-specific legislation.”46 The Court
supported its holding by pointing out that: (1)
Congress had “considered and rejected bills that
would have granted the FDA such jurisdiction”; and
(2) the FDA had taken the “long-held position that it
lacks jurisdiction under the FDCA to regulate tobacco
products.”47
Nothing
approaching
these
circumstances is present here. Fully aware that the
SEC enforces the SAR provisions, Congress has never
indicated its disapproval of joint SAR reporting
enforcement.
In Nutritional Health, we found that
congressional intent conflicted with FDA jurisdiction
over certain products.48 The FDA claimed delegated
authority under the FDCA to regulate the packaging
of dietary supplements and drugs for the purpose of
529 U.S. 120 (2000).
318 F.3d 92, 104 (2d Cir. 2003).
45 529 U.S. at 126.
46 Id. at 137, 143.
47 Id. at 144.
48 318 F.3d at 95.
43
44

18a
poison prevention.49 We held the FDA’s interpretation
of its authority to be unreasonable because Congress
had later passed the Poison Prevention Packing Act
(PPP Act), which “specifically targeted the problem of
accidental poisoning,”50 and the PPP Act “expressly
prohibited the FDA from prescribing ‘specific
packaging designs, product content, package
quantity, or with [one] exception … [,] labeling.’”51 In
our view, the FDA’s interpretation was impermissible
because
the
PPP
Act
“specifically
and
unambiguously” targeted and prescribed its own
regulatory approach to addressing the accidental
poisoning problem through packaging standards, and
the Consumer Product Safety Act “unambiguously
transferred authority to administer and enforce the
PPP Act from the FDA to the [Consumer Product
Safety Commission (CPSC)].”52 In both Brown &
Williamson and Nutritional Health, a history of
expressed congressional intent compelled the
conclusion that the FDA lacked authority. No such
history is present here.
Alpine contends that Nutritional Health requires
us to hold that the later-enacted SAR provision
“specifically and unambiguously” demonstrates
congressional intent for the Treasury to possess sole
authority to “address money laundering and terrorist
financing through the compilation of data derived
from various financial institutions.” According to
Alpine, this “specific authorization” to the Treasury
Id. at 94.
Id. at 102.
51 Id. at 104.
52 Id. (citing Brown & Williamson, 529 U.S. at 132-33)).
49
50

19a
Department trumps the general authorization to the
SEC. We disagree.
The SEC’s Rule 17a-8 Adopting Release, in 1981,
expressly stated that the “Treasury has delegated to
the Commission the responsibility for assuring
compliance with the Currency Act and Treasury
regulations.”53 No comments, or objections, were
received from the public in response to proposed Rule
17a-8.54 Later, when FinCEN adopted the SAR
reporting requirements through 31 C.F.R. § 1023.320,
it expressly stated that the Exchange Act enables “the
SROs, subject to SEC oversight, to examine for BSA
compliance” and therefore “both the SEC and SROs
will address broker-dealer compliance with this
rule.”55 That Congress never proposed to silo SAR
enforcement authority in the Treasury strongly
suggests that Congress intended for the SEC to
maintain its compliance authority and from the
outset, it was envisioned by both agencies that the
SEC would have enforcement authority over brokerdealers.
In sum, Alpine has not met its “heavy burden” to
show that Congress “clearly expressed [its]
intention”56 to preclude the SEC from examining for
Rule 17a-8 Adopting Release, 46 Fed. Reg. at 61,454.
Id. Additionally, when this rule was proposed, FinCEN
recognized that the SEC played a primary role in “reporting and
maintaining data about securities law violations” and that the
SEC had the authority, under Rule 17a-8, to examine for BSA
compliance. SAR Regulation Adopting Release, 67 Fed. Reg. at
44,051.
55 SAR Regulation Adopting Release, 67 Fed. Reg. at 44,049.
56 See Epic Sys. Corp., 138 S. Ct. at 1624.
53
54

20a
SAR compliance in conjunction with FinCEN and
pursuant to authority delegated under the Exchange
Act.
III. Rule 17a-8 Does Not Violate
Administrative Procedure Act

the

Alpine next contends that, even if the SEC does
have rulemaking authority under Section 17(a), Rule
17a-8 violates the APA. Specifically, Alpine argues
that the open-ended nature of Rule 17a-8, which
permits the automatic incorporation of future BSA
requirements, impermissibly allows the SEC to
bypass the notice-and-comment requirements of the
APA. We disagree.
The APA “requires an agency conducting noticeand-comment rulemaking to publish in its notice of
proposed rulemaking ‘either the terms or substance of
the proposed rule or a description of the subjects and
issues involved.’”57 The public had an opportunity to
comment on both Rule 17a-8 and Section
1023.320(a)(2) of the BSA regulations.
As discussed earlier, Rule 17a-8 was promulgated
in 1981 before FinCEN adopted its current SAR
reporting requirements. At the time, the BSA
regulations required broker-dealers to submit reports
of currency transactions and transactions involving
foreign accounts. The SEC indicated, when it
proposed Rule 17a-8, that requiring broker-dealers to
comply with the BSA was “consistent with the
Long Island Care at Home, Ltd. v. Coke, 551 U.S. 158, 174
(2007) (quoting 5 U.S.C. § 553(b)(3)).
57

21a
purposes of the Exchange Act and the [SEC]’s
obligation to enforce broker-dealer recordkeeping
requirements.”58
Moreover, when it was published for notice and
comment, the proposed Rule 17a-8 expressly stated
that it did “not specify the required reports and
records so as to allow for any revisions the Treasury
may adopt in the future.”59 When the SEC formally
adopted the Rule, in its Rule 17a-8 Adopting Release,
the SEC further made clear that the Rule would
“allow for any revisions the Treasury may adopt in the
future.”60
Accordingly, we conclude that the public was
afforded the requisite notice and opportunity to
comment on Rule 17a-8 and, in particular, its
potential
to
require
additional
reporting
requirements should the Treasury regulations specify
them.

Recordkeeping by Brokers & Dealers, Release No. 18073 (Aug.
31, 1981).
59 Rule 17a-8 Adopting Release, 46 Fed. Reg. at 61,455. Alpine
argues that the SEC’s Rule 17a-8 Adopting Release also
acknowledged that its role, with respect to the BSA, was limited
to merely examination authority. That seems to be a
mischaracterization. Rule 17a-8 Adopting Release stated that
“most effective means of enforcing compliance” with the BSA
requirements was through on-site “examinations” but there is no
indication that SEC was limited to mere examination and could
not enforce the BSA provisions. The same notice stated that the
“Treasury has delegated to the Commission the responsibility for
assuring compliance with the Currency Act and Treasury
regulations.” 46 Fed. Reg. at 61,454.
60 Rule 17a-8 Adopting Release, 46 Fed. Reg. at 61,454.
58

22a
The suspicious activity recordkeeping and
reporting requirements of Section 1023.320(a)(2),
incorporated into Rule 17a-8, were also subject to
public notice-and-comment. In 2002, when it proposed
Section 1023.320(a)(2), FinCEN publicly stated that
both the SEC and SROs would “address broker-dealer
compliance” with its requirements, including through
enforcement actions, as they had done with other BSA
recordkeeping and reporting requirements for
decades.61 In response to comments it received,
FinCEN revised its proposed rule in “significant
respects” and provided extensive guidance regarding,
among other matters, the standard and scope of
reporting.62 The publication of the SAR regulations
under Section 1023.320(a)(2) provided ample noticeand-comment opportunities in satisfaction of the
APA’s requirements.
We reject Alpine’s argument that the SEC was
required to seek future public comments each time
FinCEN issued new BSA reporting requirements to
avoid an “improper delegation [to Treasury] of
rulemaking authority under the Exchange Act.”
Alpine Br. 42-43.
“An agency delegates its authority when it shifts
to another party almost the entire determination of
whether a specific statutory requirement … has been
satisfied, or where the agency abdicates its final

Financial Crimes Enforcement Network; Proposed
Amendment to the Bank Secrecy Act Regulations—Requirement
of Brokers or Dealers in Securities to Report Suspicious
Transactions, 66 Fed. Reg. 67,670 (Dec. 31, 2001).
62 SAR Regulation Adopting Release, 67 Fed. Reg. at 44,049.
61

23a
reviewing authority.”63 But Rule 17a-8 does not
charge the Treasury with deciding which
recordkeeping and reporting requirements would
further the purposes of the Exchange Act. Instead, the
SEC determined, through notice-and-comment
rulemaking, that any reporting requirements that the
Treasury imposed on broker-dealers pursuant to its
independent authority under the BSA would be
“consistent with the purposes of the Exchange Act
and the [SEC’s] obligation to enforce the brokerdealer recordkeeper requirements.”64
Moreover, the SEC has not taken the position that
Rule 17a-8 obliges the SEC to automatically adopt
any changes the Treasury may make to the BSA’s
recordkeeping
and
reporting
requirements,
regardless of whether they are consistent with the
purposes of the Exchange Act. Rather, the SEC has
worked together with FinCEN on the SAR regulation,
“update[d] the reference to the BSA implementing
regulations” in 2011, and in a formal adjudication,
reiterated that requiring broker-dealers to maintain
records and file reports of suspicious activity is
consistent with the purposes of the Exchange Act.65
Alpine has failed to demonstrate either that the SEC
has impermissibly delegated authority to the
Treasury under the Exchange Act, or that it has
abdicated its final reviewing authority relating to

Fund for Animals v. Kempthorne, 538 F.3d 124, 133 (2d Cir.
2008) (internal citations and quotation marks omitted).
64 Rule 17a-8 Adopting Release, 46 Fed. Reg. at 61,455.
65 Technical Amendments to Rule 17a-8, 76 Fed. Reg. at 11,328;
see also Ronald S. Bloomfield et al., Release No. 71632, 2014 WL
768828 (Feb. 27, 2014).
63

24a
broker-dealer
requirements.

recordkeeping

and

reporting

Accordingly, in this case, there are no APA
concerns because the public was fully aware of the
interrelated and cohesive nature of the regulations of
both agencies. Holding otherwise would only serve to
waste governmental resources and hinder efficient
enforcement.
Because both Rule 17a-8 and the SAR regulation
were open to public comment, this situation is
distinguishable from United States v. Picciotto66 and
City of Idaho Falls v. F.E.R.C.67 on which Alpine
relies. Neither case is apposite.
In United States v. Picciotto, the D.C. Circuit held
that additional conditions that were added to
regulations governing the United States Park Service
violated the APA, notwithstanding that the
regulation contained an open-ended provision that
had gone through notice and comment.68 But, unlike
this case, in which the SAR requirement had been
promulgated by the Treasury in compliance with the
APA, the additional regulatory conditions in Picciotto
were never issued in compliance with the APA.69
In City of Idaho Falls v. F.E.R.C, the Federal
Energy Regulatory Commission (FERC) had
previously approved a methodology, used by the

875 F.2d 345 (D.C. Cir. 1989).
629 F.3d 222 (D.C. Cir. 2011).
68 875 F.2d at 346-47.
69 Id.
66
67

25a
Forest Service, for setting rental fees.70 FERC then
incorporated a new Forest Service rental fee schedule
without providing an opportunity for notice and
comment.71 The D.C. Circuit held that “[b]ecause
FERC previously approved and used the old Forest
Service methodology, its implicit acceptance of the
new methodology in the 2009 Update marked a
change in its own regulations” which required noticeand-comment rulemaking.72 Our case differs from
City of Idaho Falls because all changes to FinCEN
reporting regulations are open to public comment and
will be APA compliant whenever such changes occur,
as happened with the issuance of Section 1023.320.
In sum, we find that because: (1) the SEC made
clear in its request for public comment that Rule 17a8 incorporated present and future Treasury SAR
reporting requirements, and would be modified
accordingly; (2) FinCEN itself published its SAR
reporting requirements for public comment; and (3)
FinCEN expressly notified the public that the SEC
would continue to enforce the BSA’s reporting
changes, Rule 17a-8 did not violate the notice-andcomment requirements of the APA.
IV. The District Court Did Not Err in
Granting Summary Judgment with
Respect to the SARs
The district court granted summary judgment to
the SEC as to 2,720 violations of Rule 17a-8 on the
629 F.3d at 223.
Id. at 227-29.
72 Id. at 231.
70
71

26a
basis of certain of Alpine’s SARs reporting and
recordkeeping practices—specifically, submitting
SARs with deficient narratives, failing to submit
SARs on deposit-and-sales patterns, and failing to
retain support files for SARs. Alpine argues that the
district court erred when it: (1) deferred to the SEC’s
interpretation of FinCEN guidance; and (2) applied a
“purely mechanical” test in finding that Alpine did not
adequately comply with its SAR reporting
requirements. Both arguments are without merit.
First, there is no indication in this record that the
district court improperly deferred to the SEC. The
district court did nothing other than independently
interpret the supporting FinCEN documentation,
which was consistent with the SEC’s interpretation.
The district court stated that it was relying on
“instructions on the 2002 SAR Form, the 2012 SAR
Instructions, and the SAR Narrative Guidance issued
[by FinCEN] in 2003.”73 As relevant here, the 2002
SAR Form makes clear that the narrative section of
the SAR “is critical.”74 It further provides,
The care with which [the narrative section] is
completed may determine whether or not the
described activity and its possible criminal
nature
are
clearly
understood
by
investigators. Provide a clear, complete and
chronological description … of the activity,
including what is unusual, irregular or
Alpine Sec. Corp., 354 F. Supp. 3d at 414.
Id. at 413 (emphasis in original); 2002 SAR Form at 3
(emphasis in original).

73
74

27a
suspicious about the transaction(s), using the
checklist below as a guide.75
The district court read the totality of the FinCEN
guidance, in the 2002 SAR Form, 2003 Narrative
Guidance, and 2012 Instructions, to indicate that
certain “red flags” may evidence SAR reporting
violations. The “red flags” included: (1) related
litigation; (2) shell companies and derogatory stock
history; (3) stock promotion; (4) unverified issuers; (5)
low trading volume; (6) foreign involvement; (7) basic
customer information.76
As one example, the district court found that
Alpine failed on multiple occasions to provide SAR
information regarding related litigation. Specifically,
Alpine “omitted information, which was present in
Alpine’s support files for the SARs, [that] indicated
that the SEC had sued one customer and its CEO for
fraud in connection with asset valuations and
improper allocations of expenses, that another
customer had pleaded guilty to conspiracy related to
counterfeiting, and that yet another customer had a
history of being investigated by the SEC for
misrepresentations.”77
Once the district court determined that such “red
flags” triggered certain SAR obligations, it then used
an objective test to determine whether summary
judgment was warranted. We agree with the district
court’s approach to summary judgment in this case
Alpine Sec. Corp., 354 F. Supp. 3d at 413-14 (emphasis in
original).
76 Id. at 426-40.
77 Id. at 426-27.
75

28a
and reject Alpine’s argument that its own subjective
belief as to what needed to be reported sufficed.
Importantly, the text of 31 C.F.R. § 1023.320(a)(2)
supports the district court’s finding that the SAR
regulation imposes an objective test (i.e., brokerdealers shall file an SAR if it “knows, suspects, or has
reason to suspect” that a transaction is suspicious).
Alpine points to isolated parts of FinCEN guidance in
support of its argument that a subjective test must be
utilized.78 But, Alpine does so while ignoring
FinCEN’s express statement that the SAR reporting
provision requires an objective standard:
The final rule retains the “has reason to
suspect” language. FinCEN believes that
compliance with the rule cannot be
adequately enforced without an objective
standard. The reason-to-suspect standard
means that, on the facts existing at the time,
a reasonable broker-dealer in similar
circumstances would have suspected the
transaction was subject to SAR reporting.
This is a flexible standard that adequately
takes into account the differences in
operating realities among various types of
broker-dealers, and is the standard contained
in the existing SAR rules for depository
institutions and money services businesses.79

Alpine Br. 49.
SAR Regulation Adopting Release, 67 Fed. Reg. at 44,053
(emphasis added).
78
79

29a
While subjective factors may be relevant where the
enforcing agency shows that the broker-dealer
actually “knows” or “suspects” that the transaction is
subject to SAR reporting, the “reason to suspect”
standard sensibly permits the use of objective “red
flags” that would alert reasonable broker-dealers to
the fact that that the transaction required a SAR
report.80 Accordingly, the district court did not err in
its determination that an objective analysis was
proper.
We also reject Alpine’s claim that the district
court’s examination was “purely mechanical.” The
district court inspected the allegedly deficient SARs
before making its determination. In its 100-page
opinion, the district court recognized that each “SAR
must, of course, be examined individually” and,
without announcing a mechanical or bright-line test,
reviewed all of the alleged deficiencies before
concluding that, given the “sheer number of [Alpine’s]
lapses at issue in this case[,]” summary judgment was
warranted.81 Indeed, Alpine did not “contest in a large
number of instances that it failed to include
information in SAR narratives that the SAR Form
itself directs a broker-dealer to include.”82
Alpine finally argues that the district court
“ignore[d]” that certain assertions created genuine
disputes of fact.83 We disagree. As noted above, in
many instances, Alpine did not dispute the fact that
See SEC Br. 65.
Alpine Sec. Corp., 354 F. Supp. 3d at 419, 436 (emphasis
added).
82 Id. at 419.
83 Alpine Br. 69.
80
81

30a
it failed to include required information in SAR
narratives. When Alpine raised properly supported
factual disputes as to specific SARs, the district court
ruled in its favor.84 But, for example, the district court
did not err in rejecting as “vague and conclusory”
Alpine’s assertion that it filed SARs for large deposits
of low-priced securities even though it concluded it
was not required to do so.85 Plainly, when Alpine’s
evidence did create genuine disputes of material fact
as to particular SARs, the district court considered it.
In sum, the district court did not err in granting
summary judgment to the SEC as to Alpine’s liability
on the basis of 2,720 violations of the reporting,
recordkeeping, and record retention requirements of
Section 17(a) and Rule 17a-8.
V. In Imposing the Civil Penalty, the
District Court Did Not Abuse Its
Discretion
Alpine finally challenges the district court’s
imposition of a $12 million civil penalty for the 2,720
SAR violations of the reporting, recordkeeping, and
record retention requirements of Section 17(a) and
Rule 17a-8. The SEC requested that the district court
impose a tier-one civil penalty of $10,000 for each SAR
violation and $1,000 for each support-file violation,

84
85

See, e.g., Alpine Sec. Corp., 354 F. Supp. 3d at 431.
Id. at 423 n.44.

31a
totaling $22.7 million.86 Alpine argued that the total
penalty should fall between $80,000 and $720,000.87
Section 21(d) of the 1934 Exchange Act authorizes
monetary penalties for statutory violations.88 In
assessing a penalty, a court may impose “a first-tier
penalty … for any violation,” regardless of mental
state or other factors.89 Within the maximum penalty
authorized by the statute, the “actual amount of the
penalty” is left “up to the discretion of the district
court.” Because the amount of the penalty is left to the
sound discretion of the district court, we review an
award of penalties for abuse of discretion.90
Here, we conclude that the district court did not
abuse its discretion in imposing the $12 million civil
penalty. The breadth and duration of Alpine’s
deficient reporting and recordkeeping activity
supports the district court’s imposition of the civil
penalty. The district court did recognize that Alpine
“took some steps to improve … compliance.”91 But as
the district court noted, “[a]lthough the extraordinary
scale of Alpine’s violations decreased over the years,
the violations did not cease.”92 The district court
found that the “scale and duration” of the violations

United States Sec. & Exch. Comm’n v. Alpine Sec. Corp., 413
F. Supp. 3d 235, 245 (S.D.N.Y. 2019).
87 Id. at 248.
88 See 15 U.S.C. § 77t(d); 15 U.S.C. § 78u(d)(3).
89 SEC v. Ramilovic, 738 F.3d 14, 38 (2d Cir. 2013).
90 Id.
91 Sp. App’x 253.
92 Sp. App’x 256.
86

32a
“undermine[d] Alpine’s assertion that its conduct
was, at worst, merely negligent.”93
Alpine’s arguments to the contrary are without
merit. Insofar as Alpine’s challenge to the civil
penalty is based on the premise that the district court
erroneously concluded that Alpine acted with
“scienter,” the district court expressly noted that “a
finding of scienter is not required to impose the tierone penalty sought by the SEC.”94 Nor does the
“sheer, unprecedented” amount of the penalty itself
rise to the level of abuse of discretion.95 The total
amount was driven by the “unprecedented number of
violations” of Section 17(a) and Rule 17a-8 committed
by Alpine.96 Alpine’s argument that the district court
disregarded evidence of the firm’s financial condition
is similarly unavailing. The district court expressly
stated that Alpine’s financial records indicated that it
would have had the ability to pay the $22.7 million
penalty requested by the SEC, but it still imposed a
penalty that was “substantially less” due to Alpine’s
financial condition.97
All in all, the district court acted within its discretion
to impose the $12 million civil penalty in light of the
Sp. App’x 253.
Sp. App’x 252-53 (emphasis added).
95 Alpine Br. 81. Notably, Alpine itself does not argue that the
individual $5,000 penalty for failing to file an SAR or filing a
deficient SAR, or $1,000 penalty for failing to produce a SAR
support file upon request, are unreasonable.
96 See SEC Br. 100. Alpine’s argument that the penalty is
excessive in light of the BSA’s comparable penalty provisions is
of no moment. As discussed, the SEC brought this enforcement
action pursuant to Section 17 of the Exchange Act.
97 Sp. App’x 265.
93
94

33a
particular facts and circumstances of this case,
namely, Alpine’s “systematic and widespread evasion
of the law.”98
We have considered Alpine’s remaining arguments on
appeal and conclude that they are without merit.
CONCLUSION
For the reasons stated above, the judgment of the
district court is AFFIRMED.

98

Sp. App’x 259-60.

34a
APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
UNITED STATES SECURITIES AND EXCHANGE
COMMISSION,
Plaintiff,
-vALPINE SECURITIES CORPORATION,
Defendant.
17cv4179 (DLC)
AMENDED REDACTED OPINION AND ORDER
For the plaintiff:
Zachary T. Carlyle
Terry R. Miller
U.S. Securities and Exchange Commission
1961 Stout Street, 17th Floor
Denver, CO 80294
For the defendant:
Maranda E. Fritz
Thompson Hine LLP
335 Madison Avenue, 12th Floor
New York, NY 10017
Brent R. Baker
Aaron D. Lebenta
Jonathan D. Bletzacker

35a
Clyde Snow & Sessions
One Utah Center, 201 South Main Street, Suite 1300
Salt Lake City, Utah 84111
DENISE COTE, District Judge:
Plaintiff United States Securities and
Exchange Commission (“SEC”) seeks an injunction
and imposition of $22,736,000 in civil penalties
against defendant Alpine Securities Corporation
(“Alpine”) for Alpine’s 2,720 violations of its obligation
to file suspicious activity reports (“SARs”). Alpine
opposes imposition of any injunction and contends
that the civil penalties should not exceed $720,000.
For the following reasons, an injunction will issue
against Alpine and civil penalties are assessed in the
amount of $12,000,000.
Background
Much of the factual and regulatory background
relevant to this motion is described in the two
summary judgment Opinions issued in March and
December 2018. See SEC v. Alpine Sec. Corp., 308 F.
Supp. 3d 775 (S.D.N.Y. 2018) (“March Opinion”); SEC
v. Alpine Sec. Corp., 354 F. Supp. 3d 396 (S.D.N.Y.
2018) (“December Opinion”).1 Familiarity with those
Opinions is assumed and they are incorporated by
reference.

The March Opinion granted summary judgment on certain
exemplar SARs. Applying the legal standards articulated in the
March Opinion, the December Opinion addressed all of the
individual SARs on which the SEC sought summary judgment
and granted that motion in part.
1

36a
The Low-Priced Securities Market
Alpine principally provides brokerage clearing
services for penny stocks and microcap securities
traded in the over-the-counter market.2 The markets
for these low-priced securities (“LPS”) are rife with
fraud and abuse. The Penny Stock Reform Act of
1990, for example, identified as problems with the
penny stock markets “a serious lack of adequate
information concerning price and volume of penny
stock transactions,” involvement by individuals
banned from the securities markets in roles such as
“promoters” or “consultants,” and the use of shell
corporations to facilitate market manipulation
schemes. Pub. L. No. 101-29, § 502(6)-(8), 104 Stat.
931, 951; see also December Opinion, 354 F. Supp. 3d
at 406.
Financial regulators like FINRA,3 FinCEN,4
and the SEC have warned investors of the risks of
fraud connected to investments in LPS. FINRA has
warned investors, in particular, about the risk that
the issuer of a penny stock may be a shell company for
The term “over-the-counter market” is used to describe “the
trading of securities other than on a formal centralized
exchange” such as the New York Stock Exchange. 4 Hazen,
Treatise on the Law of Securities Regulation § 14:3 (2017).
3 FINRA, or the Financial Industry Regulatory Authority, is a
self-regulatory organization (“SRO”) that supervises brokerdealers. See Fiero v. Financial Industry Regulatory Auth., Inc.,
660 F.3d 571 & n.1 (2d Cir. 2011).
4 FinCEN, or the Financial Crimes Enforcement Network, is a
division of the U.S. Department of the Treasury (“Treasury
Department”) responsible for administering the Bank Secrecy
Act (“BSA”), among other things. See March Opinion, 308 F.
Supp. 3d at 791.
2

37a
those seeking to launder money or conduct illicit
activity.5 The SEC has observed that “information
about microcap companies can be extremely difficult
to find, making them more vulnerable to investment
fraud schemes and making it less likely that quoted
prices in the market will be based on full and complete
information about the company.”6
Regulatory Framework
The Bank Secrecy Act (“BSA”), 31 U.S.C.
§ 5311, et seq., first enacted in 1982, requires brokerdealers like Alpine to file SARs. Under the BSA, the
Secretary of the Treasury may “require any financial
institution … to report any suspicious transaction
relevant to a possible violation of law or regulation.”
31 U.S.C. § 5318(g)(1). The Secretary has delegated
this authority to FinCEN,7 and, in 2002, the Treasury
Department and FinCEN promulgated 31 C.F.R.
§ 1023.320 (“Section 1023.320”).8

See FINRA, Beware Dormant Shell Companies (Mar. 14, 2016),
http://www.finra.org/investors/beware-dormant-shellcompanies; see also FinCEN, The Role of Domestic Shell
Companies in Financial Crime and Money Laundering: Limited
Liability Companies (Nov. 2006), https://www.fincen.gov
/sites/default/ files/shared/LLCAssessment_FINAL.pdf.
6 SEC, Microcap Stock: A Guide for Investors (Sept. 18, 2013),
https://www.sec.gov/reportspubs/investor-publications/investor
pubsmicrocapstockhtm.html.
7 See Treasury Order 180-01, 67 Fed. Reg. 64,697, 64,697
(Oct. 21, 2002).
8
See FinCEN, Amendment to the Bank Secrecy Act
Regulations—Requirement that Brokers or Dealers in Securities
Report Suspicious Transactions, 67 Fed. Reg. 44,048 (July 1,
2002) (“FinCEN Section 1023.320 Notice”). The USA PATRIOT
5

38a
As described in greater detail in the December
Opinion, Section 1023.320 provides that “[e]very
broker or dealer in securities within the United
States … shall file with FinCEN, to the extent and in
the manner required by this section, a report of any
suspicious transaction relevant to a possible violation
of a law or regulation.” 31 C.F.R. § 1023.320(a)(1)
(emphasis added). Under Section 1023.320, a
transaction requires reporting if it is “conducted or
attempted by, at, or through a broker-dealer,”
“involves or aggregates funds or other assets of at
least $5,000,” and the broker-dealer “knows, suspects,
or has reason to suspect” that the transaction (or
pattern of transactions) “[i]nvolves use of the brokerdealer to facilitate criminal activity.” Id.
§ 1023.320(a)(2)(iv).
In addition, Section 1023.320 requires a
broker-dealer to retain a copy of any SAR filed and
supporting documentation “for a period of five years
from the date of filing the SAR.” Id. § 1023.320(d). It
further requires a broker-dealer to “make all
supporting documentation available to FinCEN or
any Federal, State, or local law enforcement agency,
or any Federal regulatory authority that examines a
broker-dealer for compliance with the Bank Secrecy
Act, upon request.” Id. SARs are currently submitted
to FinCEN via an electronic SAR Form.9 The SAR
ACT of 2001, Pub. L. No. 107-56, 115 Stat. 272 (the “Patriot
Act”), significantly expanded the scope of the BSA.
9 As explained in the December Opinion, two versions of the SAR
Form were in effect during the period at issue in this litigation:
one version from 2002 to 2012 (the “2002 SAR Form”) and
another version after 2012 (the “2012 SAR Form”). See December
Opinion, 354 F. Supp. 3d at 413 n.18. In connection with the

39a
Form states that the narrative section of the SAR “is
critical.” 2002 SAR Form at 3 (emphasis in original).
It further provides,
The care with which [the narrative
section] is completed may determine
whether or not the described activity and
its possible criminal nature are clearly
understood by investigators. Provide a
clear, complete and chronological
description … of the activity, including
what is unusual, irregular or suspicious
about the transaction(s), using the
checklist below as a guide.
Id. (emphasis in original).
FinCEN has issued several guidance
documents explaining the scope of the SAR reporting
duty in the narrative section of the SAR Form. A
summary of that guidance, including examples of
relevant information identified by FinCEN, is
provided in the December Opinion. See 354 F. Supp.
3d at 415. 1
As the Treasury Department has explained,
the SEC enforces SAR regulations pursuant to
2012 SAR Form, FinCEN published an instructional document.
See FinCEN, FinCEN Suspicious Activity Report (FinCEN SAR)
Electronic
Filing
Instructions
(2012),
https://www.fincen.gov/sites/default/files/shared
/FinCEN%20SAR%20ElectronicFilingInstructions-%20Stand%
20Alone%20doc.pdf (“2012 SAR Instructions”). The 2012 SAR
Instructions are similar to those in the 2002 SAR Form in all
respects that are material to this litigation.

40a
Section 17(a) of the Securities Exchange Act of 1934
(“Exchange Act”), 15 U.S.C. § 78a, et seq., and SEC
Rule 17a-8. Rule 17a-8 requires a broker-dealer to
“comply with the reporting, recordkeeping and record
retention requirements of chapter X of title 31 of the
Code of Federal Regulations.” 17 C.F.R. § 240.17a-8.
The reporting, recordkeeping, and retention
requirements incorporated by Rule 17a-8 include
those described in Section 1023.320. See December
Opinion, 354 F. Supp. 3d at 411-12.
Alpine’s Failure to Comply with SAR Regulations
Alpine is a clearing broker that primarily
provides clearance and settlement services for
microcap securities traded in the over-the-counter
market. It was purchased by its current owner in
early 2011. That owner also owns Alpine’s affiliate
Scottsdale Capital Advisors (“SCA”), the introducing
broker for most of the transactions at Alpine that are
at issue here. SCA settled a FINRA enforcement
action in November 2011 that the SEC had brought
for, among other things, SCA’s own failure to file
SARs and its omission of material information from
the SARs it did file.10
From March 2, 2011 through January 22, 2012,
FINRA conducted a financial, operational, and sales
practices examination of Alpine. On July 23, 2012,
See Order Accepting Offer of Settlement, In the Matter of
FINRA Department of Enforcement v. Scottsdale Capital
Advisors Corp. and Justine Hurry, Disciplinary No.
2008011593301
at
11-12,
21-22
(Nov.
14,
2011),
https://www.finra.org/sites/default/files/fda_documents/2008011
593301_FDA_TX93804.pdf.
10

41a
FINRA shared its highly critical findings with Alpine
during an exit meeting. On September 28, 2012,
FINRA issued its seven-page report of that
examination (“FINRA Report”), documenting Alpine’s
widespread failures to comply with its obligations
under the regulations that govern its industry.
The FINRA Report identified ten exceptions to
Alpine’s practices. It disclosed that Alpine failed to
timely file any SARs for over six months in 2011 (from
March 1 through May 10, and from August 16
through December 19). FINRA concluded that the
SARs Alpine later filed for transactions occurring
during this period were all filed late. The FINRA
Report concluded more generally that Alpine had
“failed to establish and enforce procedures reasonably
designed to detect and report suspicious activity.”
In addition, the FINRA Report determined that
the narrative sections of the 823 SARs that Alpine
filed during the examination period were
“substantively inadequate” and in violation of Section
1023.320. The FINRA report emphasized that the
narratives for Alpine’s SARs “failed to fully describe
why the activity was suspicious” and therefore
“fail[ed] to justify at the basic core the legitimacy of
the SAR filing.” It criticized Alpine for submitting
SARs in the form of two basic, boilerplate templates,
“neither of which were substantively adequate as they
failed to fully describe why the activity was
suspicious.”
As the December Opinion confirmed, Alpine’s
SAR narratives were woefully inadequate. Over half
of the SARs on which the December Opinion granted

42a
summary judgment were deficient in several
significant respects, failing to include multiple pieces
of information that the SAR Form and its instructions
require to be included. See December Opinion, 354 F.
Supp. 3d at 420.
During and after the FINRA examination,
Alpine’s ownership hired additional legal and
compliance personnel and took some measures to
improve its anti-money laundering (“AML”) program.
Beginning in the fall of 2012, for example, Alpine
arranged for an annual audit of its AML program and
created standard operating procedures for compliance
with AML regulations.
Roughly two-thirds of the SARs that the SEC
contends Alpine filed with deficient narrative sections
were filed before September 28, 2012, the date on
which Alpine received the FINRA Report. Alpine’s
faulty practices, however, continued well beyond that
date. Roughly one-third of the SARs at issue in this
action were filed after October 1, 2012, including in
2013, 2014, and 2015. The December Opinion granted
summary judgment on hundreds of separate
violations of Section 1023.320 that occurred in both
2013 and 2014, many of which were the failure to file
a SAR when Alpine had the obligation to do so. The
SEC identified comparatively few violations that
occurred during the year 2015.
There is a snapshot of Alpine’s practices as
they existed about two years after the FINRA exit
interview in July 2012. In July 2014, the SEC Office
of Compliance Inspections and Examinations
(“OCIE”) conducted a one-week on-site review of

43a
Alpine’s compliance practices. The OCIE Report
reviewed 252 of the over 4,600 SARs filed by Alpine
between January 2013 and July 2014. On April 9,
2015, OCIE issued a report (“OCIE Report”) strongly
critical of Alpine.
The OCIE Report found that 50% of the 252
SARs “failed to completely and accurately disclose key
information of which [Alpine] was aware at the time
of filing.” It concluded that Alpine’s SAR “narratives
generally contained ‘boilerplate’ language and very
little—if any—specific and material information that
Alpine identified in its investigations of the matters.”
It criticized Alpine for omitting mention of many red
flags for suspicious activity, such as a customer’s civil,
regulatory, or criminal history; foreign involvement
with the transactions; concerns about an issuer; stock
promotion activity; or that an issuer had been a shell
company. According to the OCIE Report, Alpine’s
failure to disclose key information “rendered the
SARs less valuable to investigators trying to
understand the activity and any criminal or
administrative implications thereof.”
The OCIE report described Alpine’s conduct as
“recidivist activity” (emphasis in original) since it
persisted notwithstanding the 2012 FINRA
examination. The OCIE Report concluded that
Alpine’s compliance practices violated Rule 17a-8 and
“obscured the true nature of the suspicious activity.”
It further concluded that many of Alpine’s SARs
appeared to indicate that Alpine was “intentionally
trying to obfuscate or distort the truly suspicious
nature of the activity that [Alpine] is required to
report to law enforcement.” These conclusions are

44a
entirely consistent with the Court’s own assessment
based on its review of materials submitted by the
parties in connection with the summary judgment
motions.
The SEC’s Action Against Alpine
The SEC filed this action against Alpine on
June 5, 2017. Its complaint alleged violations of Rule
17a-8 during a period of May 17, 2011 through
December 31, 2015. As invited by the Court, the SEC
moved for partial summary judgment based on
exemplar SARs in each of four categories that it
alleged revealed violations of Rule 17a-8.11 See March
Opinion, 308 F.
Relying on the guidance given in the March
Opinion regarding the legal standards that would be
applied in this action, the SEC thereafter moved for
summary judgment as to Alpine’s liability for several
thousand individual violations of Rule 17a-8. The
SEC’s motion focused on four categories of
deficiencies in Alpine’s compliance with SAR
reporting requirements: (i) filing SARs with deficient
narratives (“Deficient Narrative SARs”), (ii) failing to
file SARs reflecting sales that followed large deposits
of LPS (“Failure to Report Violations”), (iii) filing
SARs long after the transactions were completed
(“Late-Filed SARs”),12 and (iv) failing to maintain and
Alpine declined to submit exemplars to assist in the
development of the legal framework that would govern this
action. December Opinion, 354 F. Supp. 3d at 405. Supp. 3d at
781.
12 The December Opinion denied summary judgment as to this
category because the SEC did not show that Alpine had an
11

45a
produce support files for SARs (“Support Files
Violations”). The December Opinion granted in part
the SEC’s motion for summary judgment, finding
thousands of violations of Rule 17a-8 based on
Alpine’s Deficient Narrative SARs, Failure to Report
Violations, and Support Files Violations. 354 F. Supp.
3d at 422-45.
The findings in the December Opinion are
highly relevant to this decision on penalties. While
those findings are incorporated by reference and will
not be repeated here, the granularity of the findings
and the extent to which they reveal how widespread
the deficiencies were in Alpine’s SAR-filing system
bear emphasis.
The December Opinion is significant as well for
the determination of penalties because it is a decision
rendered on a summary judgment motion. It reflects
an extremely conservative finding regarding the
extent of Alpine’s disregard of its legal obligations. In
identifying those circumstances in which there could
be no factual dispute regarding Alpine’s failure to
abide by those legal obligations, the December
Opinion relied on a narrow set of measurements. A
few examples suffice. Although the SEC had argued
that SARs were deficient for failing to include
information that there was a history of stock
promotion activity in connection with deposited LPS
up to eighteen months before the SAR was filed, the
obligation to file these SARs. To show that Alpine had an
obligation to file the SARs, the SEC had relied exclusively on the
fact that FINRA had ordered Alpine to file the SARs. See
December Opinion, 354 F. Supp. 3d at 443.

46a
December Opinion granted summary judgment only
for those SARs that failed to report stock promotion
activity that occurred within six months of a
substantial deposit of LPS. Id. at 433. Similarly, the
SEC sought summary judgment for SARs that failed
to disclose the comparatively low trading volume in
deposited LPS where the deposit represented at least
three times the average daily trading volume of the
stock when measured over the three months
preceding the deposit. The December Opinion granted
summary judgment only where the ratio between the
shares deposited in a single transaction was at least
twenty times the average daily trading volume over
the three-month period prior to the deposit. Id. at 437.
As a final example, while Alpine may have had a duty
to file as many as 3,568 SARs to report the
liquidations that followed the deposit of a large
number of shares of LPS, the December Opinion
adopted a conservative measure and found only 1,218
violations.13 Id. at 441. Using such conservative
measures, summary judgment was entered for over
2,200 SAR-related violations.14

The SEC asserted that Alpine had a duty to file a SAR
reflecting certain patterns of sales that followed a large deposit
of LPS. The SEC identified 1,242 deposit-and-liquidation groups,
which together include 3,568 individual sales of shares worth
$5,000 or more. Although the liquidation of a deposit of a large
number of shares of LPS is a hallmark of market manipulation,
Alpine had filed no SARs for those sales. December Opinion, 354
F. Supp. 3d at 441.
14 In opposition to the SEC’s request for remedies, Alpine defends
its actions by arguing that the law’s requirements were less than
clear. As explained in the March Opinion, however, the
standards governing Alpine’s SAR obligations are clearly
established by Section 1023.320, the SAR Forms, and FinCEN
13

47a
The December Opinion also revealed in other
ways the risks to market integrity represented by
Alpine’s decision to ignore its regulatory obligations.
For instance, in establishing that Alpine had a legal
duty to file the SARs that the SEC asserted had been
filed with a deficient narrative section, the SEC
identified six red flags which triggered a brokerdealer’s duty to file a SAR. These red flags were
derived from the SAR Form and its instructions as
well as FinCEN and other guidance interpreting
Section 1023.320. The red flags “take into account the
unique characteristics of the LPS markets such as the
difficulty in obtaining objective information about
issuers, the risk of abuse by undisclosed insiders, and
the opportunity for market manipulation schemes.”
Id. at 425-26.
The six red flags are: (1) the existence of any
related litigation; (2) the issuer’s status as a shell
company or a history of derogatory information
regarding the issuer; (3) a history of stock promotion
guidance documents. See March Opinion, 308 F. Supp. 3d at 78995. Moreover, Alpine was warned of violations of its SAR
obligations as early as July 23, 2012, when FINRA conducted an
exit meeting concerning the deficiencies in Alpine’s AML
program and the SARs it had filed. To the extent Alpine relies in
part on the December Opinion’s refusal to grant summary
judgment for all of the SARs at issue, Alpine’s argument
mistakes the summary judgment standard, which seeks only to
identify material, disputed issues of fact, with a verdict at trial,
which determines whether a violation occurred by resolving
those factual disputes. Alpine has not identified any uncertainty
in the law that excused its violations, as found in the December
Opinion. Had there been a finding of additional violations at
trial, it is highly doubtful that Alpine would have been able to do
so at that time either.

48a
in connection with the LPS being deposited; (4) the
existence of an unverified issuer, e.g., an issuer with
an expired business license or nonfunctioning
website; (5) a comparatively low average daily trading
volume compared to the amount of stock being
deposited in a single transaction; and (6) involvement
in the transaction by a foreign entity or individual. Id.
at 425-39. Alpine admitted, with one exception, that
the red flags identified by the SEC required Alpine to
investigate the transaction to determine whether a
SAR had to be filed. Id. at 426. These red flags existed
in thousands of transactions at issue in the motion.
Frequently there were multiple red flags for a single
transaction.
The March and December Opinions also
illuminate the extent to which Alpine has continued
right up until today to deny that it had a deficient
SAR-filing regime. For example, it took the extreme
position in this litigation that its filing of a SAR could
not be taken as an admission that it had any duty to
file a SAR in connection with the transaction. It
argued that the SEC had to independently show that
Alpine had such a duty to file a SAR for each
transaction because Alpine’s filings were simply
“voluntary” filings as opposed to filings made
pursuant to the law’s mandates to alert regulators to
suspicious trading activity. March Opinion, 308 F.
Supp. 3d at 799 & n.20.
One more example is useful to illustrate
Alpine’s continued resistance to its legal obligations.
In opposition to summary judgment Alpine argued
that, even if it was required to file a SAR, it did not
have to disclose the existence of a red flag in the SAR’s

49a
narrative section. This argument was rejected for
several reasons. December Opinion, 354 F. Supp. 3d
at 426. Among those reasons was the substance of the
SARs themselves. Nearly all of Alpine’s SARs used
“template narratives that failed to include any
details, positive or negative, about the transactions.”
Id. The December Opinion found that, while a fulsome
SAR narrative could have presented a question of fact
as to whether it also should have included a
discussion of the red flags in the SAR narratives,
“except in rare instances Alpine has not shown that
its SAR narratives contained sufficient information to
create [such] a question of fact.” Id.
After the December Opinion was issued, a
conference on April 12 and an Order of April 30, 2019
resolved all remaining disputes on that Opinion’s
findings. As the parties now agree, the December
Opinion granted summary judgment as to 2,720
violations comprising 1,010 Deficient Narrative
SARs, 1,214 Failure to Report Violations, and 496
Support Files Violations.
The SEC has decided to forgo trial on the
remainder of the alleged violations of Rule 17a-8. Its
motion for remedies was filed on May 3 and became
fully submitted on July 11.
Discussion
“Once the district court has found federal
securities law violations, it has broad equitable power
to fashion appropriate remedies.” SEC v. Frohling,
851 F.3d 132, 138 (2d Cir. 2016) (citation omitted).

50a
These remedies may include both civil penalties and
injunctive relief. Id.
I.

Civil Penalties

Section 21(d)(3) of the Exchange Act authorizes
an award of civil penalties “for both deterrent and
punitive purposes.” Id. at 139; see also 15 U.S.C.
§ 78u(d)(3)(A). Pursuant to Section 21(d)(3), three
tiers of civil penalties may be imposed. Id.
[A] first-tier penalty may be imposed for
any violation; a second-tier penalty may
be imposed if the violation involved
fraud,
deceit,
manipulation,
or
deliberate or reckless disregard of a
regulatory requirement; a third-tier
penalty may be imposed when, in
addition to meeting the requirements of
the second tier, the violation directly or
indirectly resulted in substantial losses
or created a significant risk of
substantial losses to other persons.
SEC v. Razmilovic, 738 F.3d 14, 38 (2d Cir. 2013)
(citation omitted). “[F]or each violation” within each
tier, “the amount of the penalty shall not exceed the
greater of a specified monetary amount or the
defendant’s gross pecuniary gain.” Id. (citation
omitted).
As modified by the Debt Collection
Improvement Act of 1996 and corresponding SEC
regulations, the maximum amounts specified for nonnatural persons are as follows. For each violation

51a
occurring between March 4, 2009 and March 5, 2013,
the maximum amount specified is $75,000 at tier one,
$375,000 at tier two, and $725,000 at tier three. 15
U.S.C. § 78u(d)(3)(B); Exchange Act Release No. 3459449, Feb. 25, 2009 (effective Mar. 3, 2009); 17
C.F.R. § 201.1001; Table I to 17 C.F.R. § 201.1001.15
For each violation occurring between March 6, 2013
and November 2, 2015, these amounts increase to
$80,000, $400,000, and $775,000, respectively. 17
C.F.R. § 201.1001; Table I to 17 C.F.R. § 201.1001.
Beyond these restrictions, the amount of the
penalty is within “the discretion of the district court,”
Razmilovic, 738 F.3d at 38 (citation omitted), and
should be determined “in light of the facts and
circumstances” surrounding the violations. 15 U.S.C.
§ 78u(d)(3). In determining the proper amount for a
civil penalty, courts in this district have looked to a
number of factors, including
(1) the egregiousness of the defendant’s
conduct; (2) the degree of the defendant’s
scienter; (3) whether the defendant’s
conduct created substantial losses or the
risk of substantial losses to other
persons; (4) whether the defendant’s
conduct was isolated or recurrent; and
(5) whether the penalty should be
reduced due to the defendant’s
demonstrated current and future
financial condition.

Table I to 17 C.F.R. § 201.1001 was previously found at
17C.F.R. § 201.1004 and Table IV to Subpart E of Part 201.
15

52a
SEC v. Haligiannis, 470 F. Supp. 2d 373, 386
(S.D.N.Y. 2007); see also SEC v. Cope, No.
14cv7575(DLC), 2018 WL 3628899, at *6 (S.D.N.Y.
July 30, 2018) (same); SEC v. Tavella, 77 F. Supp. 3d
353, 362-63 (S.D.N.Y. 2015) (same). The Haligiannis
factors “are not to be taken as talismanic.” SEC v.
Rajaratnam, 918 F.3d 36, 45 (2d Cir. 2019). It is
appropriate to consider as well factors such as a
defendant’s financial condition, id., a defendant’s
failure to admit wrongdoing, SEC v. Alt. Green Techs.,
Inc., No. 11cv9056(SAS), 2014 WL 7146032, at *4
(S.D.N.Y. Dec. 15, 2014), and a defendant’s lack of
cooperation with authorities. SEC v. Cavanagh, No.
98cv1818(DLC), 2004 WL 1594818, at *31 (S.D.N.Y.
July 16, 2004); see also SEC v. Lybrand, 281 F. Supp.
2d 726, 730 (S.D.N.Y. 2003). The “brazenness, scope,
and duration” of illegal conduct may warrant “a
significant penalty.” Rajaratnam, 918 F.3d at 45.
The SEC seeks civil penalties in the amount of
$10,000 for each Deficient Narrative SAR and Failure
to Report Violation. It seeks a penalty of $1,000 for
each Support File Violation. Combined, it requests a
total civil penalty of $22,736,000.
Examining the first Haligiannis factor, it is
easy to find that Alpine’s misconduct was egregious.
It has not just been found liable, it has been found
liable for illegal conduct on a massive scale. The
breadth and regularity of Alpine’s violations of Rule
17a-8 warrant a substantial civil penalty.
As described in the December Opinion, the
SEC met its burden to prove on summary judgment
2,720 separate violations of Rule 17a-8 premised on

53a
thousands of deficient narratives in the SARs it filed,
its failure to report the massive sell-offs of large
deposits of LPS, and Alpine’s failure to produce
hundreds of support files as required by Section
1023.320.16 Although each of the 1,010 Deficient
Narrative SARs has been counted as only a single
violation of Rule 17a-8 for the purposes of summary
judgment, over half of the SARs to which the
December Opinion granted summary judgment
contained multiple deficiencies—any one of which
would have been sufficient to justify a civil penalty.
December Opinion, 354 F. Supp. 3d at 420. Alpine’s
SARs omitted references to multiple red flags
indicative of suspicious activity and failed to disclose
transaction sequences that reflected “a hallmark of
market manipulation.” Id. at 441. In a large number
of instances, Alpine failed to include information in
the SAR narratives that the SAR Form itself
specifically directs a broker-dealer to include.
The next factor to be considered in assessing a
penalty is the degree of Alpine’s scienter. Although a
finding of scienter is not required to impose the tierone penalty sought by the SEC, the evidence supports
a finding that Alpine acted knowingly and with

Section 1023.320 requires both the maintenance of records for
five years after a SAR is filed and the production of records at
the request of a federal regulatory agency such as the SEC. See
March Opinion, 308 F. Supp. 3d at 811-12. In connection with its
motion for summary judgment, the SEC submitted evidence that
Alpine failed to produce support files for 496 SARs when
requested by the SEC in 2016. See December Opinion, 354 F.
Supp. 3d at 444.
16

54a
disregard for its obligations under the law.17 As a
threshold matter, the scale and duration of Alpine’s
violations of Rule 17a-8 undermine Alpine’s assertion
that its conduct was, at worst, merely negligent.
Alpine’s violations were systemic and enduring,
occurring over a course of years and involving conduct
that was plainly in violation of federal law reporting
requirements. Moreover, Alpine was aware of the
nature and extent of its SAR violations at least as
early as July 23, 2012, when FINRA conducted an exit
meeting with Alpine to discuss findings later
summarized in the FINRA Report.18 Although Alpine
took some steps to improve its AML compliance
practices, it continued to resist regulators’ demands
to fully comply with its SAR obligations. Based on
Alpine’s persistent failure to file substantively
adequate SARs, the 2014 OCIE Report concluded that
Alpine was “intentionally trying to obfuscate or
distort the truly suspicious nature of the activity that
[Alpine] is required to report to law enforcement.”
Alpine’s failure to acknowledge its wrongdoing
throughout this litigation provides further evidence
Alpine disputes that it acted willfully or recklessly. Alpine
recites its history of improving compliance and asserts that it
acted with diligence and in good faith. It asserts that before any
finding can be made that it was willful or reckless, Alpine must
conduct discovery and a hearing must be held. Alpine has access
to its own employees; it has not explained what additional
discovery would achieve. Nor is a hearing on its scienter
necessary. The Court has considered Alpine’s arguments and
evidence submitted in opposition to this motion. See SEC v.
Koenig, 469 F.2d 198, 202 (2d Cir. 1972).
18 Almost two years earlier, Alpine’s affiliate SCA, which was the
introducing broker for many of the transactions at issue here,
was charged with similar violations of SAR regulations.
17

55a
that it acted with scienter. That failure also
independently counsels in favor of a substantial civil
penalty. As described in the March and December
Opinions, a principal defense asserted by Alpine—
aside from its jurisdictional arguments—has been
that Alpine had no duty to file the thousands of SARs
that have been the focus of this litigation. See March
Opinion, 308 F. Supp. 3d at 782, 799-800; December
Opinion, 354 F. Supp. 3d at 422-425. It has asserted
this defense even with respect to SARs that it did file,
claiming that they were simply “voluntary” filings
and not mandatory filings. Alpine has maintained
this position notwithstanding warnings from FINRA
and OCIE and despite Opinions of this Court ruling
otherwise. Moreover, Alpine has failed to produce
credible evidence of a good faith belief that it had no
obligation to file the SARs it did file. As explained in
the December Opinion,
Alpine has not identified any means by
which a regulator or a fact-finder could
identify such a “voluntary” SAR. It has
not pointed to any disclosure in the 1,593
SARs that they were “voluntary” filings.
Nor has it pointed to any portion of the
SAR’s support file reflecting an analysis
of the reporting obligation and a
conclusion that the SAR was not
required to be filed. Alpine’s vague and
conclusory assertion is insufficient to
raise a triable question of fact as to
whether any SAR was filed voluntarily
as opposed to pursuant to Alpine’s
obligation under the law to make the
filing.

56a
December Opinion, 354 F. Supp. 3d at 423 n.44.
As for the next factor, Alpine’s contempt for the
SAR reporting regime increased the risk to investors
that they would suffer substantial losses. Alpine’s
violations prevented regulators from obtaining
information necessary to timely investigate and
squelch fraudulent and abusive trading practices. The
missing information included derogatory information
about a stock’s issuer or the Alpine customer, the use
of shell companies, or the price, volume, and timing of
suspicious transactions. As the OCIE Report
concluded, Alpine’s failure to adequately and
accurately describe the nature of suspicious activity
in its SARs “rendered the SARs less valuable to
investigators” and impeded their ability to
understand the suspicious activity and its criminal or
administrative implications. Given the sheer scale of
Alpine’s violations and the risk of fraud inherent in
the LPS markets, Alpine’s violations of Rule 17a-8
risked substantial losses to investors in those
markets.
As for the fourth factor, and as already
discussed, Alpine’s misconduct was not isolated; it
was recurrent. Alpine’s violations of Rule 17a-8
occurred over the course of years. The SEC’s
complaint and this litigation have focused on Alpine’s
practices in filing and neglecting to file SARs, and in
refusing to produce SAR-related files, during the
period 2011 to 2015. Alpine disregarded its legal
obligations regarding SARs throughout this period.
The deficiencies persisted notwithstanding an
intensive examination by FINRA in 2011 and a highly
critical FINRA Report issued in 2012. Although the

57a
extraordinary scale of Alpine’s violations decreased
over the years, the violations did not cease.
As reflected in the 2014 OCIE Report, Alpine
never adopted a satisfactory SAR compliance
program during the period examined in this
litigation. As the OCIE Report emphasized, Alpine’s
SARs remained woefully deficient even years after
the FINRA Report issued. It reported that over 50%
of the SARs OCIE reviewed omitted reference to
suspicious activity of which Alpine knew at the time
the SAR was filed. It further stated that “the amount
and type of actual material information in SARs filed
by Alpine is very similar to the sample SAR that
FinCEN has identified in its public guidance as being
insufficient or incomplete.” The examination of
individual SARs undertaken during the summary
judgment process confirmed that finding.
The final Haligiannis factor is whether a
penalty should be reduced due to Alpine’s
demonstrated current and future financial condition.
In fiscal year 2018, Alpine’s annual revenue was
roughly REDACTED. It currently has excess net
capital of REDACTED; it generally maintains an
average of approximately REDACTED in excess net
capital. Alpine’s business is highly profitable. From
2014 to May 2019, its owner withdrew over $31
million of Alpine’s equity. Over $8 million of this
amount was withdrawn from capital in 2014 alone.19
On July 22, 2019, Alpine filed a motion to strike portions of
the SEC’s brief to the extent it suggested that “the financial
condition of Alpine’s ‘ownership’ must be taken into account in
determining an appropriate penalty.” Alpine’s July 22 motion to

19

58a
An additional factor that is relevant here is
Alpine’s failure to admit wrongdoing and its lack of
cooperation with authorities. Much of the evidence
relevant to this factor has been discussed as
indicative of Alpine’s scienter. Nonetheless, it bears
emphasis that at no step of this eight-year saga has
Alpine forthrightly confronted the glaring deficiencies
in its SAR reporting regime. When new ownership
took over Alpine in early 2011 it did so without
putting in place a competent compliance system.
While Alpine did upgrade its AML capability
following the FINRA examination, it did not use the
FINRA examination and the substantial guidance in
the FINRA Report as an opportunity to admit its
deficiencies and to thoroughly reform its practices to
bring them into compliance with the law. Thus, the
2014 OCIE examination revealed that Alpine was still
using boilerplate language in its SAR narratives,
omitting critical information from its SARs, and
acting to “obscure[] the true nature” of the suspicious
activity it was assisting as a broker-dealer. Moreover,
in response to the OCIE Report, Alpine repeated
many of the same specious defenses that it had
previously asserted during the course of the FINRA
examination. In a letter of May 20, 2015, Alpine
disputed each of OCIE’s findings point by point,
arguing that its SARs should be considered in the
nature of an “alternative, voluntary filing process”
strike, and its alternative request for leave to file a sur-reply, is
denied. The financial condition of Alpine’s ownership is not
relevant to this motion and no discovery is needed regarding its
ownership’s “ability to pay.” The figures describing withdrawals
by Alpine’s ownership are relevant evidence of the financial
condition of Alpine. There is no dispute as to the figures, which
are contained in Alpine’s reports.

59a
and that “the process for determining whether
activity is suspicious is a subjective one.”
Alpine’s lack of remorse and denial of
wrongdoing has persisted to this day.20 Confronted
with this lawsuit, Alpine did not admit that any of its
SAR filings were deficient or that it had a duty to file
more SARs than it had filed. It even argued that it
had no duty to file the SARs that it did file. Without
any evidentiary support, and in the face of
overwhelming evidence to the contrary, it asserted
that its SARs were “voluntary” filings and denied that
they had been filed because of any legal duty to do
so.21
As noted above, the SEC seeks a civil penalty
of $22,736,000. Alpine opposes the imposition of a
civil penalty of this magnitude on several grounds. It
suggests instead that a penalty in the range of
$80,000 to $720,000, combined with certain
undertakings to improve its compliance practices,
would be sufficient to satisfy the punitive and

In opposition to this motion for remedies, Alpine argues that
it acted in good faith in not filing SARs when its customers
liquidated substantial deposits of LPS because Alpine “assumed”
every deposit would be sold and therefore it was sufficient to
merely report the deposit. This attitude and argument reflect, at
best, a poor understanding of the SAR reporting regime and the
risks to the market when suspicious liquidations are not timely
reported to regulators.
21 Alpine has also disputed throughout this litigation that the
SEC has enforcement authority over the SAR violations asserted
here. Whatever one might think of the legal merits of that
argument, Alpine does not contest generally that, as a brokerdealer, it had a duty to comply with the SAR regulations.
20

60a
deterrent purposes of the civil remedies provisions of
the Exchange Act. It would not.
First, Alpine asserts that the penalty the SEC
seeks is a corporate death penalty. While the SEC’s
requested penalty is large, so is the misconduct that
prompts it. Alpine’s financial records indicate that the
application of three years or so of its profits would
suffice to pay the penalty the SEC requests. Since the
SEC has established that Alpine’s systematic and
widespread evasion of the law lasted more than three
years, this benchmark does not suggest that the
SEC’s request is out of sync with the magnitude of the
violations shown.
Next, Alpine asserts that the penalty should
not be set by the number of individual violations on
which the SEC was granted summary judgment, but
by some other less onerous method. It argues that the
SEC is seeking to impose a staggering penalty by
separately counting each time the same type of
deficiency, which it describes as relatively few in
number, affected a different SAR. For instance, by its
calculation millions of dollars would be assessed for
failing to report in its SARs the same customer’s
involvement in an ongoing regulatory action. It
contends as well that the penalty requested by the
SEC is higher in the aggregate than penalties
imposed in other cases where there were recurrent,
multi-year violations of the SAR reporting
requirements. While Alpine admits that almost all of
the cases to which it points were settled matters, it
argues that it should not be subject to what it terms a

61a
“litigation penalty.”22 Thus, it suggests that, in this
tier-one penalty case where the SEC has not shown a
“high degree of scienter” or fraud or significant victim
losses, the proper measure of penalties should be set
per course of conduct, and not per SAR.23 According to
Alpine, there were three, or at most nine, courses of
conduct at issue here.24
If coupled with prompt internal reform and a
timely admission of the deficiencies in its SAR filings,
Alpine’s plea for alternative measures of the penalty
or for a penalty set at an even more minimal level
than that selected by the SEC would have more
appeal. Alpine can point to neither. For at least three
years after the period examined by FINRA, Alpine
continued to obfuscate suspicious activity and to
The SEC has pointed to instances in which far larger penalties
were imposed as well. See, e.g., In re Wells Fargo Advisors, LLC,
SEC Release No. 82054, 2017 WL 5248280 (Nov. 13, 2017)
(imposing penalty of $3,500,000 for 50 unreported or untimely
SAR filings). Alpine argues that each of those cases is
distinguishable.
23 Alpine also suggests that the penalty could be pegged to
disgorgement by measuring Alpine’s ill-gotten gains. If this
measurement had been pursued by the SEC, it is by no means
clear that that measure would have reduced the requested
penalty. Alpine’s business model appears to have been
exceedingly profitable and to have relied in large part on the
business of a few customers specializing in LPS whose
transactions Alpine did not properly report in SARs.
24 The three courses of conduct Alpine identifies are (1) its
Deficient Narrative SARs, (2) its Failure to Report Violations,
and (3) its Support Files Violations. The nine courses of conduct
Alpine identifies are (1)-(6) the six red flags discussed above,
(7) its failure to describe in its SARs the “Five Essential
Elements” as defined by FinCEN guidance, (8) its Failure to
Report Violations, and (9) its Support Files Violations.
22

62a
avoid its duties under the law. The summary
judgment record confirms that Alpine’s obstruction of
government oversight of the LPS market was an
ingrained, multi-year enterprise. Instead of
undertaking the scrutiny and reporting of individual
transactions required by law, Alpine chose to run a
high-volume business in the LPS market and use
templates for many of the SARs it filed. Even today,
in its opposition to this motion for remedies, Alpine
continues to minimize and excuse its offenses.
The SEC is entitled under the law to seek a
penalty for each separate violation of the SAR
reporting obligations. Alpine required, as it was
entitled to, that the SEC separately prove with
respect to each SAR that Alpine had both a duty to
file the SAR, and, if it had filed one, that the SAR was
legally deficient. The SEC carried that burden to the
extent found in the December Opinion. For those
individual SARs, and within the range of penalties
permitted at tier one, the SEC has selected civil
penalty amounts that fall toward to the bottom of the
range.25 Alpine has not shown that the SEC’s request
is inappropriate or excessive based on the record
recited above.
Third, Alpine asserts that any penalty imposed
for its violations of Section 17a-8 cannot exceed the
penalty limits prescribed in the BSA. This argument
is merely a reprise of Alpine’s repeatedly rejected
Applying the maximum penalties available for a tier-one
violation, Alpine’s 2,720 violations would result in an aggregate
penalty of more than $204,000,000. See 15 U.S.C. § 78u(d)(3)(B).
The SEC seeks roughly 10% of that figure.
25

63a
argument that the BSA, rather than Rule 17a-8 and
the Exchange Act, provides the governing law for this
case. See March Opinion, 308 F. Supp. 3d at 795; SEC
v. Alpine Sec. Corp., No. 17cv4179(DLC), 2018 WL
3198889, at *2 (S.D.N.Y. June 18, 2018) (denying
reconsideration of the March Opinion); see also
December Opinion, 308 F. Supp. 3d at 416-17; SEC v.
Alpine Sec. Corp., No. 17cv4179(DLC), 2019 WL
4071783, at *2 (S.D.N.Y. Aug. 29, 2019) (denying
reconsideration of the December and March
Opinions). Although the BSA limits the maximum
civil penalty that the Secretary of the Treasury may
impose for negligent violations of Section 1023.320,
see 31 U.S.C. § 5321(a)(6), the SEC brought this case
and it brought it under Section 17(a) of the Exchange
Act and Rule 17a-8. Accordingly, it is the penalty
provisions of the Exchange Act, not of the BSA, that
provide the maximum civil penalty available. Cf.
Kokesh v. SEC, 137 S. Ct. 1635, 1643 (2017) (noting
that disgorgement, one of several inherently punitive
sanctions the SEC may impose, “further[s] the
Commission’s public policy mission of protecting
investors and safeguarding the integrity of the
markets”).
Finally, Alpine argues that the SEC’s
requested remedy would violate the Eighth
Amendment’s prohibition against excessive fines. See
U.S. Const. amend. VIII.26 Under the Eighth
Amendment, however, a fine is unconstitutionally
excessive only if it is “grossly disproportional to the
“The Eighth Amendment protects against excessive civil fines,
including forfeitures.” Hudson v. United States, 522 U.S. 93, 103
(1997).
26

64a
gravity of a defendant’s offense.” United States v.
Sabhnani, 599 F.3d 215, 262 (2d Cir. 2010) (quoting
United States v. Bajakajian, 524 U.S. 321, 334
(1998)); see also United States v. Viloski, 814 F.3d 104,
111 (2d Cir. 2016) (explaining that courts may
consider fine’s impact on future ability to earn a
livelihood). While courts consider numerous factors to
determine whether a particular fine is grossly
disproportional, see Sabhnani, 599 F.3d at 262, the
Eighth Amendment proportionality analysis is
substantially similar to the analysis required by the
factors described and considered above. A civil
penalty of $22,736,000, while substantial, is not
grossly disproportional to the gravity of Alpine’s 2,720
violations of the federal securities laws.
Having considered the above factors, the
circumstances surrounding Alpine’s 2,720 violations
of Rule 17a-8, and each of Alpine’s arguments in
opposition to the SEC’s request for remedies, a tierone civil penalty in the amount of $12,000,000 is
assessed. This penalty is substantial; it reflects the
seriousness of Alpine’s violations and the need for a
remedy that is adequate to punish and deter such
violations. A $12,000,000 penalty, however, is also a
small fraction of the maximum tier-one remedies
available and substantially less than the amount the
SEC has requested.27 While the SEC’s requested
penalty falls within the range of penalties that could
Whereas the SEC has requested remedies of $10,000 per
Deficient Narrative SAR and Failure to Report Violation, an
aggregate penalty of $12,000,000 is roughly equivalent to a tierone penalty of just over $5,000 per Deficient Narrative SAR and
Failure to Report Violation, in addition to a penalty of $1,000 per
Support File Violation.
27

65a
reasonably be imposed in this case, consideration of
several factors, but principally of Alpine’s financial
condition, make a penalty of $12,000,000 more
appropriate. A $12,000,000 penalty is reasonable in
light of all the facts and circumstances described
above.
II. Permanent Injunction
In addition to civil penalties, Congress has
expressly authorized the use of injunctive relief to
proscribe future violations of the federal securities
laws. 15 U.S.C. § 17u(d)(1). Injunctive relief is only
warranted where “there is a substantial likelihood of
future violations of illegal securities conduct.” SEC v.
Cavanagh, 155 F.3d 129, 135 (2d Cir. 1998); see also
SEC v. Manor Nursing Centers, Inc., 458 F.2d 1082,
1100 (2d Cir. 1972). When making this determination,
courts consider:
[1] the fact that the defendant has been
found liable for illegal conduct; [2] the
degree of scienter involved; [3] whether
the infraction is an isolated occurrence;
[4] whether defendant continues to
maintain that his past conduct was
blameless; and [5] whether, because of
his
professional
occupation,
the
defendant might be in a position where
future violations could be anticipated.
Cavanagh, 155 F.3d at 135 (citation omitted). The
imposition of permanent injunctive relief is “within
the court’s discretion,” and is particularly appropriate
“where a violation was founded on systematic

66a
wrongdoing, rather than an isolated occurrence” and
where the defendant’s “persistent refusals to admit
any wrongdoing make it rather dubious that the
[defendant is] likely to avoid such violations of the
securities laws in the future in the absence of an
injunction.” Frohling, 851 F.3d at 139 (citation and
emphasis omitted).
For many of the reasons already discussed, a
permanent injunction against further violations of
Section 17(a) and Rule 17a-8 is warranted in this
case. The December Opinion found Alpine liable for
2,720 violations of Rule 17a-8, which occurred over a
course of years and which persisted on a systemic
basis notwithstanding clear warnings by FINRA and
OCIE. As discussed above, Alpine continues to
maintain that many of the SARs on which summary
judgment was granted were not required to be filed
and to argue, in the face of clear regulatory guidance
to the contrary, that it engaged in no wrongdoing.
Alpine’s persistent refusal to admit wrongdoing and
its record of noncompliance with SAR reporting
obligations demonstrate a substantial likelihood that
Alpine will continue to violate federal securities laws
in the future. Given its function as a broker-dealer,
Alpine remains in a position where future violations
could be anticipated.
Conclusion
The SEC’s May 3 motion for remedies is
granted in part. Alpine shall pay a civil penalty in the
amount of $12,000,000. An injunction will be entered
against Alpine.

67a
Dated:

New York, New York
September 12, 2019

/s/ Denise Cote
Denise Cote
United States District Judge

68a
APPENDIX C
UNITED STATES DISTRICT COURT SOUTHERN
DISTRICT OF NEW YORK
------------------------------------- x
:
17cv4179(DLC)
UNITED STATES
:
SECURITIES AND
: OPINION & ORDER
EXCHANGE
:
COMMISSION,
:
:
Plaintiff,
:
:
-v:
:
ALPINE SECURITIES
:
CORPORATION,
:
:
Defendant.
:
------------------------------------- x
APPEARANCES
For plaintiff United States Securities and Exchange
Commission:
Zachary T. Carlyle
Terry R. Miller
U.S. Securities and Exchange Commission
1961 Stout Street, 17th Floor
Denver, CO 80294
For defendant Alpine Securities Corporation:
Maranda E. Fritz Thompson Hine
335 Madison Avenue, 12th Floor
New York, NY 10017

69a
Brent R. Baker
Aaron D. Lebenta
Jonathan D. Bletzacker
Clyde Snow & Sessions
One Utah Center
201 South Main Street, Suite 1300
Salt Lake City, Utah 84111
DENISE COTE, District Judge:
Procedural History ................................................... 3
Background .............................................................. 5
I.

The Low-Priced Securities Market .......... 5

II.

Alpine’s Business ................................... 10

III. 2011-2012 FINRA Examination ............ 10
IV. Alpine’s Improvements of its AML
Program and SAR Filing Program ........ 13
V.

2014 OCIE Examination........................ 14

Discussion ............................................................... 16
I.

Regulatory Framework .......................... 18

II.

General Arguments ................................ 29

III. Admissibility of Summary Tables ......... 36
IV. Deficient Narratives .............................. 43
A.

Mandatory Filing ........................... 44

70a
B.

Red Flags Omitted From SAR
Narratives ...................................... 52
1.

V.

Related Litigation .................. 54
a.

Three Customers ............ 58

b.

Ten SARs ........................ 63

c.

Summary ........................ 66

2.

Shell Companies or Derogatory
History of Stock ...................... 67

3.

Stock Promotion ..................... 71

4.

Unverified Issuers.................. 77

5.

Low Trading Volume ............. 80

6.

Foreign Involvement .............. 83

7.

Five Essential Elements ........ 86

Deposit-and-Liquidation Patterns ........ 89

VI. Late-Filed SARs ..................................... 96
VII. Failure to Maintain Support Files ........ 97
Conclusion ............................................................ 100
Plaintiff United States Securities and
Exchange Commission (“SEC”) has sued clearing
broker Alpine Securities Corporation (“Alpine”),
alleging that between the years 2011 and 2015 Alpine
repeatedly filed deficient suspicious activity reports

71a
(“SARs”) and failed altogether to file other SARs and
to maintain support files for SARs when required by
law to do so. The SEC asserts that this conduct
violated 17 C.F.R. § 240.17a-8 (“Rule 17a-8”), which
obligates a broker-dealer to comply with certain
regulations promulgated under the Bank Secrecy Act
(“BSA”),
including
31
C.F.R.
§ 1023.320
(“Section 1023.320”), which dictates when a brokerdealer must file SARs.
The SEC has moved for summary judgment as
to liability on thousands of violations of Rule 17a-8.
For the reasons that follow, the SEC’s motion is
granted in part.
Procedural History
The SEC filed this action on June 5, 2017.
Following an unsuccessful effort to dismiss the action
for lack of personal jurisdiction and improper venue,
Alpine answered the complaint on September 29,
2017. It filed an amended answer on October 27.
As invited by the Court, the parties made
preliminary summary judgment motions to articulate
the legal standards that govern the SEC’s claims and
Alpine’s defenses. The SEC moved for partial
summary judgment on December 6, 2017, submitting
thirty-six SARs under seal as examples of four
categories of purported Rule 17a–8 violations. Alpine
cross-moved for summary judgment and for judgment
on the pleadings on January 19, 2018. Alpine declined
the opportunity to submit additional SARs for review
in connection with the SEC’s motion. Alpine’s motions
principally argued that the SEC does not have

72a
jurisdiction to bring this action and that the SEC’s
complaint was deficient for failing to plead that
Alpine acted with wrongful intent. An Opinion of
March 30, 2018 (the “March Opinion”) denied
Alpine’s motions and granted in part the SEC’s
motion. See SEC v. Alpine Sec. Corp., 308 F. Supp. 3d
775 (S.D.N.Y. 2018).1
On June 22, 2018, Alpine and its affiliate,
Scottsdale Capital Advisors (“SCA”),2 filed an action
in the United States District Court for the District of
Utah (the “Utah Action”). See Alpine Sec. Corp. v.
SEC, No. 18cv504(CW) (D. Utah filed June 22, 2018).
The Utah Action sought, inter alia, to enjoin the SEC
from pursuing this action before this Court. The SEC
moved to enjoin the Utah Action on July 3. That
motion was granted on July 11. See SEC v. Alpine Sec.
Corp., No. 17cv4179(DLC), 2018 3377152 (S.D.N.Y.
July 11, 2018). Alpine’s appeal of the July 11
injunction is pending before the Court of Appeals for
the Second Circuit. See SEC v. Alpine Sec. Corp., No.
18-2045 (2d Cir. filed July 12, 2018).

On April 20, 2018, Alpine filed motions to reconsider the
rulings in the March Opinion, and for certification of certain
issues for interlocutory appeal. These motions were denied on
June 18. See SEC v. Alpine Sec. Corp., No. 17cv4179(DLC), 2018
WL 3198889 (S.D.N.Y. June 18, 2018). On June 22, Alpine filed
a petition for writ of mandamus with the United States Court of
Appeals for the Second Circuit. That petition was denied on
August 7. See In re Alpine Sec. Corp., No. 18-1875 (2d Cir. Aug.
7, 2018).
2 SCA and Alpine are owned by the same individual. For many
of the transactions at issue here, SCA served as Alpine’s
introducing broker.
1

73a
Following the conclusion of discovery, the SEC
filed this summary judgment motion on July 13. The
motion became fully submitted on September 14.
Background
Much of the relevant factual and regulatory
background is recited in the March Opinion.
Familiarity with the March Opinion is assumed.
I.

The Low-Priced Securities Market

The SAR transactions at issue involve penny
stocks and microcap stocks.3 Penny stocks are
securities that trade at less than $5 per share.
Microcap stocks are defined based on the market
capitalization of the issuer; these stocks tend to have
a share price of less than one cent. Penny stocks and
microcap stocks are primarily traded in “over-thecounter” markets. See March Opinion, 308 F. Supp.
3d at 781 & n.1.
The markets for these low-priced securities
(“LPS”) have long been the subject of congressional
and regulatory scrutiny due to the unique
characteristics of those markets. In 1990, Congress
enacted the Penny Stock Reform Act of 1990. See Pub.
L. No. 101-429, sec. 501, 104 Stat. 931, 951. That Act
The parties do not suggest that the issues in this case turn on
any distinction between the terms share and stock and the terms
are used in this Opinion interchangeably to refer to units of
securities. Similarly, for purposes of this motion, no distinction
is made between deposits of securities with Alpine in the form of
physical certificates or in electronic transactions. Cf. Delaware
v. New York, 507 U.S. 490, 496 (1993) (explaining immobilization
of physical certificates of securities).
3

74a
includes congressional findings that “[u]nscrupulous
market practices and market participants have
pervaded the ‘penny stock’ market with an
overwhelming amount of fraud and abuse.” Id. sec.
502(4), 104 Stat. at 951. Congress concluded that one
key problem with the penny stock market was “a
serious lack of adequate information concerning price
and volume of penny stock transactions, the nature of
th[e] market, and the specific securities in which
[individuals] are investing.” Id. sec. 502(6), 104 Stat.
at 951. In addition, Congress stated that “[c]urrent
practices do not adequately regulate the role of
‘promoters’ and ‘consultants’ in the penny stock
market,” and that individuals “banned from the
securities markets” “ended up in promoter and
consultant roles, contributing substantially to
fraudulent and abusive schemes.” Id. sec. 502(7), 104
Stat. at 951. Congress also found that “shell
corporations … are used to facilitate market
manipulation schemes” in the penny stock markets.
Id. sec. 502(8), 104 Stat. at 951.
The SEC has promulgated rules pursuant to
the Penny Stock Reform Act. It revised those rules in
2005 in order to better combat “fraudulent sales
practices” and “the diversion of substantial capital to
unscrupulous promoters and broker- dealers” in the
LPS markets. See SEC, Amendments to the Penny
Stock Rules, SEC Release No. 49037, 2004 WL 51685,
at *3 (Jan. 8, 2004).
Financial regulators frequently warn investors
about the risks of fraud connected to investments in
LPS. The SEC, for instance, has observed that
“information about microcap companies can be

75a
extremely difficult to find, making them more
vulnerable to investment fraud schemes and making
it less likely that quoted prices in the market will be
based on full and complete information about the
company.” SEC, Microcap Stock.4 Similarly, FINRA5
has warned investors “about the dangers of penny
stocks,” focusing on the lack of publicly available or
verifiable information about issuers and the
possibility that the issuer may be a shell company.6
See FINRA, Beware Dormant Shell Companies.7
The SEC has explained in an administrative
decision that “[p]enny stocks present risks of trading
abuses due to the lack of publicly available
information about the penny stock market in general
and the price and trading volume of particular penny
stocks.” In re Bloomfield, SEC Release No. 9553, 2014
WL 768828, at *2 (SEC Feb. 27, 2014), aff’d, 649 F.
App’x 546 (9th Cir. 2016). In that decision, the SEC
SEC, Microcap Stock: A Guide for Investors (Sept. 18, 2013),
https://www.sec.gov/reportspubs/investor-publications/investor
pubsmicrocapstockhtm.html.
5 FINRA, or the Financial Industry Regulatory Authority, is a
self-regulatory organization (“SRO”) that supervises brokerdealers. See Fiero v. Financial Industry Regulatory Auth., Inc.,
660 F.3d 569, 571 & n.1 (2d Cir. 2011). Its responsibilities
include monitoring broker-dealers’ anti-money laundering
(“AML”) programs. See March Opinion, 308 F. Supp. 3d at 79495.
6 A shell company is a company with no or nominal operations,
and either no or only nominal assets, assets “consisting solely of
cash and cash equivalents,” or “[a]ssets consisting of any amount
of cash and cash equivalents and nominal other assets.”
17 C.F.R. § 240.12b-2; 17 C.F.R. § 230.405.
7 FINRA, Beware Dormant Shell Companies (Mar. 14, 2016),
http://www.finra.org/investors/beware-dormant-shell-companie
s.
4

76a
noted that penny stocks are vulnerable to pump-anddump schemes that manipulate a stock price in order
to enrich stock promoters. Id. at *3. The SEC added
that
[m]oney laundering activities can also be
facilitated through the trading of penny
stocks. Some money laundering red flags
include: a customer who has a
questionable background or is the
subject of news reports indicating
possible criminal, civil, or regulatory
violations; multiple accounts in the
names of family members or corporate
entities for no apparent business or
other purpose; wire transfers to or from
countries
identified
as
money
laundering risks or tax havens; and
excessive journal entries between
unrelated accounts.
Id.
As noted, a frequent tool of market
manipulation is the use of shell companies. See
FINRA, Dormant Shell Companies;8 SAR Activity
Review, Issue 1, at 11.9 FinCEN10 has warned that
FINRA, Dormant Shell Companies⸺How to Protect Your
Portfolio from Fraud (Oct. 30, 2014), http://www.finra.org/
investors/alerts/dormant-shell-companies-portfoliofraud.
9 FinCEN, The SAR Activity Review: Trends, Tips & Issues, Issue
1
(Oct. 2000),
https://www.fincen.gov/sites/default/files/
shared/sar_tti_01.pdf.
10 FinCEN, the Financial Crimes Enforcement Network, is a
division of the United States Department of the Treasury (the
8

77a
shell companies “are an attractive vehicle for those
seeking to launder money or conduct illicit activity”
with significant potential for “abuse” in the form of
money laundering or pump-and-dump schemes.
FinCEN Domestic Shell Company Report at 2, 4.11
FinCEN has explained that shell companies are
“common tools for money laundering and other
financial crimes, primarily because they are easy and
inexpensive to form and operate.” FinCEN Shell
Company Guidance at 2.12
Alpine does not dispute these risks of investing
in the LPS markets. Alpine points out, however, that
these markets provide access to capital for smaller
companies.
II. Alpine’s Business
Alpine is a clearing broker. Clearing brokers
provide clearance and settlement services for
introducing brokers. This involves handling the
recording of transactions, the exchange of funds, and
the delivery of securities after a transaction has been
executed. Clearing firms typically maintain records of

“Treasury Department”). It is responsible for, as relevant here,
administering the BSA. See March Opinion, 308 F. Supp. 3d at
791.
11 FinCEN, The Role of Domestic Shell Companies in Financial
Crime and Money Laundering: Limited Liability Companies
(Nov. 2006),
https://www.fincen.gov/sites/default/files/shared/
LLCAssessment_FINAL.pdf.
12 FinCEN, FIN–2006–G014, Potential Money Laundering Risks
Related
to
Shell
Companies
(Nov. 9,
2006),
https://www.fincen.gov/sites/default/files/guidance/AdvisoryOnS
hells_FINAL.pdf.

78a
all trading and issue trade confirmations and
statements.
Alpine was founded in 1984. In early 2011,
Alpine was acquired by its current owner.
III. 2011-2012 FINRA Examination
Alpine is regulated by FINRA and other
regulators. Between March 2, 2011 and January 22,
2012, FINRA conducted a financial, operational, and
sales practices examination of Alpine. FINRA
conducted an exit meeting with Alpine on July 23,
2012, where it shared its highly critical findings with
Alpine. FINRA issued a seven-page report of that
examination on September 28, 2012 (“FINRA
Report”).
The FINRA Report listed ten exceptions to
Alpine’s practices, five of which have particular
relevance to the issues raised in this lawsuit. The
FINRA Report discloses that Alpine did not file any
SARs for over six months in 2011⸺March 1 through
May 10 and August 16 through December 19⸺and
found that Alpine was not in compliance with a
FINRA SAR reporting rule and two federal reporting
regulations, including Section 1023.320.13 The
FINRA Report recited the explanations Alpine
provided for its failure to file these SARs, including
that its compliance officer had determined that these
filings were discretionary and that it was unnecessary
The three regulations are FINRA Rule 3310, Section 1023.320,
and 31 C.F.R. § 1010.520, which requires broker-dealers to
provide certain information about terrorist activity and money
laundering to law enforcement agencies upon request.
13

79a
to file them. Alpine’s chief of operations explained
that once he had learned that no SARs had been filed
for the period August 16 through December 19, 2011,
Alpine filed SARs to reflect certain transactions that
had occurred during that period. The FINRA Report
found that these filings were all late and should have
been filed no later than thirty days after the initial
detection of the suspicious activity reported in them.
It concluded that Alpine had “failed to establish and
enforce procedures reasonably designed to detect and
report suspicious activity.”
The FINRA Report also determined that the
narrative sections of the 823 SARs that Alpine did file
during the period March 7, 2011 through January 22,
2012 were “substantively inadequate” and in violation
of Section 1023.320(a)(1). It explained that
[t]he narratives for all SARs reviewed
were substantively inadequate as they
failed to fully describe why the activity
was suspicious. For the SARs reviewed,
the narrative just described isolated
events of activity without any detail or
support of why the firm actually
considered the activity to be suspicious
and therefore failing to justify at the
basic core the legitimacy of the SAR
filing.
The FINRA Report recited the “two basic formats or
templates” that Alpine had used in these SARs,
“neither of which were substantively adequate as they
failed to fully describe why the activity was

80a
suspicious.” As quoted in the FINRA Report, the first
boilerplate, barebones narrative read:
On or around December 09, 2011 ABC
LLC deposited a large quantity
(40,000,000 shares) of XYZ Corp, a lowpriced ($0.0001/share) security.
The second read:
ABC Inc. is a client of ACAP Financial,
a firm for which Alpine Securities
provides securities clearing services.
Due to the activity within this account,
it has been placed on a Heightened
Supervisory list. It is policy of Alpine to
file a SARs [sic] related to each deposit
of securities into accounts of this nature.
On or around 12/23/2011, ABC Inc.
deposited a large quantity (5,097,312) of
XYZ Corp, a low-priced ($.0045 /share)
security. This transaction amounted to
approximately $22,938.00.
The FINRA Report notes that the first template was
used in 559 SARs and the second template was used
in 264 SARs.
The FINRA Report also criticized Alpine for
failing to review requests from FinCEN for
information, and for the inadequacies in its AML
program, including the program’s failure to detect
and report suspicious activity. As disclosed in the
Report, Alpine had failed to enforce its own AML
procedures, including the requirement that it file a

81a
SAR within thirty days of becoming aware of a
suspicious transaction.
In response to the FINRA examination, Alpine
filed 251 SARs between December 2011 and
May 2012 for transactions that had occurred between
August 17, 2011 and February 3, 2012, and for which
it had previously filed no SARs. Alpine explains in
opposition to this motion for summary judgment that
it filed these SARs only because FINRA informed
Alpine that it expected to see SARs filed on all
transactions involving large deposits of LPS. The SEC
contends that Alpine violated Rule 17a-8 by failing to
file these SARs within the thirty-day period imposed
by Section 1023.320(b)(3). These SARs will be
referred to as the Late-Filed SARs.
IV. Alpine’s Improvements of its AML Program and
SAR Filing Program
In response to this motion for summary
judgment, Alpine freely acknowledges that before the
change in ownership in 2011, Alpine had had only
limited compliance staff. Alpine’s current owners
hired more compliance personnel in 2011 and 2012.
Beginning in the Fall of 2012, Alpine arranged for an
annual audit of its AML program. Also in 2012,
Alpine created standard operating procedures for
compliance with AML regulations. Alpine has
submitted three versions of its AML procedures,
dated April 11, 2013, August 29, 2014, and October 1,
2015.
The SEC’s motion for summary judgment is
premised in part on 1,593 SARs that Alpine filed and

82a
which the SEC contends contain deficiencies in their
narratives. Of those 1,593 SARs, approximately twothirds were filed before September 28, 2012, when
Alpine received the FINRA Report.
The following is the narrative section of SAR
1763, which is one of the post-FINRA Report SARs at
issue here. It was filed in September 2013,
approximately one year after the FINRA Report. It
reads:
[Customer] is a client of [SCA], a firm for
which Alpine Securities provides
clearing services. This account is a
foreign broker-dealer. This account
historically makes deposits of large
volumes of low-priced securities. For
that reason this transaction may be
suspicious in nature. On or around [date,
Customer] deposited physical stock
certificate(s) representing a large
quantity (2,---,--- shares) of [issuer], a
low-priced ($.05/share) security into
brokerage account [number.] The
brokerage account is maintained
through
Alpine
Securities.
This
transaction amounted to approximately
$1--,---.--. The return on the initial
investment of $2-, on [date six months
before transaction] considering the
relatively short time period. [sic]
The SEC contends that this SAR narrative is deficient
for failing to disclose (a) basic customer information,
(b) that the deposit was significantly disproportionate

83a
to the average daily trading volume of the LPS, and
(c) that the sub-account holder is foreign.
V. 2014 OCIE Examination
The SEC Office of Compliance Inspections and
Examinations (“OCIE”) conducted a one-week on-site
review of Alpine in July 2014. OCIE reviewed 252 of
the over 4,600 SARs filed by Alpine between
January 2013 and July 2014, and concluded in a
report issued on April 9, 2015 (“OCIE Report”) that
50% of those 252 SARs “failed to completely and
accurately disclose key information of which [Alpine]
was aware at the time of filing.” OCIE found that the
narrative sections of Alpine’s SARs “generally
contained ‘boilerplate’ language.” It criticized Alpine
for omitting mention of many red flags for suspicious
activity, such as a customer’s civil, regulatory, or
criminal history; foreign involvement with the
transactions; concerns about an issuer; stock
promotion activity; and that an issuer had been a
shell company. In bringing this lawsuit, the SEC
relies on the existence of these red flags in Alpine’s
support files for the SARs Alpine filed.
The OCIE Report found as follows:
All of the information noted above was of
critical importance to adequately and
accurately describe the nature and
extent of the suspicious activity that was
the subject of each SAR. And, as
evidenced by Alpine’s own investigative
files, Alpine knew of the omitted
information at the time each SAR was

84a
filed. By excluding the information
described above, Alpine failed to
“provide a clear, complete, and concise
description of the activity, including
what was unusual or irregular that
caused suspicion:” and failed to show the
degree of care required by FinCEN to
complete the narrative. (In fact, we note
that the amount and type of actual
material information in SARs filed by
Alpine is very similar to the sample SAR
that FinCEN has identified in its public
guidance as being insufficient or
incomplete.)[14] This rendered the SARs
less valuable to investigators trying to
understand the activity and any
criminal or administrative implications
thereof. As a result, the Firm is in
contravention of FinCEN’s SAR Rule
and Exchange Act Rule l7a-8.
(Footnotes omitted.)

The OCIE Report referred to FinCEN published guidance
which gave the following example of an “insufficient or
incomplete” SAR narrative:
Account was opened in 2002. Assets were transferred
in by wire. 50 checks for $250 were deposited,
securities were liquidated and money was paid out in
May 2003.
FinCEN, Guidance on Preparing a Complete & Sufficient
Suspicious Activity Report Narrative 27 (Nov. 2003),
https://www.fincen.gov/sites/default/files/shared/sarnarrcomple
tguidfinal_112003.pdf
(“SAR Narrative Guidance”).
14

85a
The OCIE Report also noted that Alpine filed
SARs on certain customers’ deposits of LPS but
“[i]nexplicably” failed to file SARs when those
customers sold those LPS. The OCIE Report describes
Alpine’s failures as “recidivist activity” because of
FINRA’s 2012 findings that Alpine was filing
substantively inadequate SARs. It concluded that
Alpine’s SAR practices “obscured the true nature of
the suspicious activity,” and that it appeared that
Alpine was “intentionally trying to obfuscate or
distort the truly suspicious nature of the activity that
the Firm is required to report to law enforcement.”
Discussion
The SEC seeks summary judgment as to
Alpine’s liability for several thousand violations of
Rule 17a-8. The SEC’s motion is largely addressed to
four discrete alleged deficiencies in Alpine’s
compliance between 2011 and 2015 with SAR
reporting requirements. For each alleged deficiency,
it has submitted a table that identifies hundreds of
deficient or missing SARs or missing support files for
SARs.15
“Summary judgment is appropriate only where
there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of
law.” Jaffer v. Hirji, 887 F.3d 111, 114 (2d Cir. 2018)
(citation omitted). “A genuine issue of material fact
exists if the evidence is such that a reasonable jury
The SARs and tables in this case have been filed under seal.
As explained in the March Opinion, the SAR reporting regime is
premised on the secrecy of the SARs. See generally 308 F. Supp.
3d at 783 n.4.
15

86a
could return a verdict for the nonmoving party.”
Nick’s Garage, Inc. v. Progressive Cas. Ins. Co., 875
F.3d 107, 113 (2d Cir. 2017) (citation omitted). “Where
the movant has the burden” of proof at trial, “its own
submissions in support of the motion must entitle it
to judgment as a matter of law.” Albee Tomato, Inc. v.
A.B. Shalom Produce Corp., 155 F.3d 612, 618 (2d Cir.
1998)
When the moving party has asserted facts
showing that it is entitled to judgment, the opposing
party must “cit[e] to particular parts of materials in
the record” or “show[] that the materials cited [by the
movant] do not establish the absence … of a genuine
dispute” in order to show that a material fact is
genuinely disputed. Fed. R. Civ. P. 56(c)(1). “A party
may not rely on mere speculation or conjecture as to
the true nature of the facts to overcome a motion for
summary judgment,” as “[m]ere conclusory
allegations or denials cannot by themselves create a
genuine issue of material fact where none would
otherwise exist.” Hicks v. Baines, 593 F.3d 159, 166
(2d Cir. 2010) (citation omitted). Only disputes over
“facts that might affect the outcome of the suit under
the governing law” will properly preclude the entry of
summary judgment. Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 248 (1986). Summary judgment may be
granted if the evidence cited by the nonmovant is
“merely colorable or is not significantly probative.” Id.
at 249 (citation omitted).
I.

Regulatory Framework

This case concerns the interplay of regulations
promulgated under two federal statutes: the BSA, 31

87a
U.S.C. § 5311, et seq., first enacted in 1982, and the
Securities Exchange Act of 1934 (the “Exchange Act”),
15 U.S.C. § 78a, et seq. The BSA allows the Secretary
of the Treasury to “require any financial
institution … to report any suspicious transaction
relevant to a possible violation of law or regulation.”
31 U.S.C. § 5318(g)(1). The Secretary has delegated
this authority to FinCEN.16 Pursuant to these
delegations, in 2002 the Treasury Department and
FinCEN promulgated Section 1023.320.17 There are
similar suspicious activity reporting regulations that
apply to other types of financial institutions, such as
banks, casinos, and mutual funds. See, e.g., 31 C.F.R.
§§ 1020.320 (banks), 1021.320 (casinos), 1024.320
(mutual funds).
Rule 17a-8 was promulgated by the SEC in
1981 under authority delegated to it by Congress in
the Exchange Act. See March Opinion, 308 F. Supp.
3d at 796. The Rule requires a broker-dealer to
“comply with the reporting, recordkeeping and record
retention requirements of Chapter X of Title 31 of the
Code of Federal Regulations.” 17 C.F.R. § 240.17a-8.
The
reporting
and
record-keeping
requirements found in Chapter X of Title 31 of the
Code of Federal Regulations and incorporated by
See Treasury Order 180-01, 67 Fed. Reg. 64,697, 64,697
(Oct. 21, 2002).
17 See FinCEN, Amendment to the Bank Secrecy Act
Regulations⸺Requirement that Brokers or Dealers in Securities
Report Suspicious Transactions, 67 Fed. Reg. 44,048 (July 1,
2002) (“FinCEN Section 1023.320 Notice”). The USA PATRIOT
ACT of 2001, Pub. L. No. 107-56, 115 Stat. 272 (the “Patriot
Act”), significantly expanded the scope of the BSA.
16

88a
Rule 17a-8 include Section 1023.320, which, among
other things, requires a broker-dealer to file SARs.
Section 1023.320 states in pertinent part:
(1) Every broker or dealer in securities
within the United States (for purposes of
this section, a “broker-dealer”) shall file
with FinCEN, to the extent and in the
manner required by this section, a report
of any suspicious transaction relevant to
a possible violation of law or regulation.
A broker-dealer may also file with
FinCEN a report of any suspicious
transaction that it believes is relevant to
the possible violation of any law or
regulation but whose reporting is not
required by this section …
(2) A transaction requires reporting
under the terms of this section if it is
conducted or attempted by, at, or
through a broker-dealer, it involves or
aggregates funds or other assets of at
least $5,000, and the broker-dealer
knows, suspects, or has reason to suspect
that the transaction (or a pattern of
transactions of which the transaction is
a part):
(i) Involves funds derived from illegal
activity or is intended or conducted in
order to hide or disguise funds or assets
derived from illegal activity (including,
without limitation, the ownership,
nature, source, location, or control of

89a
such funds or assets) as part of a plan to
violate or evade any Federal law or
regulation or to avoid any transaction
reporting requirement under Federal
law or regulation;
(ii) Is designed, whether through
structuring or other means, to evade any
requirements of this chapter or of any
other regulations promulgated under
the Bank Secrecy Act;
(iii) Has no business or apparent lawful
purpose or is not the sort in which the
particular customer would normally be
expected to engage, and the brokerdealer knows of no reasonable
explanation for the transaction after
examining the available facts, including
the background and possible purpose of
the transaction; or
(iv) Involves use of the broker-dealer to
facilitate criminal activity.
31 C.F.R. § 1023.320(a) (emphasis supplied).
The regulation also provides that a SAR
must be filed
no later than 30 calendar days after the
date of the initial detection by the
reporting broker-dealer of facts that may
constitute a basis for filing a SAR under
this section. If no suspect is identified on

90a
the date of such initial detection, a
broker-dealer may delay filing a SAR for
an additional 30 calendar days to
identify a suspect, but in no case shall
reporting be delayed more than 60
calendar days after the date of such
initial detection.
31 C.F.R. § 1023.320(b)(3) (emphasis supplied).
In addition, a broker-dealer is required to
retain support files for SARs for five years, as follows:
Retention of records. A broker-dealer
shall maintain a copy of any SAR filed
and the original or business record
equivalent
of
any
supporting
documentation for a period of five years
from the date of filing the SAR.
Supporting documentation shall be
identified as such and maintained by the
broker-dealer, and shall be deemed to
have been filed with the SAR. A brokerdealer shall make all supporting
documentation available to FinCEN or
any Federal, State, or local law
enforcement agency, or any Federal
regulatory authority that examines the
broker-dealer for compliance with the
Bank Secrecy Act, upon request …
31 C.F.R. § 1023.320(d) (emphasis supplied).

91a
SARs are currently submitted to FinCEN via
an electronic SAR Form.18 Part I of the Form is titled
“Subject Information” and requires a filer to provide
identifying information about the subject of the SAR.
2002 SAR Form at 1. The subject of a SAR is defined
in guidance as the individuals or entities “involved in
the suspicious activity.” SAR Narrative Guidance at
3. “If more than one individual or business is involved
in the suspicious activity,” a filer must “identify all
suspects and any known relationships amongst them
in the Narrative Section.” Id.; see also 2012 SAR
Instructions at 88 (directing filers to provide subject
information for “each known subject involved in the
suspicious activity”).

Over the period at issue in this action, two versions of the SAR
Form were in effect: one from 2002 to 2012 (the “2002 SAR
Form”) and one after 2012 (the “2012 SAR Form”). See March
Opinion, 308 F. Supp. 3d at 792-93. The 2002 SAR Form includes
instructions for what information to include in the narrative
section on the form. See 2002 SAR Form at 3. A copy of the 2002
SAR Form is attached as an Exhibit to this Opinion. FinCEN
published notices with drafts of the 2002 and 2012 SAR Forms
in the Federal Register and solicited public comment before
requiring regulated parties to use those forms. See March
Opinion, 308 F. Supp. 3d at 792 & nn.10-11. In connection with
the 2012 SAR Form, FinCEN published an instructional
document. See FinCEN, FinCEN Suspicious Activity Report
(FinCEN SAR) Electronic Filing Instructions (2012),
https://www.fincen.gov/sites/default/files/shared/FinCEN%20S
AR%20ElectronicFiling Instructions-%20Stand%20Alone%20
doc.pdf (“2012 SAR Instructions”). The 2012 SAR Instructions
and the 2002 SAR Form contain essentially identical
instructions for completing the SAR narrative. The parties do
not contend that there are any differences in those instructions
that are material to the issues in dispute here.
18

92a
Part II of the SAR Form requires the filer to
identify the suspicious activity being reported. A filer
must provide the date or date range of suspicious
activity and the dollar amount involved. In addition,
there is a list of financial instruments, such as
“Bonds/Notes,” “Stocks,” and “Other securities.” 2002
SAR Form at 1.19 A filer is directed to check all that
apply to the transaction. A filer must also check boxes
identifying the type of suspicious activity, which
includes “Commodity futures/options fraud,” “Insider
trading,”
“Market
manipulation,”
“Money
laundering/structuring,” “Prearranged or other noncompetitive trading,” “Securities fraud,” “Wash or
other fictitious trading,” and “Wire fraud.” Id. This
list also includes an option to check “Other,” with an
instruction to “[d]escribe” the activity in the narrative
portion of the SAR. Id. A FinCEN instructional
document for this Form directs filers to “[p]rovide a
brief explanation in [the SAR narrative] of why each
box is checked.” 2002 Form Instructions at 3.20
The SAR Form also contains directions for SAR
filers about how to complete the narrative portion of
the SAR.21 The instructions state that the narrative

The 2012 SAR Form replaced the list of financial
“instruments” with a list of “product type(s) involved in the
suspicious activity.” That list includes a box to check for “Penny
stocks/Microcap securities.” 2012 SAR Form at 7.
20 FinCEN, Form 101a, Suspicious Activity Report (SAR-SF)
Instructions (May 22, 2004), https://www.fincen.gov/sites
/default/files/shared/fin101_instructions_only.pdf.
21 The following excerpts are taken from the 2002 SAR Form. As
explained in the March Opinion, materially similar directions
are included in an instructional document created by FinCEN
19

93a
section of the report is critical. The care
with which it is completed may
determine whether or not the described
activity and its possible criminal nature
are clearly understood by investigators.
Provide
a
clear,
complete
and
chronological description … of the
activity, including what is unusual,
irregular or suspicious about the
transaction(s), using the checklist below
as a guide.
(Emphasis in original.) The checklist has twenty-two
items, each addressed to a specific type of
information. The following items are particularly
relevant to the SEC’s motion for summary judgment:
h.
Indicate whether the suspicious
activity is an isolated incident or relates
to another transaction.
i.Indicate whether there is any related
litigation. If so, specify the name of the
litigation and the court where the action
is pending.
…
k.
Indicate whether any information
has been excluded from this report; if so,
state reasons.

for the post-2012 electronic filing system. See 308 F. Supp. 3d at
793 (citing 2002 SAR Form and 2012 SAR Instructions).

94a
l.Indicate whether U.S. or foreign
currency and/or U.S. or foreign
negotiable instrument(s) were involved.
If foreign, provide the amount, name of
currency, and country of origin.
…
o.
Indicate any additional account
number(s), and any foreign bank(s)
account number(s) which may be
involved.
p.
Indicate for a foreign national any
available information on subject’s
passport(s), visa(s), and/or identification
card(s). Include date, country, city of
issue, issuing authority, and nationality.
q.
Describe any suspicious activities
that involve transfer of funds to or from
a foreign country, or transactions in a
foreign currency. Identify the country,
sources and destinations of funds.
2002 SAR Form at 3.
FinCEN has issued a number of guidance
documents explaining the scope of the SAR reporting
duty in the narrative section of the SAR Form.
FinCEN guidance interpreting Section 1023.320 is
entitled to deference. See March Opinion, 308 F.
Supp. 3d at 791. That guidance includes the
instruction that a SAR narrative should include the
who, what, when, why, where, and how of the

95a
suspicious activity (the “Five Essential Elements”).22
See SAR Narrative Guidance at 3–6; SAR Activity
Review, Issue 22, at 39–40;23 2012 SAR Instructions
at 110–12. See generally 308 F. Supp. 3d at 791-95. To
interpret the scope of Section 1023.320, this Opinion
principally relies on the instructions on the 2002 SAR
Form, the 2012 SAR Instructions, and the SAR
Narrative Guidance issued in 2003. Both the 2002
SAR Form (and its list of instructions) and the 2012
SAR Form were promulgated after FinCEN published
a notice in the Federal Register with a draft version
of the form and invited public comment. See FinCEN
2002 SAR Form Notice, 67 Fed. Reg. at 50,751;24
FinCEN 2012 SAR Form Notice, 75 Fed. Reg. at
63,545.25 The 2012 SAR Instructions are similar in all
respects that are material to this litigation to those
instructions contained in the 2002 SAR Form.26

FinCEN guidance refers to the who, what, where, when, and
why, as the “five essential elements” of a SAR narrative, but also
adds that a sixth element, “the method of operation (or how?)[,]
is also important.” SAR Narrative Guidance at 3. This Opinion
follows FinCEN’s lead in calling these six elements the Five
Essential Elements of a SAR.
23 FinCEN, The SAR Activity Review: Trends, Tips & Issues,
Issue 22 (Oct. 2012), https://www.fincen.gov/sites/default
/files/shared/sar_tti_22.pdf.
24 FinCEN, Proposed Collection, Comment Request, Suspicious
Activity Report by the Securities and Futures Industry, 67 Fed.
Reg. 50,751 (Aug. 5, 2002).
25 FinCEN, Proposed Collection, Comment Request, Bank
Secrecy Act Suspicious Activity Report Database Proposed Data
Fields, 75 Fed. Reg. 63,545 (Oct. 15, 2010).
26 Alpine does not argue that its SAR obligations changed when
the filing format changed in 2012.
22

96a
The SAR Narrative Guidance was issued by
FinCEN in 2003 with the “purpose” of “educat[ing]
SAR filers on how to organize and write narrative
details that maximize[] the value of each SAR form.”
SAR Narrative Guidance at 1. This “guidance
document” describes in detail the Five Essential
Elements of a SAR narrative, describes how a SAR
narrative should be structured, and provides
examples of sufficient and insufficient narratives for
each type of filing entity. See id. at 1-2.
The “who” of the Five Essential Elements
encompasses the “occupation, position or title … , and
the nature of the suspect’s business(es);” the “what”
includes “instruments or mechanisms involved” such
as wire transfers, shell companies, and “bonds/notes;”
and the “why” includes “why the activity or
transaction is unusual for the customer; consider[ing]
the types of products and services offered by the
[filer’s] industry, and the nature and normally
expected activities of similar customers.”27 SAR
Narrative Guidance at 3–4. The “how” includes the
“method of operation of the subject conducting the
suspicious activity,” by giving “as completely as
possible a full picture of the suspicious activity
involved.” Id. at 6. The obligation to identify involved
parties in a transaction extends to all “subject(s) of
the filing,” and “filers should include as much

The SAR Narrative Guidance also directs filers to find “[o]ther
examples of suspicious activity … in previously published
FinCEN Advisories, SAR Bulletins, and editions of The SAR
Activity Review – Trends, Tips & Issues.” SAR Narrative
Guidance at 6 n.5. Those sources are cited in this Opinion and in
the March Opinion.

27

97a
information as is known to them about the subject(s).”
SAR Activity Review, Issue 22, at 39.
Examples of relevant information listed by
FinCEN include “bursts of activities within a short
period of time,” SAR Narrative Guidance at 5,
whether foreign individuals, entities, or jurisdictions
are involved, 2012 SAR Instructions at 112, or the
involvement of unregistered businesses, SAR
Narrative Guidance at 5. A common scenario
identified by FinCEN as suspicious involves a
“[s]ubstantial deposit … of very low- priced and thinly
traded securities” followed by the “[s]ystematic sale of
those low-priced securities shortly after being
deposited.” SAR Activity Review, Issue 15, at 24.28
FinCEN has explained that “[t]ransactions like
these are red flags for the sale of unregistered
securities, and possibly even fraud and market
manipulation,” and firms need to “investigate[]
thoroughly” such questions as “the source of the stock
certificates, the registration status of the shares, how
long the customer has held the shares and how he or
she happened to obtain them, and whether the shares
were freely tradable.” Id.
Broker-dealers are also required by regulation
to maintain written AML policies that define how the
broker-dealer detects potential money laundering and
implements the duty to file SARs. This requires

FinCEN, The SAR Activity Review: Trends, Tips & Issues,
Issue 15 (May 2009), https://www.fincen.gov/sites/default
/files/shared/sar_tti_15.pdf.

28

98a
broker-dealers to engage in “ongoing customer due
diligence,” which includes
(i) Understanding the nature and
purpose of customer relationships for
the purpose of developing a customer
risk profile; and
(ii) Conducting ongoing monitoring to
identify
and
report
suspicious
transactions and, on a risk basis, to
maintain
and
update
customer
information … includ[ing] information
regarding the beneficial owners of legal
entity customers.
31 C.F.R. § 1023.210(b)(5).
In 2002, FinCEN delegated its BSA authority
over broker- dealer AML programs to the SEC and
SROs including FINRA.29 Pursuant to its supervisory
authority over SROs, the SEC reviewed and approved
AML best practices submitted by the SROs.30 FINRA
Rule 3310 has governed its members’ AML programs
since 2009.31 Rule 3310 requires member firms to
See FinCEN, Anti–Money Laundering Programs for Financial
Institutions, 67 Fed. Reg. 21,110, 21,111 (Apr. 29, 2002) (interim
final rule effective April 24, 2002); see also 31 C.F.R.
§ 1023.210(c) (requiring a broker-dealer AML program to
“[c]ompl[y] with the rules, regulations, or requirements of its
self-regulatory organization governing such programs”).
30 See SEC, Order Approving Proposed Rule Changes Relating to
Anti–Money Laundering Compliance Programs, 67 Fed. Reg.
20,854 (Apr. 26, 2002).
31 See SEC, Order Approving Proposed Rule Change to Adopt
FINRA Rule 3310 (Anti–Money Laundering Compliance
29

99a
have a written AML policy that receives approval
from FINRA’s senior management and that
“[e]stablish[es] and implement[s] policies, procedures,
and internal controls reasonably designed to achieve
compliance with the Bank Secrecy Act and the
implementing regulations thereunder.” FINRA
Rule 3310(b) (2015).32 The Rule also requires that
member firms “[e]stablish and implement policies and
procedures that can be reasonably expected to detect
and cause the reporting of transactions required
under 31 U.S.C. 5318(g) and the implementing
regulations thereunder.” FINRA Rule 3310(a).
II. General Arguments
The SEC makes four categories of claims, each
of which is separately addressed below. It asserts that
Alpine filed SARs that failed to report in their
narrative sections one or more of seven different types
of information. It then asserts that Alpine failed to file
SARs reporting suspicious sales following large
deposits of LPS. The third set of claims concerns SARs
that the SEC asserts were filed later than allowed by
Section 1023.320. Finally, the SEC asserts that
Alpine violated the law by not maintaining support
files for many of the SARs it filed. Before addressing
the specific violations on which the SEC seeks

Program) in the Consolidated FINRA Rulebook, SEC Release
No. 60645, 2009 WL 2915633 (Sept. 10, 2009). Prior to 2009,
substantially similar rules governed broker-dealer AML
programs administered by FINRA’s predecessor organizations.
See id. at *1.
32 Found at http://finra.complinet.com/en/display/display_main.
html?rbid=2403&element_id=8656.

100a
summary judgment, this Opinion addresses Alpine’s
general arguments about the propriety of this action.
Alpine contests whether the SEC has authority
to bring this suit.33 In large part, these arguments
were addressed in the March Opinion. See 308 F.
Supp. 3d at 795-97. Alpine argues that the SEC has
not been empowered to sue for violations of the BSA.
See id. at 795-96. According to Alpine, the Treasury
Department, and in particular FinCEN, are
empowered to enforce the BSA, and FinCEN has
delegated to the SEC only the authority to examine a
broker-dealer for compliance with the BSA but not the
authority to enforce the BSA.
Alpine is correct that FinCEN has not
expressly delegated BSA enforcement authority to the
SEC. But, that ignores the separate statutory
authority at issue here. The SEC has its own
independent authority to require broker-dealers to
make reports, and has enforcement authority over
those broker-dealer reporting obligations. It was
efficient for the Treasury Department to delegate its
own duty to examine broker-dealers to the agency
primarily responsible for regulating broker-dealers.
The Exchange Act requires broker-dealers to
“make … such reports as the Commission …
Alpine principally presents its legal argument in the expert
declaration Alpine submitted with its opposition papers. These
legal arguments may not be presented through an expert. See
DiBella v. Hopkins, 403 F.3d 102, 121 (2d Cir. 2005) (“Expert
witness statements embodying legal conclusions exceed the
permissible scope of opinion testimony under the Federal Rules
of Evidence.” (citation omitted.)).
33

101a
prescribes as necessary or appropriate in the public
interest, for the protection of investors, or otherwise
in furtherance of the purposes of [the Exchange Act].”
15 U.S.C. § 78q(a)(1). One of the rules the SEC has
promulgated pursuant to this statute is Rule 17a-8.
As explained in the March Opinion, Rule 17a-8 is a
valid exercise of the broad authority Congress
conferred on the SEC in 15 U.S.C. § 78q(a)(1).34
Rule 17a-8 incorporates the reporting obligations
imposed on broker-dealers in that section of the Code
of Federal Regulations in which the SAR regime is
contained. See March Opinion, 308 F. Supp. 3d at 797.
Alpine also makes a related argument that the
FinCEN guidance on which the SEC relies was not
meant to create rules of law, but rather provided a
number of suggestions that broker- dealers could
consider when filing SARs. Alpine also contends that
it lacked notice about its SAR obligations because
some guidance documents were issued after certain

Alpine and its expert fail to engage with the analysis provided
in the March Opinion. In particular, they do not account for the
SEC’s interpretation of Rule 17a-8 as encompassing the duty to
file a SAR and otherwise comply with Section 1023.320 in a
formal adjudication. See In re Bloomfield, SEC Release No. 9553,
2014 WL 768828, at *15–*17 (Feb. 24, 2014). As explained in the
March Opinion, it is axiomatic that agencies may announce
rules by rulemaking or through a formal adjudication, and when
an agency acts through adjudication, its rules are necessarily
retrospective. See 308 F. Supp. 3d at 788 (citing SEC v. Chenery
Corp., 332 U.S. 194, 201–02 (1947) and Bowen v. Georgetown
Univ. Hosp., 488 U.S. 204, 221 (1988) (Scalia, J., concurring)).
The March Opinion thus provided two bases for concluding that
the SEC may bring this action under Rule 17a-8.
34

102a
transactions
persuasive.

occurred.

Neither

argument

is

First, while FinCEN guidance is informative
and useful, its role in this action can be overstated.
The violations that the SEC asserts occurred here
arose from Alpine’s failure to comply with
Section 1023.320’s mandates and the SAR Form’s
instructions, including the requirement that it
provide in its SARs’ narratives a “clear, complete and
chronological description [of] what is unusual,
irregular or suspicious about the transaction(s).” 2002
SAR Form at 3. These instructions have the force of
law, having been issued as FinCEN regulations
following a notice and comment period.35
Second, it has long been established that an
agency’s guidance documents receive deference when
they reasonably interpret an agency’s ambiguous
regulation. See Nat. Res. Def. Council v. EPA, 808
F.3d 556, 569 (2d Cir. 2015); see also March Opinion,
308 F. Supp. 3d at 791 (concluding that
Section 1023.320 is ambiguous and that FinCEN
guidance is entitled to deference). Alpine does not
argue that Section 1023.320, including its injunction
that a broker-dealer report suspicious transactions, is
unambiguous. Indeed, that regulation is designed to
capture the breadth of ways in which a broker-dealer
could be “use[d]” to “facilitate criminal activity.” 31
C.F.R. § 1023.320(a)(2)(iv). Nor does Alpine argue
that FinCEN guidance unreasonably interprets
either Section 1023.320 or the SAR Form. The
FinCEN guidance cited by the SEC explains that
35

See FinCEN 2002 SAR Form Notice, 67 Fed. Reg. 50,751.

103a
certain fact patterns are typical of suspicious activity
and should be reported by SAR filers. See SAR
Narrative Guidance at 4-6 (listing “[e]xamples of
some common patterns of suspicious activity” that
should be included in a SAR narrative). These
guidance documents, responding to the broad legal
requirement contained in Section 1023.320, give
content to a broker-dealer’s obligation to file SARs.
Alpine also contends it is inappropriate to rely
on some guidance documents cited by the SEC
because those documents were promulgated after the
SARs at issue were filed. The principal source of
guidance cited here is the 2003 SAR Narrative
Guidance. That document predates all of the SARs at
issue. In addition, this Opinion cites several issues of
the SAR Activity Review from 2000, 2009, and 2012.
The 2012 issue is only cited, however, in conjunction
with earlier guidance documents.
Alpine makes two additional arguments about
its interactions with FINRA and the SEC. Alpine first
argues that it did not have notice of the SEC’s theory
of this case until it received the OCIE Report in 2015
and that it is accordingly unfair to hold it liable for
failing to include mention of red flags in its SARs’
narratives that the SEC asserts it improperly
omitted. This argument fails. The SEC has the
burden to show that Alpine’s failures violated
Section 1023.320. The standards at issue here are
those that have existed since the issuance of the 2002
SAR Form, which provided the mechanism by which
broker-dealers comply with the requirements of
Section 1023.320. Nothing OCIE did or said in 2015

104a
can increase the scope of that duty.36 In addition,
Section 1023.320 uses an objective standard to
measure compliance. See March Opinion, 308 F.
Supp. 3d at 799. This standard obligated Alpine to file
SARs when it had reason to suspect criminal activity.
Its ignorance of its legal obligations or its intent in
failing to comply with those obligations may be
relevant to an award of damages, but they are not
defenses to this motion regarding its liability.
Alpine next contends that its level of
compliance with Section 1023.320 increased over
time, and that it has shown that it tried in good faith
to comply with its SAR obligations. It is true that
approximately two-thirds of the SARs at issue in the
SEC’s motion predate the FINRA Report. But even if
Alpine is correct that its program improved over time,
this does not immunize Alpine for its past failures to
include required information in any SAR narrative, or
to file a SAR when it was required to do so. A brokerdealer’s duty to maintain an AML program
reasonably calculated to ensure compliance with the
BSA is distinct from the duty to file a complete report
of suspicious transactions.
Finally, Alpine asserts that holding it liable
under the SEC’s theory in this case would be
extraordinary and wreak havoc with the SAR regime
and the broker-dealer industry. Not so. This Opinion
holds the SEC to the well-established summary
Similarly, this Opinion cites the FINRA and OCIE Reports
solely to give context to arguments Alpine has made in
opposition to this motion. These Reports are not the source of
any legal obligation or of any finding that Alpine violated
Section 1023.320.
36

105a
judgment standard. The SEC is required to
demonstrate that no question of fact exists regarding
whether Alpine complied with Section 1023.320 for
each SAR, missing SAR, or missing SAR support file
on which it seeks summary judgment. To defeat the
SEC’s motion, all Alpine must do is raise a question
of fact. Alpine has done so in a number of
instances⸺both as to individual SARs and as to
entire categories of SARs. This Opinion denies
summary judgment to the SEC wherever its
presentation is deficient, and wherever Alpine
identifies a question of fact as to the specific SAR or
transaction at issue.
As described below, the SEC has shown that
the failures in Alpine’s SAR-reporting regime were
stark. Tellingly, Alpine does not contest in a large
number of instances that it failed to include
information in SAR narratives that the SAR Form
itself directs a broker-dealer to include. Given the
sheer number of lapses at issue in this case, there is
no basis to conclude that a broker-dealer that
reasonably attempts to follow the requirements of
Section 1023.320 will be at risk. And questions about
what effect this action will have on the SAR regime
are ultimately about policy, not the law a court must
apply. This Opinion resolves the SEC’s motion by
applying
wellestablished
principles
of
administrative law and summary judgment.
Following those principles, the SEC’s motion is
granted in part.
III. Admissibility of Summary Tables

106a
Before addressing the various deficiencies in
Alpine’s compliance with the SAR reporting regimen
that are asserted by the SEC, a threshold evidentiary
issue must be resolved. Relying on Rule 1006, Fed. R.
Evid., the SEC has supported its motion for summary
judgment with ten tables that identify the SARs or
transactions as to which it is asserting each alleged
deficiency.
Rule 1006 provides that
[t]he proponent may use a summary,
chart, or calculation to prove the content
of voluminous writings, recordings, or
photographs that cannot be conveniently
examined in court. The proponent must
make the originals or duplicates
available for examination or copying, or
both, by other parties at a reasonable
time and place. And the court may order
the proponent to produce them in court.
Fed. R. Evid. 1006. Such a summary must be “based
on foundation testimony connecting it with the
underlying evidence summarized and must be based
upon and fairly represent competent [and admissible]
evidence.” Fagiola v. Nat’l Gypsum Co. AC&S, 906
F.2d 53, 57 (2d Cir. 1990) (citation omitted).
Objections that a summary “d[oes] not fairly
represent the [underlying] documents and [is]
excessively confusing and misleading go more to [the
summary’s] weight than to its admissibility.” U.S. ex
rel. Evergreen Pipeline Constr. Co. v. Merritt Meridian
Constr. Corp., 95 F.3d 153, 163 (2d Cir. 1996) (citation
omitted).

107a
The SEC’s ten tables include seven that
correspond to the seven alleged deficiencies in the
SAR narratives.37 These seven deficiencies are the
omission of (1) basic customer information,
(2) “related” litigation, (3) shell company status or
derogatory history of the stock, (4) stock promotion
activity, (5) unverified issuers, (6) low trading volume,
and (7) foreign involvement.
Each of these seven tables has six columns. The
columns list the SAR item number,38 date filed, SAR
Bates stamp, volume of shares in the transaction,
value stated in the SAR narrative, and a final column
with a heading describing the type of violation and a
Bates stamp page number where the missing
information was found in Alpine’s support file for that
SAR.
Table 10 is itself a summary table for Tables 1
though 7. It lists all 1,594 SARs for which the SEC
contends the SAR narratives were deficient. Table 10
contains columns identifying the SAR number,39 the
The ten tables are labelled in the SEC papers as Exhibits 3
through 12. Exhibits 3 through 9 are also labelled Tables A-1
through A-7 to Exhibit 2 in the SEC’s submissions. Tables A-1
through A-7 are referred to in this Opinion as Tables 1 through
7. SEC Exhibits 10 through 12 are referred to as Tables 10
through 12. Using this numbering system, this Opinion does not
refer to any Table 8 or 9.
38 The item number is a number assigned to each SAR in Tables
1 through 7. The numbering system is nonconsecutive and does
not correspond to any chronological or other apparent order.
39 The SAR number is a number assigned to each allegedly
deficient SAR, consecutively from 1 to 1,594. The number is
different than the item number, and the SEC has not provided a
table that matches an item number to a SAR number. As a
37

108a
Alpine customer identified in the SAR, and the SAR
Bates stamp number. Table 10 also has seven
columns corresponding to the seven types of deficient
narratives for which the SEC seeks summary
judgment. Many SARs have entries in multiple
deficiency columns. Those columns have a Bates
stamp page number that gives the location in the
Alpine SAR support file where information missing
from the SAR narrative is found.
The two remaining tables are Tables 11 and 12.
Table 11 lists sales-and-liquidation patterns. The
SEC contends that Alpine had a duty to file SARs
reflecting these sales, but did not do so. Table 11 lists
1,242 groups of transactions, organized as follows.
The right half of the table lists a deposit date, the
volume of the deposit, the value of the deposit, the
date a SAR was filed reporting the deposit, and the
Bates stamp number for that SAR. The left portion of
the table lists a group number, the customer name, a
liquidation date, the number of shares sold, and the
stock symbol. The SEC contends that Alpine should
have filed a SAR for at least each of the 1,242 groups.
Table 12 lists the SARs that the SEC alleges
were filed late. It lists the SAR number, the Bates
stamp number, the date of the transaction reported,
the date the SAR was filed, the number of days
between the transaction and SAR, and the number of
days the SAR was late. The number of days late is
result, the item number and the SAR number may only be
matched by comparing the Bates numbers between Table 10 and
Tables 1 through 7. As was true with the item number, the SAR
number does not correspond to chronological or other apparent
order.

109a
calculated by subtracting 30 from the number of days
between date of the transaction and the date the SAR
was filed.
These tables summarize voluminous evidence
that is not subject to convenient examination in court.
This evidence is organized by subject matter. Each
type of violation alleged in the case has its own
separate table, and one table also allows the factfinder to determine whether a single SAR is alleged
to reflect multiple violations. The SEC seeks
summary judgment as to approximately 1,800 SARs,
and moves for summary judgment as to
approximately 3,500 other transactions that are
listed in Alpine’s transaction records. Accordingly, the
threshold for Rule 1006⸺that a summary be used to
prove the content of voluminous writings⸺is met.
Alpine does not suggest that it has not had access to
the underlying documentation⸺which came from its
files⸺or that the SARs and the SAR support files
referenced in the tables are not admissible
documents.
To the extent that the tables list information
such as an item number, date of SAR filing, Bates
stamp number, volume of shares in the underlying
transaction, and the value stated in a SAR, these are
classic examples of information that is appropriately
captured in a summary table. The SEC has merely
taken a number or date from a voluminous quantity
of admissible documents and placed the data in a
convenient format for the fact finder. On this basis,
there can be little debate that these components of
Tables 1 through 7 and 10 through 12 are admissible.

110a
To the extent that a column in a Table
identifies a particular alleged deficiency in a SAR and
lists a Bates stamp page number from the SAR’s
support file upon which the SEC relies to show that
deficiency, those columns also summarize the
contents of voluminous files and are admissible to
prove the contents of those files. Alpine is free to
argue that there are inaccuracies in the tables⸺in
fact, it has raised a few such arguments as to each of
the tables. Subject to specific challenges by Alpine,
therefore, these tables are admissible as summaries
of the contents of voluminous admissible
documents⸺the Alpine SARs and their support files,
and Alpine transaction records.
Alpine argues that a column heading
identifying the particular deficiency at issue for a
SAR is an expert opinion. It is not. That column
heading reflects the SEC’s contention and includes as
well a citation to the documents supporting that
contention. This citation permitted Alpine, and
permits the fact finder, to assess whether that
contention is proven in the case of an individual SAR.
Indeed, expert testimony would be inadmissible to
prove these violations. An expert’s opinion may not
“usurp either the role of the trial judge in instructing
the jury as to the applicable law or the role of the jury
in applying that law to the facts before it.” United
States v. Stewart, 433 F.3d 273, 311 (2d Cir. 2006)
(citation omitted). A fact finder, advised of the
governing law would have to assess whether Alpine
complied with the law in filing each SAR identified in
a table (or violated the law in failing to file a SAR for
each group of transactions for which there was no
SAR filed, again as identified in a table). For instance,

111a
advised by the court of what constitutes “related”
litigation, does the SAR support file contain a
description of such litigation, and was that
information omitted from the SAR narrative?
Alpine also argues that Table 11 is
inadmissible because the groups listed in Table 11
reflect expert conclusions unsupported by a reliable
methodology. Not so. The group numbers are used by
the SEC as a contention that each of the deposits and
liquidations listed in a group form a suspicious
pattern that had to be reported in a SAR. This is a
question of fact to be resolved under the governing
law. The SEC may have relied on an expert and
consulting group to assist it in assembling the groups
of transactions on which the SEC would focus in this
action, but that task could have been done as well by
an SEC attorney or an SEC paralegal. It reflects no
more than the SEC’s contentions. The fact finder,
applying the controlling law, will have to examine the
facts summarized in Table 11 and determine for each
group whether there is an actionable pattern of
suspicious trading that triggered Alpine’s duty to file
a SAR reporting the sales listed within a group. An
expert cannot tread on that duty, which rests on the
shoulders of a fact finder. Of course, a qualified expert
could properly provide testimony generally about
illicit and manipulative market activities and
practices to inform a fact finder’s examination of each
of the listed groups, and improve its understanding of
suspicious patterns, but the table by itself does not do
that.
Finally, Alpine contends that the SEC has
failed to carry its burden of proof by relying

112a
exclusively on the tables without also offering each of
the SARs and support files to which the tables refer.
That objection is not well founded. In connection with
the partial summary judgment motion, the SEC
submitted exemplar SARs and support files; Alpine
chose not to do so. The legal framework for the
litigation of the SEC’s claims having been described
in the March Opinion, the SEC appropriately relied
on Rule 1006 to present in convenient and summary
form the voluminous evidence on which it relies.
Alpine has had a full opportunity to raise questions of
fact in response and to submit SARs and support files
where it takes issue with the SEC’s assertions. This
Opinion examines that evidence, and where
appropriate, denies the SEC’s summary judgment
motion.
IV. Deficient Narratives
The first of the four categories of claims brought by
the SEC concerns 1,593 SARs that Alpine filed.40 The
SEC claims that Alpine was required by law to
include information in 1,593 SAR narratives that
Alpine omitted. The omitted information is found in
the Alpine support files for each of these SARs. These
alleged deficiencies in the SAR narratives fall into
The SEC initially sought summary judgment as to 1,594 SARs
with
allegedly
deficient
narratives.
In
two
categories⸺unverified issuers and low trading volume⸺the
SEC withdrew its motion as to six and seven SARs, respectively.
Of these thirteen affected SARs, twelve are also identified as
having other deficiencies. One SAR (item number 511; SAR
number 299), however, does not have any other identified
deficiency. Accordingly, the SEC’s motion now pertains to 1,593
SARs.
40

113a
seven categories. Before addressing each of the
claimed deficiencies, the SEC’s allegation that Alpine
was required to file each of these SARs is assessed.
A. Mandatory Filing
The issue of whether Alpine was in fact
required by law to file the 1,593 SARs it did file
became significant during the parties’ briefing of the
preliminary summary judgment motion.41 Here, the
SEC asserts that Alpine was required by law to file
each of these SARs. See 31 C.F.R. § 1023.320(a)(2)
(describing when a SAR must be filed). The SEC
advances a two-part test to determine whether the
duty to file a SAR was triggered in this case because
Alpine had reason to suspect that a transaction may
involve use of a broker-dealer to facilitate criminal
activity.
The SEC contends that, in the circumstances
at issue here, Alpine had a duty to file a SAR where
the underlying transaction involved a large deposit of
LPS, and the transaction also involved either one of
six red flags it has identified or the transaction was
conducted by a certain customer. Each of the 1,593
SARs reported customer deposits of LPS worth at

The portion of the SEC’s motion for partial summary judgment
addressed to the allegedly deficient SAR narratives was denied
because Alpine argued that it routinely filed “voluntary” SARs
and the SEC had failed to explain why Alpine was obliged to file
the exemplar SARs on which its motion was based. See
March Opinion, 308 F. Supp. 3d at 799-800.
41

114a
least $5,000. Many reported far larger deposits.42 Of
those 1,593 transactions, 1,465 were cleared by
Alpine for just six customers, which the parties
identify as customers A through F.43 Ranking them in
order of the largest number of SARs that Alpine filed
for each of these customers, it filed 702 for A, 443 for
E, 149 for C, 116 for F, thirty-seven for D, and
eighteen for B.
Of the 1,593 SARs, the SEC contends that one
or more of its identified red flags appears in the
Alpine support files for 1,302 of those transactions,
but is not mentioned in the SAR narrative. For the
remaining SARs, the SEC relies on an alleged pattern
of suspicious trading, specifically, that Alpine filed a
large number of SARs for the same customer.
As described earlier in this Opinion, it is
uncontested that the market for LPS is vulnerable to
securities fraud and market manipulation schemes.
These schemes depend on the deposit of a large
amount of securities with a broker-dealer so that
those securities can enter the market. Alpine does not
take issue with either of these propositions.
Moreover, it is not unreasonable to infer from
Alpine’s very act of filing a SAR that the reported
For instance, of the 1,014 deposits listed in Table 1, the
deposits ranged in value from $5,000 to $31,619,250, the mean
value was $132,025, and the median value was $23,228.
43 This Opinion uses the term “customer” or “client” to refer to
the entity whose transaction in LPS was reported in a given
SAR. The parties largely use this formulation as well, although
Alpine also contends that its customer was the introducing
broker.
42

115a
transaction had sufficient indicia of suspiciousness to
mandate the creation and filing of a SAR. None of
these SARs suggests that the filing was simply a
voluntary act or otherwise filed outside of Alpine’s
attempt to comply with its duties under the law.44
After all, Alpine did have some version of an AML
program in place during the time it filed these SARs,
even if Alpine improved its AML program over time.
And, for reasons already explained in the
March Opinion, in the absence of an explicit
statement that a SAR was a voluntary filing, it would
have been unreasonable for anyone filing a SAR to
assume that FinCEN or the SEC would know that a
filed SAR was simply a “voluntary” filing, as opposed
to one filed to comply with the law’s mandates to alert
regulators
to
suspicious
trading
activity.
March Opinion, 308 F. Supp. 3d at 799 & n.20.

Without identifying any particular SAR, Alpine asserts that it
filed numerous voluntary SARs on transactions involving more
than 5 million shares or $50,000 worth of microcap securities.
Alpine has not identified any means by which a regulator or a
fact-finder could identify such a “voluntary” SAR. It has not
pointed to any disclosure in the 1,593 SARs that they were
“voluntary” filings. Nor has it pointed to any portion of the SAR’s
support file reflecting an analysis of the reporting obligation and
a conclusion that the SAR was not required to be filed. Alpine’s
vague and conclusory assertion is insufficient to raise a triable
question of fact as to whether any SAR was filed voluntarily as
opposed to pursuant to Alpine’s obligation under the law to make
the filing.
Moreover, more than a few of the 1,593 SARs state explicitly
that Alpine thought the transaction was suspicious. For
instance, the narrative portion of SAR 348 states that “Alpine is
filing this SAR because of the potentially suspicious nature of
depositing large volumes of shares involving a low- priced
security(ies).”
44

116a
In addition, with one exception,45 Alpine does
not contest that the red flags on which the SEC relies
are indeed red flags and that a broker-dealer should
focus on these issues when reviewing transactions.46
Accordingly, the SEC has shown that Alpine had a
duty to file each of these 1,593 SARs so long as it also
shows, as discussed below, that Alpine’s support files
for the SARs contained information about a qualifying
red flag.
Alpine makes two arguments in opposition to
the SEC’s assertion that it was required to file these
SARs. First, Alpine argues that there is no liability
under the law for a broker-dealer’s failure to file a
SAR, only for failing to establish an adequate AML
regime. Not so. While a deficient AML program may
create liability, the failure to timely file a complete
SAR may also create liability. This case involves the
latter type of violation. As Section 1023.320(a)(1)
states, in mandatory terms, a broker-dealer “shall
file” a SAR “relevant to a possible violation of law or
regulation.” Alpine’s position was also expressly
Alpine appears to contend that foreign involvement in a
transaction is only noteworthy when the foreign jurisdiction has
been designated by our government as a “high-risk” jurisdiction.
46 Alpine’s own AML procedures, which it has submitted in
connection with this motion, define a number of “Red Flags
indicating potential Money Laundering” that mirror the red
flags on which the SEC relies, such as the “customer (or a person
publicly associated with the customer) ha[ving] a questionable
background or [being] the subject of news reports indicating
possible criminal, civil, or regulatory violations,” the “practice of
depositing penny stocks, liquidat[ing] them, and wir[ing] the
proceeds,” and the customer “for no apparent reason or in
conjunction with other ‘red flags,’ engages in transactions
involving certain types of securities, such as penny stocks.”
45

117a
rejected in 2002 by the Treasury Department when it
promulgated
Section 1023.320.
The
Treasury
Department stated that “[a] regulator’s review of the
adequacy of a broker- dealer’s anti-money laundering
compliance program is not a substitute for, although
it could be relevant to, an inquiry into the failure of a
broker-dealer to report a particular suspicious
transaction.” FinCEN Section 1023.320 Notice, 67
Fed. Reg. at 44,053.
Alpine argues as well that the “sizeable LPS
transaction-plus red flag” test proposed by the SEC
for deposits of LPS fails to establish the reasonable
suspicion that exists in criminal law pursuant to the
Fourth Amendment.47 According to Alpine, that
standard imposes on the SEC the duty to point to
“specific and articulable” facts in Alpine’s possession
that would have given it a basis to believe there was
a reasonable possibility that an entity or individual
was involved “in a definable criminal activity or
In support of this argument, Alpine points to 28 C.F.R. part
23. These regulations are the Department of Justice’s “policy
standards” that are “applicable to all criminal intelligence
systems operating through support under the Omnibus Crime
Control and Safe Streets Act of 1968.” 28 C.F.R. § 23.3. 28 C.F.R.
§ 23.20 allows collection of “criminal intelligence information”
about individuals “only if there is reasonable suspicion that the
individual is involved in criminal conduct or activity and the
information is relevant to that criminal conduct or activity.” 28
C.F.R. § 23.20(a). Reasonable suspicion “is established when
information exists which establishes sufficient facts to give a
trained law enforcement or criminal investigative agency officer,
investigator, or employee a basis to believe that there is a
reasonable possibility that an individual or organization is
involved in a definable criminal activity or enterprise.” 28 C.F.R.
§ 23.20(c). Alpine’s citation to 28 C.F.R. part 23 is inapposite.
47

118a
enterprise.” (Emphasis supplied by Alpine.)
Furthermore, it asserts that it would not be
permissible under the reasonable suspicion standard
for Alpine to rely on knowledge that the entity or
person had engaged in wrongdoing in the past, had a
claim pending against it, or had settled a claim.
Alpine does not explain why a Fourth
Amendment concept should apply to the SAR
reporting framework. Applying the standard used to
determine the legality of a temporary, warrantless
investigative detention of a person⸺particularly as
Alpine defines the standard48⸺would make little
sense. Broker-dealers operate in a highly regulated
industry, and both FinCEN and the SEC have broad
mandates regarding broker-dealer reporting regimes
for securities transactions. The SAR reporting system
was designed to allow law enforcement to monitor
activity before any determination of unlawfulness is
made.
By design, the SAR regime does not depend on
or require a broker-dealer to make any finding of
wrongdoing before it files a SAR. Section 1023.320
makes this clear: filing is required whenever a brokerdealer “has reason to suspect” that the transaction
involves
criminal
activity.
When
FinCEN
promulgated Section 1023.320, it considered and
rejected the view that it would be “overly burdensome
to require a broker-dealer to report transactions that
could not definitively be linked to wrongdoing.”
Because it is irrelevant, this Opinion need not define the
contours of the reasonable suspicion standard under the Fourth
Amendment.
48

119a
FinCEN Section 1023.320 Notice, 67 Fed. Reg. at
44,051. Congress, when it enacted the legislation that
authorized Section 1023.320, “sought to increase the
reporting of transactions that potentially involved
money laundering.” March Opinion, 308 F. Supp. 3d
at 791 (emphasis supplied) (citing the Patriot Act, sec.
302, 115 Stat. at 296-97). Section 1023.320,
accordingly, “target[s] all possible types of illegal
activity.”49 Id. (emphasis supplied).
As significantly, while Part II of the SAR Form
provides boxes to check to identify the “Type of
suspicious activity,” these are broad categories such
as “Market manipulation” or simply “Securities
fraud.” 2002 SAR Form at 1. The Form instructions
also permit a filer to check “[m]ore than one box” and
to check a box entitled “Other” with an explanation in
the narrative. 2002 SAR Form at 1-2. The Form
cannot be read to impose on the filer the duty to select
“a definable criminal activity” when filing the SAR, or
relieve a broker-dealer of the duty to file unless it can
define the criminal activity in which the subject may
be engaged.

This standard is somewhat analogous to the standard that
governs whistleblower suits under 18 U.S.C. § 1514A, a
provision of the Sarbanes-Oxley Act of 2002 (“Sarbanes-Oxley”).
A whistleblower is entitled to protection under Sarbanes-Oxley
if, inter alia, an employee in his or her position would have
reasonably believed that the conduct complained of violated
federal law. See Nielsen v. AECOM Tech. Corp., 762 F.3d 214,
221 (2d Cir. 2014). A whistleblower’s complaint need not relate
“definitively and specifically” to any one statute covered by
Sarbanes-Oxley. See id. at 220-21.
49

120a
Similarly, Alpine’s argument that a brokerdealer may not consider the litigation history of its
customer or the issuer, or their affiliates, is flatly
contradicted by the SAR Form, which requires
disclosure of “related litigation.” See 2002 SAR Form
at 3, 2012 SAR Instructions at 112. The SEC’s
proposed test⸺which begins with the large deposit of
LPS and adds other red flags⸺is faithful to the
language and purpose of Section 1023.320.
B. Red Flags Omitted From SAR Narratives
As noted, the SEC contends that the SAR
narratives in 1,593 SARs were legally deficient
because they omitted information from the Alpine
support files for the SARs that the law requires to be
included in the narratives. The SEC also contends
that, with respect to these six red flags, their
existence is another reason that a broker-dealer
would have had reason to suspect that the transaction
involved use of the broker-dealer to facilitate criminal
activity, which triggered its duty to file a SAR.
In each instance, the SEC’s identified red flags
have been derived from the SAR Form and its
instructions, as well as FinCEN and other guidance
interpreting Section 1023.320. They take into account
the unique characteristics of the LPS markets such as
the difficulty in obtaining objective information about
issuers, the risk of abuse by undisclosed insiders, and
the opportunity for market manipulation schemes.
Alpine argues that, although it was required to
scrutinize these red flags, it had to do so in the context
of all of the facts and circumstances surrounding the

121a
transaction and consider as well information that
Alpine refers to as “green flags.” Even if Alpine was
required to file a SAR, Alpine’s view is that the red
flag that triggered a duty to investigate and report did
not necessarily need to be disclosed in the SAR’s
narrative.
There are several problems with this approach.
First, with the very limited exceptions described
below, Alpine has not pointed to any evidence that it
omitted reference to a red flag in any particular SAR’s
narrative because its examination of other
information in that SAR’s support file led it to
conclude that the red flag was, after all, not indicative
of suspicious trading activity. Second, Alpine’s
omission of a red flag from the discussion in the
narrative is also at odds with FinCEN’s view, as
expressed on the SAR Form itself, that a SAR filer
should provide in the narrative a “clear, complete and
chronological description … of the activity, including
what is unusual, irregular or suspicious about the
transaction(s).” 2002 SAR Form at 3. The SAR Form
adds that a filer should “[i]ndicate whether any
information has been excluded from this report; if so,
state reasons.” Id. Finally, this contention is
undermined by an examination of those SARs that
Alpine did file that are in the record, that is, those the
SEC submitted with its partial summary judgment
motion and those Alpine has submitted in opposition
to this motion. Alpine repeatedly used template
narratives that failed to include any details, positive
or negative, about the transactions. While a fulsome
SAR narrative could present a question of fact as to
whether the narrative was deficient, except in rare
instances Alpine has not shown that its SAR

122a
narratives contained sufficient information to create
a question of fact. Each of the six red flags is now
discussed in turn.
1. Related Litigation
The SEC contends that 675 SARs omit a
description of “related” litigation from the SARs’
narratives. The 2002 SAR Form directs a filer to
“indicate whether there is any related litigation, and
if so, specify the name of the litigation and the court
where the action is pending” in the narrative portion
of a SAR. 2002 SAR Form at 3. Materially similar
instructions are included in the 2012 SAR
Instructions. See 2012 SAR Instructions at 112.
Webster’s dictionary defines “related” as
“having relationship” or “connected by reason of an
established or discoverable relation.” The relevant
definition of relation is “an aspect or quality … that
can be predicated only of two or more things taken
together,” or a “connection.” The SEC is thus entitled
to summary judgment to the extent it shows that
there is no question of fact as to the (1) presence of
information about the litigation in the SAR support
file, and (2) a connection between the litigation and
the reported transaction. That connection is
established where the litigation at issue concerns
either the issuer of the securities in the transaction or
the customer engaged in the transaction.
In connection with the partial summary
judgment motion, the SEC proved that three SARs
were deficient as a matter of law because Alpine failed
to include information in the SAR narrative about

123a
related litigation. The omitted information, which
was present in Alpine’s support files for the SARs,
indicated that the SEC had sued one customer and its
CEO for fraud in connection with asset valuations and
improper allocations of expenses, that another
customer had pleaded guilty to conspiracy related to
counterfeiting, and that yet another customer had a
history of being investigated by the SEC for
misrepresentations. See id.
In Table 2, the SEC identifies the pages from
the Alpine support files that describe the related
litigation which the SEC contends should have been
disclosed in the SAR, but was not. Alpine does not
contend that the pages listed in the table do not
include descriptions of litigation or that the SARs
actually did include the information. It does argue for
most of the 675 SARs, however, that it had no duty to
include the missing information in the SAR
narratives for one or more of the following reasons.
First, Alpine appears to argue that civil
litigation with a private party is never “related”
litigation, and need never be disclosed. To the extent
it is relying on the March Opinion for that
proposition, that reliance is mistaken.50 While civil
litigation with a private party may be unrelated to the

Although the March Opinion used the phrase “criminal or
regulatory history” (which described the omitted information
from the three exemplar SARs) and the phrase “related
litigation” somewhat interchangeably, the March Opinion did
not purport to change the scope of the reporting obligation
established by the SAR Form and FinCEN guidance. The duty
to report is not confined to criminal or regulatory litigation.
50

124a
securities transaction, where it is “related” it must be
disclosed.
Alpine next contends that summary judgment
cannot be granted to the SEC because Alpine was
diligent about obtaining information about its
customers and others. According to testimony given
by the AML Officer who began to work at Alpine in
2012, Alpine only disclosed litigation in its SARs
where Alpine concluded that it was “actually …
relevant to the activity” reported in the SAR. In doing
so, Alpine considered “the proximity” of “the
infraction” to the transaction being reported.
As explained above, a broker-dealer must have
a reasonably effective AML compliance program and
also file SARs on all suspicious transactions. This
action involves the latter duty, and Alpine’s efforts in
2012 and beyond to improve its AML compliance
program cannot save it from liability under
Section 1023.320 and Rule 17a-8 where it did not file
required SARs. And, as previously explained, when
proving a violation of Rule 17a-8, the SEC has no
burden to prove that a broker-dealer acted with
scienter. Section 1023.320 imposes an objective test:
A SAR must be filed when the broker-dealer has
“reason to suspect” that the transaction requires a
filing. 31 C.F.R. § 1023.320(a)(2). Finally, Alpine has
provided no testimony regarding its analysis and
decision-making process that led it to omit from any
individual SAR the information about related
litigation that appears in any particular SAR’s
support file. Nor has it pointed to any recorded
analysis in a support file that reflects the decision
that the information about the litigation need not be

125a
included. Its conclusory assertions would not raise a
question of fact even if its subjective intent were
relevant.
Finally, Alpine complains that the SEC has not
described separately for each of these 675 SARs why
the omitted information needed to be disclosed. But,
that exercise was conducted in connection with the
briefing of the partial summary judgment motion so
that the parties would have an early understanding
of the legal standards that would be applied to the
SEC claims regarding the many SARs at issue in this
lawsuit. To the extent that Alpine has raised a
question of fact now as to whether the omitted
information identified by the SEC in Table 2 for any
particular SAR was in fact “related” litigation or did
not for some other reason need to be disclosed, then
those assertions are addressed next. Alpine has
raised specific factual disputes regarding the
omissions from each of the SARs filed by three
customers and from ten other individual SARs.
a. Three Customers
Alpine contends that the SEC’s motion should
be denied as to 499 SARs that Alpine filed for
transactions conducted by Customers A, D, and E.
The assertions will be addressed in order of the
customers for which Alpine filed the largest number
of SARs.
Customer E is a capital management firm and
372 SARs in Table 2 relate to Customer E alone. The
Alpine support files indicate that on October 25, 2010
the SEC sued Customer E, its former manager, and

126a
its CEO for (a) overvaluing Customer E’s largest
holdings, (b) making material misrepresentations to
investors, and (c) misusing investor funds.
This is related litigation. The SEC has shown
it is entitled to summary judgment with respect to its
claim that Alpine was required to file SARs for every
large deposit of LPS made by Customer E and that
the Customer E SARs Alpine did file were deficient if
they failed to disclose the ongoing SEC litigation
against Customer E for securities law violations.
Alpine contends, however, that it was entitled
to omit mention of the SEC lawsuit from its SARs
because Alpine’s office files included a request by its
affiliated introducing broker, SCA, that Alpine make
an exception to its float limit policy despite the
ongoing litigation that the SEC had filed against
Customer E.51 SCA principally argued in its request
that Customer E no longer managed money for
outside investors and that the SEC did not seek to
limit the activities of Customer E pending the
outcome of the litigation. Alpine argues that the
documents it received from SCA, and the fact that the
SEC litigation was not yet resolved, create a question
of fact as to whether Alpine acted reasonably in not
disclosing the existence of the SEC action in the
Customer E SARs. They do not. The duty to report
related litigation extends not just to litigation that
has been resolved, but also to ongoing litigation. The
2002 SAR Form directs a filer to indicate “any related
While Alpine relies on the SCA request in opposing this
summary judgment motion, that request was not found in the
support files for these SARs.
51

127a
litigation” and to name the court “where the action is
pending.” 2002 SAR Form at 3 (emphasis supplied). A
materially similar instruction appears in the 2012
SAR Instructions. See 2012 SAR Instructions at 112.52
Under the objective standard that applies to the SEC
claims in this action, Alpine had an obligation to
disclose the pending SEC action as related litigation,
and no reasonable jury could conclude otherwise.
The next customer at issue is Customer A.
Alpine argues that SEC litigation against an affiliate
of Customer A did not need to be disclosed. While
Alpine makes arguments as to each of the ninetythree SARs Alpine filed for Customer A that are listed
in Table 2, its argument ultimately has significance
for only eight of the SARs.53
Alpine failed to disclose the following in SARs
it filed for Customer A. In November of 2013, the SEC
and an entity affiliated with Customer A settled an
Tellingly, Alpine’s expert does not opine that the pending SEC
lawsuit against Customer E did not constitute “related”
litigation.
53 There are ninety-three SARs for Customer A listed in Table 2.
Alpine argues that, as a general matter, it had no duty to disclose
the existence of litigation brought by private parties, and for that
reason had no duty to supplement the narrative sections for
forty-eight of the ninety-three SARs. As discussed above,
litigation with private parties may be related litigation and
Alpine has not presented evidence to raise a question of fact that
that litigation was not related litigation. For the remaining
forty-five SARs, Alpine makes the specific objection addressed
above. For thirty-seven of those forty-five SARs, however, Table
2 refers to pages in the SAR supporting files that describe at
least one additional related legal action not disclosed in the
SARs. Accordingly, Alpine’s objection has significance for only
eight of the ninety-three SARs for Customer A.
52

128a
action that charged the affiliate with selling
unregistered securities in improper reliance on the
Rule 504 exemption.54 The president of Customer A
was also the president of the affiliate. As a matter of
law, this is related litigation and Alpine had a duty to
file SARs to report Customer A’s large deposits of LPS
and to disclose its affiliate’s litigation with the SEC in
those SARs.
Alpine does not contend that the SEC action
against the affiliate was not “related” litigation.
Instead, it relies again on a memorandum sent to it
by its affiliated introducing broker, SCA, which
requested an exception to Alpine’s float limit policy in
connection with Customer A, to excuse the
nondisclosure. The memorandum argued that the
issues concerning Rule 504 are “subtle” and that
Customer A itself no longer invested in such
transactions. This memorandum, which was not in
the support files for the SARs but in Alpine’s office
files, is not sufficient to create a question of material
fact as to whether the SEC action against Customer
Rule 504 refers to 17 C.F.R. § 230.504. This regulation
exempts certain public offerings of securities of up to $5 million
in a 12-month period from registration under the Securities Act
of 1933, 15 U.S.C. § 77a, et seq. See 17 C.F.R. § 230.504. The
SEC, however, “retain[s] authority under the antifraud
provisions of the federal securities laws to pursue enforcement
action against issuers and other persons involved in [Rule 504]
offerings.” SEC, Exemptions to Facilitate Intrastate and
Regional Securities Offerings, 81 Fed. Reg. 83,494, 83,530
(Nov. 21, 2016). In one significant revision to Rule 504 in 1999,
for instance, the SEC noted a rise in fraudulent schemes
“involv[ing] the securities of microcap companies” issued under
Rule 504. SEC, Revision of Rule 504 of Regulation D, The “Seed
Capital” Exemption, 64 Fed. Reg. 11,090, 11,091 (Mar. 8, 1999).
54

129a
A’s affiliate, which was also controlled by Customer
A’s own president, was related to the transaction
being reported and had to be disclosed. Summary
judgment is accordingly granted as to Customer A’s
SARs listed in Table 2.
The third customer for which Alpine attempts
to raise a question of fact is Customer D, as to whom
Alpine filed thirty-four SARs included in Table 2.
Alpine’s SAR support files included information that
Customer D’s president and others had engaged in a
mortgage fraud scheme in 2010. Alpine has submitted
a 2011 press report which describes the scheme as
follows:
Customer
D’s
president
convinced
unsophisticated buyers to purchase property at
inflated prices, falsified loan documents, and
fraudulently secured loans that all ended in default,
costing the government millions of dollars. The
president of Customer D owned the entity engaged in
the mortgage fraud scheme, and along with his codefendants was required to pay damages and
penalties to the government.
Alpine contends that there are questions of fact
as to whether it had to include information about the
settlement in the SARs because Customer D’s
president had committed the fraud in connection with
another entity that he owned, and the settlement had
been reached in 2011, while the SARs were filed
between three and four years later.55 These
arguments do not raise a question of material fact
While Alpine indicates that the settlement was reached in
2010, the press report on which it relies indicates the settlement
was reached at the end of 2011.
55

130a
about the duty to include the omitted information in
the SARs. The settlement was not so distant in time
that the highly pertinent information about a
fraudulent scheme in which Customer D’s president
participated had become irrelevant when these
transactions occurred.
b. Ten SARs
Finally, Alpine argues that it had no duty to
include certain litigation information in the narrative
section of ten of the SARs listed on Table 2. These are
SARs 515, 612, 701, 703, 748, 859, 904, 1222, 1970,
and 1971.56 The SEC has not responded to the specific
arguments that Alpine has made regarding these ten
SARs except to say that private litigation and civil
litigation can be related litigation. But, both the SEC
and Alpine have discussed the general principles that
underlie Alpine’s arguments regarding several of
these SARs. For the following reasons, summary
judgment is granted to the SEC as to SARs 701, 1970,
and 1971, and denied as to the remaining SARs to the
extent the SEC relies on the omission of related
litigation listed in Table 2.
Table 2 identifies the omission from SAR 701
as the failure to include information about third-party
litigation. The support files for SAR 701 reveal that a
director of the issuer had been sued for securities
fraud. Alpine argues that it has no duty to disclose
this information because the litigation is neither a
These are the item numbers assigned to the SARs in Tables 1
through 7. Except where otherwise indicated, this Opinion uses
item numbers to identify SARs and not the SAR numbers
provided in Table 10.
56

131a
regulatory nor criminal action. As noted above, it is
wrong. Nothing in the 2002 SAR Form or the 2012
SAR Instructions limits the disclosure of related
litigation to regulatory actions filed by the SEC or
criminal actions filed by a prosecutor’s office. So long
as there is a connection between the litigation and the
reported transaction, there is a duty to disclose the
litigation. No reasonable jury could find that a
pending lawsuit for securities fraud against an
issuer’s director was not connected to the deposit of a
large quantity of that issuer’s LPS.
The support files for SARs 1970 and 1971 each
state that Alpine’s customer is the subject of an
ongoing SEC Action, and that the CEO and CFO of
the issuer have been “listed in civil suit alleging
securities fraud for misrepresentation.” The narrative
for SAR 1970 reports the SEC action against the
customer but omits mention of the civil suit against
the CEO and the CFO of the issuer. The narrative for
SAR 1971 reports an SEC “investigation” of the
customer and again omits mention of the securities
fraud action against the CEO and CFO of the issuer.
The securities fraud action against two officers of the
issuer was litigation related to the large deposit of the
issuer’s LPS, and as a matter of law Alpine had a duty
to disclose it in these SARs’ narratives.
Table 2 identifies the omission from SARs 515
and 703 as the failure to identify an ongoing SEC
action for accounting violations against an officer of
the issuer who is identified in Table 2 as a person with

132a
the middle initial W.57 The first and last names of the
individual are not unusual. This description of the
officer comes directly from material contained in the
Alpine support files. At least two other entries in
those same support files, however, indicate that the
officer’s name bears the middle initial H., not W.
Since there is a question of fact as to whether Alpine’s
support files misidentified the issuer’s officer,
summary judgment is denied.58
SAR 748 was filed in 2015 and reports that
Alpine’s customer had been named in an SEC
complaint and charged with fraud. It omits, however,
the fact that the CEO of the issuer had been charged
with a kickback scheme in 2001, which is fourteen
years earlier. Given the passage of time, a question of
fact exists as to whether the 2001 litigation was
sufficiently related to the 2014 transaction to require
Alpine to include it in the SAR.
Table 2 indicates that SAR 859 did not disclose
information about a broker. According to SAR 859’s
support file, an “unrelated” broker was “in litigation
for investing client’s money” in the issuer without
disclosing risks associated with LPS. Without more
information about how the litigation relates to the

This same problem appears to arise with respect to SAR 612,
but the version of Table 2 submitted to the Court does not
include the complete notice of deficiency. Therefore, summary
judgment is denied as to SAR 612.
58 In opposition to the motion for summary judgment, Alpine has
offered search results appearing in other SARs’ support files
which appear to indicate that the SEC action was brought
against the person with the middle initial W.
57

133a
transaction reported in the SAR, summary judgment
is denied.
Lastly, Table 2 indicates that SARs 904 and
1222, which reported transactions that occurred in
2011 and 2012, omitted information from their
support files regarding the CEO of the issuer⸺the
same individual in both SARs. That CEO had
disgorged almost $75,000 in settlement of a 1994 SEC
action for violating Section 57(a)(1) of the Investment
Company Act of 1940 through sales than occurred in
1988.59 Given the passage of time between the events
described in the support files and the transactions in
the SARs, summary judgment is denied.
c. Summary
The SEC is entitled to summary judgment as
to 668 SARs in Table A-2. As to those SARs, the SEC
has shown both that Alpine was required to file those
SARs, and that the filed SARs were deficient due to
the omission of information contained in the Alpine
support files that is identified in Table 2. Alpine has
identified a question of material fact as to the
following seven SARs, as to which the SEC’s motion
is denied: SARs 515, 612, 703, 748, 859, 904, and
1222.
2.

Shell Companies or Derogatory History of

Stock

Section 57(a)(1) of the Investment Company Act of 1940, 15
U.S.C. § 80a-56(a)(1), prohibits the sale of certain securities to a
business development company by persons closely affiliated with
the business development company.
59

134a
The SEC claims that 241 SARs listed in Table
3 were deficient for failing to disclose derogatory
information regarding the history of a stock, including
that the issuer was a shell company or formerly a
shell company. Other types of derogatory information
include such things as the issuer’s frequent name
changes and trading suspensions.
The SAR Form requires a filer to provide “a
clear, complete and chronological description” of the
suspicious activity, “including what is unusual,
irregular or suspicious about the transaction(s).” 2002
SAR Form at 3. FinCEN has identified the “inability
to obtain … information necessary to identify
originators or beneficiaries of wire transfers” as an
example of suspicious activity that should be
disclosed in a SAR. FinCEN Shell Company Guidance
at 3-5. FinCEN guidance also explains that a
company being a “suspected shell entit[y]” is one of
several “common patterns of suspicious activity.” SAR
Narrative Guidance at 5. Although “most shell
companies are formed by individuals and businesses
for legitimate purposes,” FinCEN counsels that “a
SAR narrative should use the term ‘shell’ as
appropriate.” FinCEN Shell Company Guidance at 5.
For these reasons, the March Opinion concluded that
“[a]ny complete description [in a SAR narrative] of the
facts responsive to the Five Essential Elements”
should include “the presence of a shell company” in a
transaction. 308 F. Supp. 3d at 802.
In its preliminary motion for summary
judgment, the SEC identified three SARs as
exemplars of this type of deficiency. One SAR omitted
that the issuer of the deposited stock was a shell

135a
company. Another omitted that the issuer had been a
shell company within the last year.60 A final omitted
information that the issuer was not current in its SEC
filings, that no company website was found for the
issuer, and that the over-the-counter market’s
website for the issuer marked its stock with a stop
sign. Id. All of the omitted information was found in
the Alpine support files for those SARs. Id.
In opposition to this portion of the SEC’s
motion, Alpine has submitted its own table, which
lists information in the support file for SARs which,
Alpine contends, rebuts the SEC’s claim that it had a
duty to include the omitted derogatory information
identified by the SEC in Table 3. Alpine’s table and
its arguments in opposition to this portion of the
SEC’s motion fall into three broad categories.
Alpine first contends that the March Opinion
did not hold that Alpine had a duty to disclose in its
SARs that the issuer, as opposed to the customer, was
a shell. Alpine is wrong. Indeed, in each of the three
instances described in the March Opinion, Alpine’s
SARs were deficient because Alpine failed to disclose
derogatory information about the issuer. Id. The SEC
now seeks to apply that ruling to transactions in
which over $5,000 worth of LPS were deposited with
Alpine. The SEC has carried its burden to show both
that Alpine was required to file SARs for such
transactions in which there was derogatory
The SAR’s support file included a handwritten notation
“within last year” in response to the question “Is the issuer, or
was it ever, a shell company?” on its “Deposited Securities
Checklist.”
60

136a
information about the customer or issuer, and that
the filed SARs were deficient for failing to disclose
that either is a shell company.61 As already discussed,
use of shell companies is a hallmark of certain market
manipulation schemes. Alpine was required to
disclose large deposits of LPS issued by shells.
Alpine next argues that the SEC has failed to
carry its burden of showing that Alpine must always
disclose that an issuer was once a shell corporation.62
Alpine is correct. In support of this motion, the SEC
has not offered any argument or expert testimony
addressed to the significance of an issuer’s former
status as a shell company, or attempted to explain for
how long or in what circumstances such former shell
status remains relevant to the SAR reporting
regime.63 Therefore, summary judgment is granted as
to the SARs in Table 3 where the issuer was a shell
company when the transaction occurred or had been

Alpine appears to argue as well that it did not need to disclose
that an issuer was a shell when the support file confirmed that
the issuer had filed Form 10-Qs or 10-Ks. Those filings did not
relieve Alpine of the duty in transactions of the nature at issue
here to disclose that the issuer is a shell.
62 Alpine calculates that the SEC has identified 103 SARs as
deficient for failing to disclose that the issuer was once a shell
company.
63 While the preliminary summary judgment motion included as
an exemplar a SAR in which Alpine omitted to disclose that the
issuer had been a shell company within the year preceding the
transaction, the SEC has given no indication that the many
SARs which it lists as deficient for their failure to disclose that
the issuer was a “former” shell or “possibly former” shell were
similarly cabined in time.
61

137a
a shell company within one year preceding the
transaction.
The third and final category of omitted
negative information concerning issuers that Alpine
contests includes frequent name changes by an
issuer, trading being suspended on an issuer’s
security, the issuer having a “caveat emptor”
designation, the issuer having sold unregistered
shares, and the issuer having been delisted. Table 3
apparently includes 113 SARs in which derogatory
information of this kind was omitted. These types of
derogatory information may indicate that the issuer
is engaging in unlawful distributions of securities or
is attempting to evade requirements of the securities
laws. Neither Alpine nor its expert suggest
otherwise.64 Accordingly, Alpine had a duty to file
SARs for the deposits of over $5,000 worth of LPS for
such issuers, and to include the derogatory
information in the 113 SARs identified by the SEC in
Table 3.
Instead of disputing the significance of this
derogatory information, Alpine opposes summary
judgment on these 113 SARs by arguing that the
support files included information showing that the
Alpine does complain that the SEC has highlighted instances
of “frequent name changes” by an issuer without referring to any
law, regulations, or guidance about the relevance of name
changes to securities law violations. The SEC has relied on this
Court’s description of the relevant law in the March Opinion,
and that description is sufficient to encompass this type of
derogatory information, which would have given Alpine “reason
to suspect” that the transaction involved use of the broker-dealer
to facilitate criminal activity. 308 F. Supp. 3d at 801-02.
64

138a
issuers were “current” in their SEC filings of Forms
10-K and 10-Q and had freely tradable securities
under SEC Rule 144.65 This additional information
does not create a question of fact as to whether Alpine
was required to file these SARs and include the
derogatory information identified by the SEC in these
SARs’ narratives. An issuer’s compliance with
Rule 144 or its SEC reporting duties did not relieve
Alpine of the duty to comply with its SAR reporting
obligations.
3.

Stock Promotion

The SEC claims that the narratives in the fiftyfive SARs listed in Table 4 were deficient for failing to
include information that there was a history of stock
promotion in connection with the LPS being deposited
with Alpine. The unreported stock promotion activity
occurred between one week and eighteen months
before the SAR was filed. The fifty-five SARs reported
deposits ranging from 500,000 to 800 million shares
of LPS. The SEC has shown that Alpine was required
to file those SARs that reported a substantial deposit
of LPS where the stock promotion occurred within six
months of the deposit and to include information
about the stock promotion activity in the SAR
narrative. Summary judgment is therefore granted on
forty-one of the fifty-five SARs.
The SAR Form’s instructions explain that the
SAR narrative must “[p]rovide a clear, complete and
Rule 144, 17 C.F.R. § 230.144, provides a safe harbor for
certain sales of restricted securities. See generally SEC v. Kern,
425 F.3d 143, 148 (2d Cir. 2005). Rule 144 is an interpretation of
Section 4(a)(1) of the Securities Act of 1933. See id.
65

139a
chronological description … of the activity, including
what is unusual, irregular or suspicious about the
transaction(s).” 2002 SAR Form at 3. According to
FinCEN, a common scenario of suspicious trading
activity is a substantial deposit of a low-priced and
thinly traded security, followed by the systematic sale
of that LPS shortly after the deposit. SAR Activity
Review, Issue 15, at 24; March Opinion, 308 F. Supp.
3d at 792. The systematic sale of shares is typically
accompanied by systematic promotion of the stock.
Indeed, promotion of an issuer’s stock is a classic
indicator that a low-priced stock’s price is being
manipulated as part of a pump-and-dump scheme.
See March Opinion, 308 F. Supp. 3d at 803 (citing
Fezzani v. Bear, Stearns & Co., 716 F.3d 18, 21 (2d
Cir. 2013)). In administrative proceedings, the SEC
has found an entity’s AML program inadequate where
it did not file SARs for transactions where an issuer
was “the subject of promotional campaigns at the time
of the customer’s trading.” In re Albert Fried & Co.,
SEC Release No. 77971, 2016 WL 3072175, at *5
(June 1, 2016).
In its preliminary summary judgment motion,
the SEC identified three Alpine SARs that described
sizable deposits of LPS, but included only a barebones
narrative in the SARs. The SARs failed to disclose
information regarding stock promotion contained in
the Alpine SAR support files that had occurred
between two weeks to two months before the reported
transaction, including information found in Google
search results, screenshots of websites, and news
articles. March Opinion, 308 F. Supp. 3d at 803.
Alpine acknowledged in connection with that motion
practice that evidence of stock promotion activity is

140a
relevant if connected to a pump-and-dump scheme.
Id.
In opposition to this current motion, Alpine
does not dispute that it had a duty to include in its
SAR narratives information in its possession about
stock promotion activities when it was reporting a
sizeable deposit of a LPS. It argues, however, that it
was only required to disclose stock promotion
activities when the stock promotion was “ongoing.”66
Neither the SEC nor Alpine has directly
addressed when a history of stock promotion is stale
for SAR reporting purposes. The one month cut-off
which Alpine proposes in opposition to this motion is
clearly too short a period. Pump-and-dump schemes
can last months or even years, and promotion
campaigns can occur in several cycles over that
period. See, e.g., Absolute Activist Value Master Fund
Ltd. v. Ficeto, 677 F.3d 60, 63-64 (2d Cir. 2012)
Alpine also objects to the March Opinion’s reliance on the
SEC’s 2016 decision in In re Albert Fried & Co., SEC Release No.
77971, 2016 WL 3072175, at *5 (June 1, 2016), for the
proposition that stock promotion can constitute suspicious
activity. It argues that the Fried decision was issued after the
events at issue here. Alpine’s objection is not well founded. Stock
promotion has been recognized as a hallmark of pump-and-dump
schemes involving LPS since at least the 1990s. See, e.g., SEC
Charges 41 People in 13 Actions Involving More than $25 Million
in Microcap Fraud, SEC News Release 98-92, 1998 WL 779347
(Sept. 24, 1998) (manipulation of stock price of microcap
companies). The dissemination of false information to promote a
stock has been a component of securities fraud for much longer,
of course. See, e.g., Berko v. SEC, 316 F.2d 137, 139 (2d Cir. 1963)
(Marshall, J.) (describing distribution through mails of
“deceptive and misleading” “brochures” to promote securities).
66

141a
(describing “cycles of fraudulent trading of securities”
over “approximately three years” with different
phases
including
stock
promotion,
misrepresentations to investors, and fraudulent
transactions through Cayman Island hedge funds and
investment manager); SEC v. Cavanagh, 445 F.3d
105, 108-09 (2d Cir. 2006) (promotional campaign
beginning in December 1997, with manipulated
trading extending to March 1998); United States v.
Salmonese, 352 F.3d 608, 612-13 (2d Cir. 2003)
(pump-and-dump schemes involving, inter alia,
bribing brokers to sell securities at inflated prices
over seven month period). Alpine’s search results
indicating promotional activity within at least the six
months preceding the deposit could focus law
enforcement attention on ongoing schemes and allow
law enforcement to connect the recent promotional
activity with stock manipulation.
In light of the legal authority cited above, the
SEC will be granted summary judgment for those
SARs, which account for roughly forty-one of the fiftyfive, in which the SAR support files had evidence of
stock promotion activity occurring within six months
of the large-scale deposit of the LPS with Alpine.
While a fact finder must determine the outer limit,
stock promotion activity that occurs within six
months of these deposits constituted, as a matter of
law, a red flag requiring disclosure in the SAR.
Despite arguing that it had no duty to report
stock promotion activity unless it had occurred within
one month of the deposit reported in its SARs, Alpine
did not disclose that near contemporaneous activity in

142a
over a dozen of its SARs.67 It asserts that it used a
second screening test to do so. It contends that it
chose to omit mention of the stock promotion so long
as it uncovered “no connection” between that activity
and the customer who deposited the shares. As an
example, Alpine’s support file for SAR 9⸺a SAR that
reported a deposit of LPS worth $9,497⸺indicates
that a generically named LLC (the “Promoter”) had
been compensated for a promotion of the issuer’s stock
by another generically named entity, and that the
Promoter’s website had been registered by yet
another generically named LLC. The support file also
indicates that, because Alpine did not have evidence
that the Promoter was “connected” to Alpine’s
customer, it determined that it need not refer to the
stock promotion activity in the SAR.
As discussed above, a broker-dealer has a duty
to file a SAR when it has reason to suspect that the
transaction may involve use of the broker-dealer to
violate the law, and to include in the SAR a “clear”
and “complete” description of activity that is
“unusual, irregular, or suspicious” about the
transaction. See 2002 SAR Form at 3. Alpine’s lack of
information about the ownership and control of
generically named LLCs involved in promotion of the
LPS did not relieve it of the duty to report the stock
promotion activity. After all, the SAR Form
instructions also require filers to “[i]ndicate whether

An examination of the pages in the support files cited by the
parties indicates that Alpine filed about fifteen SARs without
reporting that stock promotion activities had occurred within
roughly a month of the sizable deposit of LPS with Alpine.
67

143a
any information has been excluded from this report;
if so, state reasons.” Id.
4.

Unverified Issuers

The SEC claims that thirty-six SARs listed in
Table 5 were deficient for failing to disclose in their
narratives the problems with the issuers described in
the Alpine support files for the SARs, even though
millions of shares of that issuer’s LPS were deposited
with Alpine.68 The SEC contends that Alpine
improperly omitted that the issuer had an expired
business license, a nonfunctioning website, or no
current SEC filings. Summary judgment is granted to
the SEC on all thirty-six SARs.
The SAR Form requires filers to provide a
“clear” and “complete” description of what is
“unusual, irregular or suspicious about the
transaction(s).” 2002 SAR Form at 3. FinCEN has
explained that suspicious activity “common[ly]”
includes transactions involving “parties and
businesses that do not meet the standards of routinely
initiated due diligence and anti-money laundering
oversight programs (e.g., unregistered/unlicensed
businesses).” SAR Narrative Guidance at 5.
The SEC’s preliminary motion for summary
judgment identified three SARs in which Alpine
reported deposits of millions of shares of LPS. The
SARs failed to disclose that Alpine was either unable
Table 5 lists forty-two SARs. In its reply papers, the SEC
withdrew its motion as to six of these SARs. The SEC continues
to assert, however, that those six SARs are deficient for reasons
other than those listed in Table 5.
68

144a
to locate a company website for the issuer or that the
issuer’s corporate registration was in default. The
March Opinion concluded that a SAR reporting a
deposit of an enormous quantity of LPS without also
disclosing such problems with the issuer was deficient
as a matter of law. 308 F. Supp. 3d at 804.
Alpine contends that it only needed to report
that the issuer’s website was not functioning, that its
business registration was in default, or that it had no
current SEC filings if Alpine could not confirm that
the issuer was an “active and functioning” entity.
Alpine asserts that it was able to confirm that each of
the issuers for these SARs was an “active” company
based on an examination of the issuer’s SEC filings,
documentation that its stock was “free trading” for
the purposes of SEC Rule 144, or indications that the
issuer was not a shell company.
Each SAR must, of course, be examined
individually. When that is done, Alpine’s defense
evaporates. But, there is a larger point that is
relevant here. If a SAR must be filed for a transaction,
then the information casting doubt on the legitimacy
of the issuer must be included in the SAR. And that is
so even when other information also exists that
suggests the issuer may be a functioning business.
The duty of the filer is not to weigh and balance the
competing inferences to be drawn from the negative
and the more reassuring pieces of information, but to
disclose “as much information as is known to” the filer
about the subjects of the filing. SAR Activity Review,
Issue 22, at 39. The SAR Form advises filers to
“[i]ndicate whether any information has been

145a
excluded from this report; if so, state reasons.” 2002
SAR Form at 3.
The SEC has carried its burden of showing that
Alpine had a duty to file each of these thirty-six SARs.
Each of these SARs reflects the deposit of between
110,000 and 164 million shares of LPS,69 and Alpine’s
files contained information casting doubt on the
legitimacy of or the regularity in the business of the
issuer of the deposited LPS.
In filing the required SARs, Alpine had a duty
to disclose that the issuer’s business license was
expired, its website was nonfunctioning, or there were
irregularities in its SEC filings. Such information is
part of the “Five Essential Elements” of a transaction.
The fact that the issuer’s shares may be tradable
under a different SEC regulation does not change the
scope of the SAR reporting obligation.
5.

Low Trading Volume

The SEC claims that 700 SARs70 listed on
Table 6 were deficient for failing to disclose the
comparatively low trading volume in the LPS that
these SARs reported were being deposited with
The mean number of shares was 28,892,783, and the median
was 14,200,000. The value of the transactions ranged from
$5,710 to $112,200, with a mean of $18,285 and a median of
$10,764.
70 Table 6 lists 707 SARs. In its reply papers, the SEC withdrew
seven of these SARs from its motion, reducing the total from 707
to 700. Because six of these seven SARs are also alleged to be
deficient in other ways, the number of SARs subject to this part
of the SEC’s motion for summary judgment is reduced from
1,594 to 1,593.
69

146a
Alpine. In the 700 SARs, the number of deposited
shares was substantial, often amounting to millions
of shares, and it represented at least three times the
average daily trading volume of the stock, measured
over the three months preceding the deposit. For the
following reasons, summary judgment is granted to
the SEC as to the SARs where the ratio between the
shares deposited in a single transaction was at least
twenty times the average daily trading volume over
the three-month period prior to the deposit.71
The SAR Form requires a filer to “[d]escribe
conduct that raised suspicion,” and to do so with a
“clear, complete and chronological” description of the
suspicious activity. 2002 SAR Form at 3. One type of
transaction that may be suspicious is a “[s]ubstantial
deposit, transfer or journal of very low-priced and
thinly traded securities.” SAR Activity Review, Issue
15, at 24. The March Opinion held that when such a
deposit has been made the SAR must report each of
three elements: “the substantial deposit of a security,
the low price of the security, and the low trading
volume in the security.” 308 F. Supp. 3d at 804. The
March Opinion granted summary judgment to the
SEC as to three SARs where the reported deposits
were for share amounts that ranged from fifty to 600
times the average daily trading volume of the LPS.72
Id. at 805.

Twenty times reflects roughly one month’s trading volume,
calculated on the basis of four weeks of five trading days per
week.
72 The March Opinion listed the figures for the deposits and
average trading volume correctly in the summary of the SARs,
but incorrectly referred later in that Opinion to one ratio as ten.
71

147a
In response to the instant motion, Alpine first
argues that low trading volume is not a red flag
because it is a “hallmark of microcap stocks.” That
argument misses the point. Low trading volume need
not be disclosed in a vacuum. But, if there is a deposit
of LPS that is substantial in comparison with the
average volume of trading in that LPS, then there is
a duty to report both the size of the deposit and the
relatively thin trading volume.
Alpine next questions why comparatively thin
trading volume must be reported when the
differential between the volume of shares in a
transaction and the average trading volume is only
300%, as opposed to some other figure. The SEC has
not provided expert testimony or any other basis to
conclude that a ratio of three is the appropriate
demarcation for reporting the transaction and the
trading volume in LPS. The SEC relied on three
exemplars in connection with the preliminary
summary judgment motion, and their ratios were
fifty, 100 and 600.73 Those ratios are extraordinary
and do not provide a basis to conclude that the SAR
reporting requirements are only triggered by such
extreme ratios. But, given the undeveloped
evidentiary record, a trial will be necessary to
determine the precise ratio that triggers the duty to
include the average trading volume. It is safe to find,
however, that a failure to report the average trading
Compare 308 F. Supp. 3d at 786-87 (correctly stating figures)
with id. at 805 (giving incorrect deposit and ratio for SAR M).
73 Alpine did not argue in opposition to that motion, and does not
argue now that those ratios, or even the ratio of ten reported in
the March Opinion, were too low to trigger SAR reporting
requirements.

148a
volume when the substantial deposit exceeds a
month’s worth of the average daily trading in the LPS
will always be a violation of the SAR reporting
obligations. Therefore, the summary judgment
motion is granted to the extent that Alpine failed to
include in its SAR narratives the trading volume for
a substantial deposit of LPS when the deposit was
greater than twenty times the average daily trading
volume, measured over the three months prior to the
deposit. When such a ratio is present, Alpine had a
duty to file the SAR and to report the average trading
volume as well.
Finally, Alpine argues that it had no obligation
to add information about trading volumes to its SARs
because such information is already available to law
enforcement. This argument is meritless. Other
categories of information, such as related litigation,
are publicly available but must be included in the
SAR. The purpose of a SAR is to provide law
enforcement with timely and “complete” access to
information that permits them to understand what is
suspicious about the reported activity. 2002 SAR
Form at 3. Nothing in the SAR reporting regime
provides the exception which Alpine suggests for
information available to the government through
other means. See March Opinion, 308 F. Supp. 3d at
789-94.
6.

Foreign Involvement

The SEC moves for summary judgment as to
289 SARs where a foreign entity or individual was
involved in the transaction reported by Alpine in its
SAR, but Alpine did not disclose that foreign

149a
involvement in the SAR narrative. For the following
reasons, the SEC is granted summary judgment as to
these 289 SARs.
The 2002 SAR Form directs filers to “[i]ndicate”
in the SAR narrative “whether U.S. or foreign
currency and/or U.S. or foreign negotiable
instrument(s) were involved. If foreign, provide the
amount, name of currency, and country of origin,” and
to include in the narrative “foreign bank(s) account
number(s),” and “passport(s), visa(s), and/or
identification card(s)” belonging to an involved
“foreign national.” 2002 SAR Form at 3. The 2012
SAR Instructions direct filers to include essentially
the same information in the SAR narrative. See 2012
SAR Instructions at 111-12. Both sets of instructions
also state that filers should “identify” in the narrative
“the country, sources, and destinations of funds” if
funds have been “transfer[red] to or from a foreign
country.” In addition, SAR guidance issued by
FinCEN directs a filer to “[s]pecify” in the SAR
narrative
if the suspected activity or transaction(s)
involve a foreign jurisdiction. If so,
provide the name of the foreign
jurisdiction,
financial
institution,
address and any account numbers
involved in, or affiliated with the
suspected activity or transaction(s).
SAR Narrative Guidance at 4.
In its preliminary motion for summary
judgment, the SEC submitted three SARs in which

150a
Alpine reported enormous deposits of LPS. One SAR
listed a foreign address for the customer but omitted
from the SAR narrative information about foreign
correspondent accounts that were involved in the
underlying transaction. Another SAR provided a
foreign address for the customer in the subject
information boxes of the SAR, but omitted in the
narrative any reference to the foreign nature of the
transaction, much less that the country in question
has been identified as a jurisdiction of primary
concern for money laundering activity. The last SAR
did not disclose any foreign involvement with the
transaction, omitting that the deposited shares were
purchased by the customer through a transfer of
funds to a foreign bank account. The March Opinion
held that, regardless of whether a SAR filer has
disclosed a foreign entity in other parts of the SAR, “a
broker-dealer is required by law to include
information constituting the Five Essential Elements
and foreign connections to the transaction in the
narrative section of any SAR that the filer is required
to file.” 308 F. Supp. 3d at 806.
Alpine was required to file each of the 289
SARs. Each reported a substantial deposit of LPS and
had a foreign connection to the transaction. As
summarized above, the SAR Form instructions
required Alpine to include information in the SAR
narrative that described the foreign connections to
the transaction.
Alpine first argues that it need only include
information in the SAR narrative about foreign
involvement in the transaction where the foreign
jurisdiction is a “high-risk” jurisdiction. This

151a
argument may be swiftly rejected. Neither the SAR
Form instructions nor FinCEN guidance creates a
distinction between high-risk and other foreign
jurisdictions.74
Alpine next argues that its inclusion of foreign
addresses in other parts of the SAR form obviated the
need to disclose a foreign connection to the
transaction in the SAR narrative. Not so. See id. The
SAR Forms contain specific instructions that apply to
the narrative portion of a SAR. Those instructions
specifically require the disclosure in the narrative of
foreign connections to the transaction being reported.
Finally, Alpine argues that in three of the 289
SARs it adequately disclosed the foreign connection to
the transaction in the SAR narratives because it
disclosed that its customer had acquired the shares
from a resident of Belize. In none of these SARs did
Alpine indicate in the narrative, however, that
Alpine’s customer was itself a foreign entity. The
narratives are accordingly deficient, and the SEC is
entitled to summary judgment as to these three SARs
as well.
7.

Five Essential Elements

Finally, the SEC seeks summary judgment as
to approximately 295 SARs listed on Table 1 filed by
If the involvement of a high-risk jurisdiction in a transaction
were the only factor triggering the filing of a SAR, then of course,
the involvement of that kind of foreign jurisdiction may be of
importance. Such a distinction between foreign jurisdictions is
not relevant here, however, given the unusual nature of the
transactions, i.e., the substantial deposit of LPS.
74

152a
Alpine in connection with large deposits of LPS made
by three customers.75 It is undisputed that these
SARs omitted the basic customer information in the
SAR narrative which FinCEN refers to as the Five
Essential Elements. Alpine contends that it had no
duty to file these SARs, and therefore, the deficiencies
in their filed SARs do not violate the SAR regulations.
Each of these SARs reported a large deposit of
a LPS. In addition, each relates to a deposit by one of
three Alpine customers: Customers A, C and E. As
described above, Customers A and E had significant
“related” litigation. For Customer A, there was a
settled SEC action with an affiliate of Customer A,
whose president was also the president of Customer
A. For Customer E, there was an ongoing SEC action
against Customer E, its CEO, and its former
manager.
The SEC has carried its burden of showing that
a reasonable broker-dealer would have had reason to
suspect that substantial deposits of LPS by
Customers A and E involved use of the broker- dealer
to facilitate criminal activity. The SEC has shown,
therefore, that Alpine had a duty to file the SARs it
The SEC asserts that 1,105 SARs listed on Table 1 were
deficient because they omitted from their narratives the
information known as the Five Essential Elements. Because
Alpine does not dispute that assertion, all that is in dispute in
this part of the motion is whether Alpine had a legal duty to file
each of these SARs. For all but approximately 295 of these 1,105
SARs, the SEC relies on the identified the six red flags discussed
above to support its argument that it has shown that the SARs
were required filings. Accordingly, this section of this Opinion is
necessary for at least the remaining 295 SARs.
75

153a
filed for these transactions by Customers A and E and
that it is entitled to summary judgment as to those
SARs.
The SEC further contends that the twenty-two
SARs filed for large LPS deposits by Customer C were
required filings.76 If the SAR narrative reported that
Alpine was filing the SAR “because of the potentially
suspicious nature of depositing large volumes of
shares involving a low-priced security” there cannot
be a credible argument that the Alpine SARs were
“voluntary” SARs. If there are SARs, however, that do
not include such notice, or its equivalent, then there
is a question of fact as to whether Alpine was required
to file these SARs.
In arguing that Alpine was required to file
these SARs, the SEC does not appear to be relying on
any evidence that either Customer C or the issuer of
the LPS reported in the SAR was the subject of
“related” litigation or derogatory information.
Instead, it appears to rely on the fact that Customer
C frequently conducted other transactions in which
the issuers of the securities had had significant
regulatory or criminal actions brought against them.
The SEC has not explained why Customer C’s
transactions in LPS issued by questionable issuers
would give a broker-dealer a reason to suspect that all
of Customer C’s LPS transactions involved
questionable issuers. There is accordingly a question
149 of the 1,593 SARs that are listed in Table 10 were filed by
Alpine for transactions conducted by Customer C. The SEC has
alleged a separate narrative deficiency as to all but twenty- two,
however.
76

154a
of fact as to whether Alpine was required to file SARs
for Customer C where the only information missing
from the narrative is the Five Essential Elements and
the narrative does not include a statement that
Alpine considered the transaction suspicious.
V. Deposit-and-Liquidation Patterns
In its second category of claims, the SEC seeks
summary judgment as to 3,568 sales of LPS listed in
Table 11. In each instance, Alpine filed a SAR
reflecting a large deposit of a LPS but did not file a
SAR reflecting the sales that followed those deposits.
The SEC contends that, when a SAR is filed on a large
deposit of LPS, a broker-dealer is obligated to file new
or continuing SARs when the shares are sold within a
short period of time. In Table 11, the SEC has
identified 1,242 deposit-and-liquidation groups,
which together include 3,568 individual sales of
shares, each sale being worth $5,000 or more. For the
following reasons, the SEC’s motion is granted as to
1,218 groups where Alpine failed to file a SAR
reporting a customer’s sales after the customer had
made a substantial deposit of LPS in a thinly traded
market.77
Section 1023.320 requires reporting of a
suspicious transaction “if the transaction or a pattern
of transactions of which the transaction is a part
Alpine challenges as arbitrary the inclusion of twenty-four
groups (groups 639, 860, 861, 862, 885, 886, 887, 888, 890, 904,
906, 959, 962, 996, 1195, 1196, 1203, 1228, 1229, 1230, 1231,
1232, 1241, and 1242) among the 1,242 groups identified by the
SEC. The SEC has not responded to that challenge. Therefore,
this Opinion is addressed to the remaining 1,218 groups.
77

155a
meets certain criteria.” 31 C.F.R. § 1023.320(a)(2)
(emphasis supplied). FinCEN guidance explains that
the “[s]ubstantial deposit … of very low- priced and
thinly traded securities,” followed by the “[s]ystematic
sale of those low-priced securities shortly after being
deposited” is suspicious and subject to reporting
under Section 1023.320. SAR Activity Review, Issue
15, at 24 (footnote omitted). Such patterns, in
FinCEN’s view, present “red flags for the sale of
unregistered securities, and possibly even fraud and
market manipulation.” Id.
In its preliminary summary judgment motion,
the SEC provided evidence that one customer
deposited over twelve million shares of a LPS in
February 2012, and then sold in twelve transactions
ten million shares in February and March of 2012.
That pattern repeated itself in April through
August 2012, with the customer depositing a very
large number of shares in the same LPS and within
weeks selling a large proportion of those shares in a
series of smaller transactions. Alpine had timely filed
SARs of the deposits, but not for the sales. The SEC
also provided evidence that two other customers had
each deposited a large number of physical certificates
of a LPS, and then sold an almost equal amount of
shares in that LPS in a series of small transactions
over the weeks immediately following the deposits.
The March Opinion granted summary judgment to
the SEC, conditioned on it establishing that its charts
of the trading activity were accurate. See 308 F. Supp.
3d at 808-09.
Alpine first argues that not every liquidation
following a deposit is suspicious, and therefore it was

156a
not required to file SARs for liquidations just because
it filed a SAR to report the deposit. If the liquidations
followed the deposit of a large number of shares of
LPS, then the precedent recited above forecloses this
argument. This pattern of transactions is a hallmark
of market manipulation.
Alpine next argues that the filing of SARs for
every such liquidation would flood regulators with
thousands of additional SARs and be unworkable.
But, as the SEC points out, multiple transactions may
be reported in a single SAR. In fact, Alpine reported
multiple transactions in some of the SARs it
submitted in its opposition to this motion. Both the
2002 SAR Form and 2012 SAR Instructions allow
filers to describe multiple transactions; they direct
filers to describe suspicious activities and
transactions.78 Moreover, SAR reports are generally
only due to be filed within thirty days of the
transaction. See 31 C.F.R. § 1023.320(b)(3). Thus, all
the sales occurring within a thirty-day period could be
reported together with the deposit. The SEC
estimates that roughly 40% of the unreported
liquidations occurred before Alpine had even filed a
SAR for the deposit.79 Many of the liquidations
See, e.g., 2002 SAR Form at 3 (describing the narrative as the
“[e]xplanation/description of suspicious activity(ies)” and
directing filers to disclose “what is unusual, irregular or
suspicious about the transaction(s)”); 2012 SAR Instructions
at111-12 (directing filers to, inter alia, “[d]escribe the conduct or
transaction(s) that caused suspicion” in the SAR narrative).
79 Alpine does not present an alternative calculation for this
phenomenon, but complains that the SEC has failed to explain,
among other things, whether the 40% figure includes sales that
occurred the same day as the deposit and includes as well every
78

157a
reflected in Table 11 are packed tightly together,
occurring several times in a single day, multiple times
in a single week, and many times in a single month.
Alpine next argues that its AML review of the
deposits confirmed that the shares were freely
tradable, and that was all that the law required. It
explains that, since its business model treated each
deposit as if the deposited LPS would be sold shortly
thereafter, its careful review of the need to file a SAR
for the deposit fulfilled all of its obligations under the
law.80 Filing a SAR for a suspicious deposit of LPS did
not relieve Alpine of the duty to file SARs for other
suspicious transactions, including potentially the sale
of the deposited shares. Moreover, as already
explained, the duty to maintain an AML program
does not excuse compliance with the separate duty to
file SARs for suspicious transactions. See
Section 1023.320 Notice, 67 Fed. Reg. at 44,053.
Alpine violated Section 1023.320 if it failed to file a
SAR when it was required to do so.
Alpine next contends that, if this portion of the
SEC’s motion is granted, that should result in a
finding that Alpine violated its SAR reporting
obligations at most 1,242 times, and not 3,568 times.81
sale tethered to a deposit so long as at least one of those sales
occurred before the SAR was filed.
80 Alpine adds that it filed SARs as well for certain patterns of
market manipulation, such as matched trading and wash
trading. These SARs are not the subject of the SEC’s lawsuit
against Alpine.
81 Alpine also argues that the correct number should fall to a few
hundred because all deposits and sales by a customer in a single
issuer’s securities should be grouped together, instead of

158a
The former figure reflects the number of deposit and
sale groups the SEC has identified in Table 11; the
latter represents the number of sales. For the
following reasons, this Opinion assumes that the
maximum number of violations is, as adjusted to
remove certain groups to which Alpine has made a
specific objection, 1,218.
The duty that Alpine is alleged to have violated
is the duty to file a SAR. Those missing SARs would
have reported patterns of suspicious trading. The text
of Section 1023.320 states that “[a] transaction
requires reporting” if it is conducted through a
broker-dealer and the broker dealer “has reason to
suspect that the transaction (or a pattern of
transactions of which the transaction is a part)”
involves illegal activity. 31 C.F.R. § 1023.320(a)(2).
The Section 1023.320 Notice explains FinCEN’s view
that
[t]he language in the rule requiring the
reporting of patterns of transactions is
not intended to impose an additional
reporting burden on broker-dealers.
Rather, it is intended to recognize the
fact that a transaction may not always
appear suspicious standing alone.

creating a separate group for the liquidations that followed
deposits closely in time. That argument is rejected. The pattern
at issue that was suspicious and that Alpine failed to report was
the liquidation in multiple transactions of a large deposit that
had been reported in a SAR filed by Alpine, not all sales of a
particular LPS.

159a
Section 1023.320 Notice, 67 Fed. Reg. at 44,051.
Alpine therefore had a duty to file SARs that reported
each sale that was part of a suspicious pattern.82 The
SEC has carried its burden of showing that Alpine
violated the law by failing to file such SARs. Because
Alpine failed to file any such SARs, as opposed to
filing incomplete SARs that reported some but not all
of the sales in a pattern, resolution of how many SARs
Alpine should have filed would require a fact
intensive examination of the patterns of sales that
followed deposits. At a minimum, the SEC has shown
that Alpine failed to file at least 1,218 SARs to report
the suspicious pattern of sales following the large
deposits of LPS.
Finally, Alpine objects to eleven groups
identified in Table 11 on the ground that the sales
occurred too long after the deposit to require Alpine
to file a SAR.83 The SEC’s motion is granted as to
seven of these eleven groups; Alpine has raised a
question of fact as to groups 1207, 1225, 1236, and
1237. A description of two of the seven groups is
sufficient to explain why Alpine has failed to raise a
material question of fact as to its duty to file a SAR to
report the pattern of trading in the seven groups.

Alpine also had the option of filing continuing SARs, an option
provided on the SAR forms that the parties do not discuss. See
SAR Activity Review, Issue 1, at 27; FinCEN, SAR Activity
Review: Trends, Tips & Issues, Issue 21 (May 2012), at 53,
https://www.fincen.gov/sites/default/files/shared/sar_tti_ 21.pdf;
2012 SAR Form at 1.
83 These are groups 4, 1207, 1220, 1221, 1224, 1225, 1226, 1227,
1233, 1236, and 1237.
82

160a
Group 1221 begins with a deposit of 8- million84
shares of a LPS, with a value of $1- million, in early
February 2012. In early March 2012, Alpine filed a
SAR reporting the deposit. Six weeks after the deposit
and two weeks after the SAR was filed, Alpine’s
customer began to sell shares.85 All told, the customer
sold 7- million shares, or 87% of the initial deposit, in
six transactions over fifteen days.
Group 1233 consists of one deposit of 1- million
shares valued at $1- million in mid-November 2012.
Alpine filed a SAR the next day. Nineteen days later,
the customer began the selloff.86 Over a three-month

“8- million” indicates an amount between 80 million and
89,999,999. These less than precise numbers are used in this
Opinion, as they were in the March Opinion, to accommodate the
secrecy of the SAR reporting regime.
85 On four consecutive days, Alpine’s customer made sales in
amounts of 1- million shares, 7 million shares, 5 million shares,
and 1- million shares. Five days later, the customer sold 1million shares. One week later, the customer sold 1- million
shares.
86 The first sale was of 5- thousand shares. One month after the
first sale, the customer sold 2— thousand shares. The next day,
the customer sold 2— thousand shares and 9- thousand shares
in two separate transactions. The next week, the customer made
five sales in three days, of 2— thousand shares, 9- thousand
shares, 3— thousand shares, 1— thousand shares, and 1—
thousand shares. The following week, the customer made four
sales in two days, of 5— thousand shares, 2— thousand shares,
4— thousand shares, and 2— thousand shares. Two weeks
thereafter, the customer made three sales in three days, in
amounts of 5— thousand, 5— thousand, and 1 million shares.
The following week, the customer made two sales of 6 thousand
and 1 million shares. Three weeks later, the customer made one
sale of 1 million shares.
84

161a
period, Alpine’s customer sold 7 million shares in
nineteen separate transactions, 78% of the deposit.
VI. Late-Filed SARs
The SEC moves for summary judgment as to
251 SARs identified in Table 12 that were filed long
after the transactions they reported, often more than
six months later. Section 1023.320 directs that “a
SAR shall be filed no later than 30 calendar days after
the date of the initial detection by the reporting
broker-dealer of facts that may constitute a basis for
filing a SAR under this section.” 31 C.F.R.
§ 1023.320(b)(3). Summary judgment is denied due to
the SEC’s failure to show that Alpine had an
obligation to file these SARs. See March Opinion, 308
F. Supp. 3d at 800.
To establish Alpine’s duty to file each of these
SARs, the SEC relies on the fact that Alpine filed the
SARs to comply with an order from FINRA to do so.
This is not sufficient to establish for purposes of this
lawsuit that Alpine had an independent duty to file
the SARs.87
VII.

Failure to Maintain Support Files

Thirty-four of the SARs reported transactions worth less than
$5,000. Generally, there is no duty to file SARs for transactions
in an amount less than $5,000. See 31 C.F.R. § 1023.320(a)(2)
(requiring reporting if a transaction “involves or aggregates
funds or other assets of at least $5,000”).
87

162a
The final portion of the SEC’s motion is
directed to Alpine’s failure to maintain support files
for 496 of its SARs. The motion is granted.
A broker-dealer is required to maintain
support files for its SARs. Section 1023.320(d)
provides as follows:
Retention of Records. A broker-dealer
shall maintain a copy of any SAR filed
and the original or business record
equivalent
of
any
supporting
documentation for a period of five years
from the date of filing the SAR.
Supporting documentation shall be
identified as such and maintained by the
broker-dealer, and shall be deemed to
have been filed with the SAR. A brokerdealer shall make all supporting
documentation available to FinCEN or
any Federal, State, or local law
enforcement agency, or any Federal
regulatory authority that examines the
broker-dealer for compliance with the
Bank Secrecy Act, upon request; or to
any SRO that examines the brokerdealer for compliance with the
requirements of this section, upon the
request of the Securities and Exchange
Commission.
31 C.F.R. § 1023.320(d)
Section 1023.320

(emphasis

supplied).

163a
is cast in mandatory terms and requires
two acts: the maintenance of records for
five years after a SAR is filed, and the
production of such records at the request
of a federal regulatory agency such as
the SEC. A failure to either maintain or
produce a SAR’s supporting documents
… violates Section 1023.320 and, as a
result, violates Rule 17a-8 as well.
March Opinion, 308 F. Supp. 3d at 811-12 (citation
omitted).
The SEC’s evidence of Alpine’s failure to
maintain files rests on the efforts the SEC made in
2015 and 2016 to collect the Alpine support files for
SARs under investigation. In 2016, Alpine produced
some of the files that the SEC subpoenaed, but no
support files for the 496 SARs that are the subject of
this motion. The SEC provided Alpine with a list of
SARs for which it could not locate any support files in
the Alpine document productions. Alpine’s counsel
represented during a November 2016 telephone call
that some support documents “simply don’t exist.”
Despite additional requests during the discovery
period for Alpine to supplement its document
production and produce the missing files, Alpine has
not produced the missing files.
In opposition to this motion, Alpine has not
provided evidence that it ever provided the SEC with
the support files for these 496 SARs. Instead, Alpine
makes two meritless arguments. First, it seeks a
Rule 56(d) deposition of the SEC affiant who has
described the search through the Alpine document

164a
productions in a fruitless effort to locate the missing
support files. If Alpine maintained the missing files,
then all it needs to do to defeat this prong of the SEC’s
motion is to produce them now,88 or identify by Bates
number the copies it produced to the SEC in 2016. It
has done neither. A deposition of the person who
conducted the SEC search is unnecessary.89 See
Paddington Partners v. Bouchard, 34 F.3d 1132, 1138
(2d Cir. 1994).
Second, Alpine argues that a failure to
maintain files is not a violation of Rule 17a-8, which
is the Rule upon which the SEC’s action is predicated.
Alpine argues that the SEC’s recourse, if any, was to
sue for a violation of 17 C.F.R. § 240.17a-4(j)
(“Rule 17a-4”).90 Rule 17a-8, however, requires a
broker-dealer to comply with “the reporting,
recordkeeping and record retention requirements of
chapter X of title 31 of the Code of Federal
If Alpine produced the missing files now, then the SEC may
have a different application regarding the untimely production,
but this portion of the summary judgment motion regarding the
failure to maintain the files would likely have been mooted.
89 The request for the deposition is also untimely. At the time the
Court issued the March Opinion on the preliminary summary
judgment motion, the Court gave Alpine an opportunity to
request this very deposition after it had completed its review of
the March Opinion. Following that review, Alpine made other
discovery requests, but did not renew its earlier request to
depose this affiant.
90 Rule 17a-4(j) provides that broker-dealers must furnish
promptly to a representative of the [SEC] legible, true, complete,
and current copies of those records of the [broker-dealer] that are
required to be preserved under this section, or any other records
of the member, broker or dealer subject to examination under
section 17(b) of the [Exchange] Act.
88

165a
Regulations,”
the
chapter
containing
Section 1023.320.
17
C.F.R.
§ 240.17a-8.
Section 1023.320(d), which is quoted above, is titled
“Retention of Records”. 31 C.F.R. § 1023.320(d).
Accordingly, the SEC has shown that Alpine violated
the record-retention provision of Section 1023.320 by
showing that Alpine was unable to “make [496 SAR
support files] available to” the SEC in 2016. Id. This
constitutes a violation of Rule 17a-8.
Conclusion
The SEC’s July 13, 2018 motion for summary
judgment is granted in part. The SEC has shown as a
matter of law that Alpine violated Rule 17a-8
repeatedly by filing required SARs with deficient
narratives, failing to file SARs for groups of
suspicious liquidation transactions, and failing to
maintain and produce SAR support files.
Dated: New York, New York
December 11, 2018
/s/ Denise Cote
DENISE COTE
United States District Judge
17 C.F.R. § 240.17a-4(j).

166a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
SECURITIES & EXCHANGE COMMISSION,
Plaintiffs,
-vALPINE SECURITIES CORPORATION,
Defendant.
17cv4179(DLC)


EXHIBIT 1

FinCEN
Form 101
Effective
May 2004

Suspicious Activity
Report by the
Securities and
Futures Industries
OMB No.
Please type or print.
1506 - 0019
Always complete
entire report. Items
marked with an
asterisk * are
considered critical.
(See instructions.)
1 Check the box if this report corrects a prior
report (See instructions)
Part I

Subject Information

167a
2 Check box

a  if multiple
subjects

box b  subject
information
unavailable
*3 Individual’s last name or entity’s full name
*4 First name
5 Middle initial
6 Also known as (AKA - individual), doing business
as (DBA - entity)
7 Occupation or type of business
*8 Address
*9 City

*10 State

*11 ZIP code
│││││││
*12 Country code (If not U.S.) (See instructions)
13 E-mail address (If available)
*14 SSN/ITIN (individual), or EIN (entity)
││││││││
*15 Account number(s) affected, if any. Indicate if
closed.
Acc’t #__________ yes Acc’t
yes
#__________
Acc’t #__________ yes Acc’t
yes
#__________
16 Date of birth
____/____/_____
MM DD YYYY

168a
*17 Government issued identification (If available)
a  Driver’s license/state ID
b  Passport
c  Alien registration
d  Corporate/Partnership Resolution
e  Other _______________________________
f  ID number
│││││││││││││
g  Issuing state or country (2 digit code)
18 Phone number – work
(││)││││-││││
19 Phone number – home
(││)││││-││││
20 Is individual/business associated/affiliated with
the reporting institution? (See instructions)
a  Yes
b  No
Part II
Suspicious Activity Information
*21 Date or date range of suspicious activity
From ____/____/____/
To _____/____/____/
MM DD YYYY
MM DD YYYY
*22 Total dollar amount involved in suspicious
activity $││││││-││││.00
23 Instrument type (Check all that apply)
a  Bonds/Notes
b  Cash or equiv.
c  Commercial paper
d  Commodity futures contract l Warrants
e  Money Market Mutual Fund
f  Mutual Fund
g  OTC Derivatives
h  Other derivatives
i  Commodity options

169a
j
k
n
m
o
p
q
r
s
t

 Security futures products (Please identify)
 Stocks
 Other non-securities
 Other securities
 Foreign currency futures/options
 Foreign currencies
 Commodity type
 Instrument description
 Market where traded
(Enter approprite three or four-letter code.)
 Other (Explain in Part VI)

24 CUSIP® number
│││││││││││││
25 CUSIP® number
│││││││││││││
26 CUSIP® number
│││││││││││││
27 CUSIP® number
│││││││││││││
28 CUSIP® number
│││││││││││││
29 CUSIP® number
│││││││││││││
*30 Type of suspicious activity:
a  Bribery/gratuity
b  Check fraud
c  Computer intrusion
d  Credit/debit card fraud
e  Embezzlement/theft
f  Commodity futures/options fraud
g  Forgery n Securities fraud
h  Identity theft
i  Insider trading without economic purpose
j  Mail fraud

170a
k  Market manipulation
l  Money laundering/Structuring
m  Prearranged or other non-competitive
trading
o  Significant wire or other transactions
p  Suspicious documents or ID presented
q  Terrorist financing
r  Wash or other fictitious trading
s  Wire fraud
t  Other (Describe in Part VI)
Part III

Law Enforcement or Regulatory
Contact Information
31 If a law enforcement or regulatory authority
has been contacted (excluding submission of a
SAR) check the appropriate box.
a  DEA
b  U.S. Attorney (**32)
c  IRS
d  FBI
e  ICE
f  Secret Service
g  CFTC
h  SEC
i  NASD
j  NFA
k  NYSE
l  Other RFA
m  Other RE-futures (CME, CBOT, NYMEX,
NYBOT)
n  Other state/local
o  Other SRO-securites (PHLX, PCX, CBOE,
AMEX, etc.)
p  State securities regulator
q  Foreign

171a
r  Other (Explain in Part VI)
32 Other authority contacted (for Item 31 l
through r) ** List U.S. Attorney office here.
33 Name of individual contacted (for all of Item 31)
34 Telephone number of individual contacted
(Item 33)
(││)││││-││││
35 Date contacted
____/___/_____/
MM DD YYYY
Part IV

Reporting Financial Institution
Information
*36 Name of financial institution or sole
proprietorship
*37 EIN / SSN / ITIN
││││││││
*38 Address
*39 City

*40 State
*41 ZIP code
│
│││││
42 Additional branch address locations handling
account, activity or customer.
43 Multiple locations (See instructions)
44 City

45 State
46 ZIP code
│
│││││
47 Central Registration Depository number
│││││││││││││
48 SEC ID number

172a
││││││-│││││││
50 Has this reporting individual/entity coordinated
this report with another reporting
individual/entity? Yes (Provide details in
Part VI) No
51 Type of institution or individual - Check box(es)
for functions that apply to this report
a  Agricultural trade option merchant
b  Affiliate of bank holding company
c  CPO
d  CTA
e  Direct participation program
f  FCM o RE-futures
g  Futures floor broker
h  Futures floor trader
i  IB-C
j  IA
k  Investment company - mutual fund
l  Market maker
m  Municipal securities dealer
n  NFA w Specialist
p  Other RFA
q  Securities broker - clearing
r  Securities broker - introducing
s  Securities dealer
t  Securities floor broker
u  Securities options broker-dealer
v  SRO-securities
x  Subsidiary of bank
y  U.S. Government broker-dealer
z  U.S. Government interdealer broker
aa  Other (Describe in Part VI)
Part V

Contact For Assistance

173a
*52 Last name of individual to be contacted
regarding this report
*53 First name
*54 Middle initial
*55 Title/Position
*57 Date report prepared
_____/____/____/
MM DD YYYY
Send completed reports to:
Detroit Computing Center
Attn: SAR-SF
P.O. Box 33980
Detroit, MI 48232
Part VI
Suspicious Activity Information Narrative *
Explanation/description of suspicious activity(ies).
This section of the report is critical. The care with
which it is completed may determine whether or
not the described activity and its possible criminal
nature are clearly understood by investigators.
Provide a clear, complete and chronological
description (not exceeding this page and the next
page) of the activity, including what is unusual,
irregular or suspicious about the transaction(s),
using the checklist below as a guide, as you
prepare your account.
a. Describe conduct that raised suspicion.
b. Explain whether the transaction(s) was
completed or only attempted.

174a
c. Describe supporting documentation (e.g.
transaction records, new account information,
tape recordings, E-mail messages,
correspondence, etc.) and retain such
documentation in your file for five years.
d. Explain who benefited, financially or otherwise,
from the transaction(s), how much, and how (if
known).
e. Describe and retain any admission or
explanation of the transaction(s) provided by
the subject(s) or other persons. Indicate to
whom and when it was given.
f. Describe and retain any evidence of cover-up or
evidence of an attempt to deceive federal or
state examiners, SRO, or others.
g. Indicate where the possible violation of law(s)
took place (e.g., main office, branch, other).
h. Indicate whether the suspicious activity is an
isolated incident or relates to another
transaction.
i. Indicate whether there is any related litigation.
If so, specify the name of the litigation and the
court where the action is pending.
j. Recommend any further investigation that
might assist law enforcement authorities.
k. Indicate whether any information has been
excluded from this report; if so, state reasons.
l. Indicate whether U.S. or foreign currency
and/or U.S. or foreign negotiable instrument(s)
were involved. If foreign, provide the amount,
name of currency, and country of origin.
m. Indicate “Market where traded” and “Wire
transfer identifier” information when
appropriate.

175a
n. Indicate whether funds or assets were
recovered and, if so, enter the dollar value of
the recovery in whole dollars only.
o. Indicate any additional account number(s), and
any foreign bank(s) account number(s) which
may be involved.
p. Indicate for a foreign national any available
information on subject’s passport(s), visa(s),
and/or identification card(s). Include date,
country, city of issue, issuing authority, and
nationality.
q. Describe any suspicious activities that involve
transfer of funds to or from a foreign country,
or transactions in a foreign currency. Identify
the country, sources and destinations of funds.
r. Describe subject(s) position if employed by the
financial institution.
s. Indicate whether securities, futures, or options
were involved. If so, list the type, CUSIP°
number or ISID° number, and amount.
t. Indicate the type of institution filing this
report, if this is not clear from Part IV. For
example, an IA that is managing partner of a
limited partnership that is acting as a hedge
fund that detects suspicious activity tied in
part to its hedge fund activities should note
that it is operating as a hedge fund.
u. Indicate, in instances when the subject or
entity has a CRD or NFA number, what that
number is.
v. If correcting a prior report (box in Item 1
checked), complete the form in its entirety and
note the corrected items here in Part VI

176a
Information already provided in earlier parts of
this form need not necessarily be repeated if the
meaning is clear.
Supporting documentation should not be filed with
this report. Maintain the information for your files.
Tips on SAR form preparation and filing are
available in the SAR Activity Review at
www.fincen.gov/pub_reports.html
Enter explanation/description in the space below.
Do not include legal disclaimers in this narrative.

177a
APPENDIX D
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
UNITED STATES SECURITIES AND EXCHANGE
COMMISSION,
Plaintiff,

17cv4179(DLC)
OPINION & ORDER

-vALPINE SECURITIES CORPORATION,
Defendant.
APPEARANCES
For plaintiff United States Securities and Exchange
Commission:
Zachary T. Carlyle
Terry R. Miller
U.S. Securities and Exchange Commission
1961 Stout Street, 17th Floor
Denver, CO 80294
For defendant Alpine Securities Corporation:
Maranda E. Fritz
Thompson Hine LLP
335 Madison Avenue, 12th Floor
New York, NY 10017
Brent R. Baker
Aaron D. Lebenta
Jonathan D. Bletzacker

178a
Clyde Snow & Sessions
One Utah Center
201 South Main Street, Suite 1300
Salt Lake City, Utah 84111
DENISE COTE, District Judge:
This litigation addresses the duty of a brokerdealer to file suspicious activity reports (“SARs”). The
Securities and Exchange Commission (“SEC”) alleges
that Alpine Securities Corporation (“Alpine”) has
violated 17 C.F.R. § 240.17a-8 (“Rule 17a-8”),
promulgated under the Securities Exchange Act of
1934 (the “Exchange Act”), by filing fatally deficient
SARs or by failing to file any SAR when it had a duty
to do so. Rule 17a-8 requires compliance with Bank
Secrecy Act (“BSA”) regulations that, inter alia,
govern the filing of SARs by broker-dealers.
Because the SEC alleges several thousand
violations of Rule 17a-8, the Court invited the parties
to move for partial summary judgment using
exemplar SARs. The SEC has done so, submitting
several SARs in each of four categories that it alleges
reveal violations of Rule 17a-8. Alpine has submitted
its own motion for summary judgment and for
judgment on the pleadings, principally arguing that
the SEC is without authority to enforce BSA
regulations. For the reasons that follow, the SEC’s
motion is granted in part and Alpine’s motion is
denied.

179a
Background
The following facts are taken from the parties’
evidentiary submissions. In the sections of this
Opinion addressing each party’s summary judgment
motion, inferences are drawn in favor of the
nonmovant. Insofar as this Opinion addresses
Alpine’s motion for judgment on the pleadings, solely
the operative pleadings are considered.
I. Alpine’s Business
Alpine is a broker-dealer that primarily
provides clearing services for microcap securities
traded in the over-the-counter market.1 As a clearing
broker, Alpine’s role is principally to prepare trade
confirmations, receive and deliver customers’ funds,
maintain books and records, and maintain custody of
customer funds and securities. An introducing broker,
in contrast, is responsible for opening customer
accounts, directly interacting with customers, and
executing trades. An introducing broker transmits
transaction information to a clearing broker, which
then completes the transaction.
For all of the SARs submitted by the SEC in
support of its motion for partial summary judgment,
Alpine acted as the clearing broker. For a majority of
the transactions at issue in this suit, and all but one
of the transactions at issue in the SEC’s motion, the
introducing broker was Scottsdale Capital Advisors
The term “over-the-counter market” is used to describe “the
trading of securities other than on a formal centralized
exchange” such as the New York Stock Exchange. 4 Hazen,
Treatise on the Law of Securities Regulation § 14:3 (2017).
1

180a
(“SCA”). SCA and Alpine are owned by the same
individual.
Alpine has an anti-money laundering (“AML”)
program consisting of written standard procedures
(“WSPs”). Alpine represents that it updates its WSPs
to account for guidance provided by the Financial
Crimes Enforcement Network (“FinCEN”)2 and other
regulators; the parties have submitted excerpts from
WSPs dated January 2012, April 2013, August 2014,
and October 2015.
Alpine’s WSPs relating to the filing of SARs
incorporate regulatory language from 31 C.F.R.
§ 1023.320 (“Section 1023.320”), the principal
regulation at issue in this case, which requires
broker-dealers such as Alpine to file SARs in certain
circumstances. The WSPs also incorporate relevant
language from guidance documents published by
FinCEN regarding “red flags” that a broker-dealer
should investigate if they appear in a transaction
subject to the SAR regulation. See Alpine Apr. 11,
2013 WSPs at 152. These include the following:
The customer (or a person publicly
associated with the customer) has a
questionable background or is the
subject of news reports indicating
possible criminal, civil, or regulatory
violations.
…
FinCEN is a division of the Department of the Treasury
(“Treasury”) with primary authority for enforcing the BSA
2

181a
The customer engages in suspicious
activity involving the practice of
depositing penny stocks, liquidates
them, and wires proceeds. A request to
liquidate shares may also represent
engaging in an unregistered distribution
of penny stocks which may also be a red
flag.
…
The customer, for no apparent reason or
in conjunction with other “red flags,”
engages in transactions involving
certain types of securities, such as penny
stocks …
Alpine Jan. 5, 2012 WSPs at 40-41.3 This list is
consistent across the WSPs. In addition, the
2014 WSPs give as an example of “transactions that
may be indicative of money laundering” those
involving “heavy trading in low-priced securities” and
“unusually large deposits of funds or securities.”
Alpine Aug. 29, 2014 WSPs at 180.

Alpine contends, in response to several portions of the SEC’s
motion, that its customer was the introducing broker and not the
individual or entity whose securities transaction is reported on
Alpine’s SARs. This contention is plainly meritless.
Section 1023.320 uses the term “customer” to mean the party
conducting the transaction that is reported. See 31 C.F.R.
§ 1023.320(a)(2)(ii). Further, Alpine’s WSPs also use the term
“customer” to refer to the individual or entity transacting
securities through Alpine. E.g., Alpine Jan. 5, 2012 WSPs at
40 (describing suspicious types of transactions in which a
“customer” engages).
3

182a
Alpine’s AML Officer describes its AML
procedures as follows. For each transaction cleared by
Alpine, Alpine receives from the introducing broker a
“due diligence packet” containing information about
the customer and transaction. The due diligence
packet is transmitted to an Alpine compliance
analyst, who reviews the transaction based on
“various predetermined areas of focus” set by Alpine’s
AML managers. In addition, Alpine created and
maintained a “heightened supervision list,” which
Alpine claims to have created
as an aid to Alpine employees
conducting AML review, and to ensure
Alpine’s own enhanced scrutiny of
transactions. The reasons for inclusion
on the list vary and inclusion on the list,
or reference to the list, did not constitute
any finding by Alpine that there was
anything criminally suspicious about
the transaction itself. In filing SARs on
this basis, and highlighting the list in
the SAR narrative, Alpine was providing
what it understood to be useful
information to regulators, even though a
SAR filing was not required.
Alpine contends that many of the SARs it filed “did
not meet the requirements for when a SAR must be
filed” under Section 1023.320, and were merely
“voluntary SARs.”
After an Alpine compliance analyst drafted a
SAR, the draft SAR would be sent to Alpine’s AML
Officer, Chief Compliance Officer, and/or a legal

183a
analyst for review. The review process could include
“additional review of the due diligence packet … ,
additional research on Google of the parties involved,
research of any stock promotions, and review of
trading volume, including discussions with the
trading desk if necessary.”
The SEC’s principal allegation in its complaint
is that Alpine’s AML program and WSPs “did not
accurately represent what Alpine did in practice,” and
that in reality, Alpine’s AML program failed to comply
with Section 1023.320, and that Alpine thereby
violated Rule 17a-8. The complaint divides this
general allegation into four categories of failures. The
SEC alleges that Alpine has (1) failed to include
pertinent information in approximately 1,950 SARs,
(2) failed to file additional or continuing SARs for
certain suspicious patterns of transactions in
approximately 1,900 instances, (3) filed at least 250
SARs after the 30-day period for filing had elapsed,
and (4) failed to maintain supporting information for
approximately 1,000 SARs as it is required to do for
five years after filing.
II. The Exemplar SARs
The SEC moves for summary judgment on
36 SARs, on a number of different grounds. For the
purposes of this motion, the SEC first contends that
Alpine filed 14 SARs with deficient narratives. The
SEC has labeled these SARs A through H, J through

184a
N, and P. A brief summary of each of the 14 SARs
follows.4
SAR A was filed April 24, 2012. The SAR A
narrative states that the customer “is a client of
[SCA], a firm for which Alpine Securities provides
clearing services. On or around [date, this customer]
deposited a large quantity (4-,—-,—- shares) of
[issuer], a low-priced ($0.11/share) security. This
transaction amounted to approximately $4,—-,—-.—
.” The SEC alleges that SAR A insufficiently conveys
why the transaction was suspicious, is deficient
because it fails to note the involvement of a shell
company, and improperly fails to disclose that a
foreign entity participated in the transaction; these
last two pieces of information are contained in the
SAR A support file.
SAR B was filed on April 28, 2012. The
narrative portion of the SAR states that the customer
is a client of [SCA], a firm for which
Alpine Securities provides securities
The SARs have been submitted under seal. Certain information
in the SARs has been omitted from this Opinion to maintain
confidentiality. Section 1023.320 prohibits broker-dealers and
government entities from “disclos[ing] a SAR or any information
that would reveal the existence of a SAR” in all but a few
enumerated instances. 31 C.F.R. § 1023.320(e). Given that a
major purpose of the BSA is to enable law enforcement to react
quickly to evidence of money laundering, SARs are required to
be kept confidential in part to prevent the subject of a SAR from
learning that their transactions were regarded as suspicious.
This Opinion redacts the exact numbers of shares and
transaction values to balance confidentiality concerns with
clarity regarding the rulings on the transactions at issue.
4

185a
clearing services. On or around [date,
this customer] made a DWAC deposit
representing a large quantity (5,—-,—shares) of [issuer], a low-priced
($.0176/share) security into brokerage
account [number]. The brokerage
account is maintained through Alpine
Securities. Alpine is also filing a SAR
due to the heightened sensitivity
surrounding this client. This proposed
transaction is expected to amount to
approximately
$8-,—-.—.
[This
customer] acquired the shares as a
partial settlement of $3,—-,—-.—owed
to them by the issuer. Alpine is filing a
SAR due to the heightened sensitivity
surrounding the client.
No SAR B support file was submitted. The SEC
alleges that the SAR B narrative is deficient because
it does not disclose why Alpine thought the
transaction was suspicious.
SAR C was filed July 6, 2011. The narrative
portion states as follows: The customer
is a client of [SCA], a firm for which
Alpine Securities provides securities
clearing services. Due to the activity
within this account, it has been placed
on a Heightened Supervisory list. It is
policy of Alpine to file a SARs [sic]
related to each deposit of securities into
it’s [sic] account. On or around [date, this
customer] deposited a large quantity

186a
(5,—,—- shares) of [issuer], a low-priced
($0.019/share) security. This transaction
amounted to approximately $1—,—-.—.
The SAR C support file contains information
indicating that a shell company was involved with the
transaction, as well as a foreign entity; the SEC
alleges that the narrative was deficient because it
failed to disclose that information or why Alpine
found the transaction suspicious.
SAR D was filed on January 13, 2012. The
narrative states in relevant part that
[d]ue to the activity within this account,
it has been placed on a Heightened
Supervisory list. It is policy of Alpine to
file a SARs [sic] related to each deposit
of securities into accounts of this nature.
On or around [date, this customer]
deposited a large quantity (2,—-,—-) of
[issuer], a low-priced ($.0062/share)
security. This transaction amounted to
approximately $1-,—-.—.
The SEC alleges that this SAR was deficient because
it failed to include information contained in the SAR
support file that the customer and its CEO were
engaged in litigation with the SEC.
SAR E was filed on August 21, 2012. The
narrative reads in relevant part that
[o]n or about [date, this customer]
deposited a large quantity (2-,—-,—-

187a
shares) of [issuer], a low-priced
($0.0096/share)
security.
This
transaction amounted to approximately
$2—,—-.—. Alpine Securities is filing a
suspicious activity report because this
deposit involves a large volume of shares
of a low-priced security and also has a
high estimated value.
The SAR E support file contains search results
indicating that the customer had previously pleaded
guilty to conspiracy relating to counterfeiting, and the
SEC contends that SAR E was deficient because it
failed to disclose that information.
SAR F was filed on May 5, 2014. The narrative
states as follows:
[Customer] is a client of [SCA], a firm for
which Alpine Securities provides
securities clearing services. On or
around [date, this customer] deposited a
physical stock certificate(s) representing
a large quantity (1,—-,—- shares) of
[issuer], a low-priced ($.0033/share)
security
into
brokerage
account
[number]. The brokerage account is
maintained through Alpine Securities.
Alpine is filing this SAR because of the
potentially
suspicious
nature
of
depositing large volumes of shares
involving a low-priced security(ies). This
proposed transaction is expected to
amount to approximately $4-,—-.—…
[This customer] purchased a convertible

188a
note for $1-,—.—pursuant to an
[agreement] on [date]. [This customer]
converted $1,—-.—dollars into 1- million
shares. Alpine is also filing a SAR as,
shortly thereafter, the shares are worth
about 33 times their purchase price,
which may be potentially suspicious.
The SAR F support file includes information
indicating that the customer had a history of being
investigated by the SEC for misrepresentations, and
the SEC alleges that Alpine was required to include
this information.
SAR G was filed on March 8, 2013. The
narrative states
[Customer] is a client of [SCA], a firm for
which Alpine Securities provides
securities clearing services. It is Alpine’s
policy to file a SAR for each security
deposited into the account because of the
heightened sensitivity around this
particular account as this account
historically makes deposits of large
volumes of low-priced securities. For
that reason this transaction may be
suspicious in nature. On or around [date,
this customer] deposited a physical stock
certificate(s) representing a large
quantity (6,—-,—- shares) of [issuer], a
low-priced ($0.0062/share) security, into
brokerage account [number]. The
brokerage account is maintained
through
Alpine
Securities.
This

189a
transaction amounted to approximately
$4-,—-.—.
The SAR G support file contains information
indicating that no company website was found for the
issuer, that the issuer was not current in its SEC
filings, that the over-the-counter markets placed a
stop signal on the issuer’s stock, and that there was a
history of stock promotion. The SEC alleges that this
SAR is deficient because Alpine did not include this
information.
SAR H was filed on August 26, 2013. The
narrative states that the customer
is a client of [SCA], a firm for which
Alpine Securities provides securities
clearing services. It is Alpine’s policy to
file a SAR for each security deposited
into the account because of the
heightened sensitivity around this
particular account as this account
historically makes deposits of large
volumes of low-priced securities. For
that reason this transaction may be
suspicious in nature. On or around [date,
the customer] deposited a physical stock
certificate(s) representing a large
quantity (1-,—-,—shares) of [issuer], a
low-priced ($0.0006/share) security, into
brokerage account [number]. The
brokerage account is maintained
through
Alpine
Securities.
This
transaction amounted to approximately
$7,—-.—.

190a
The SEC alleges that SAR H is deficient because it
fails to disclose a history of stock promotion by the
issuer and that a foreign entity was involved in the
transaction, both pieces of information contained in
the SAR H support file.
SAR J was filed on July 16, 2012. The SAR
narrative states that the customer is a client of SCA,
and that
[d]ue to the activity within this account,
it has been placed on a Heightened
Supervisory list. It is policy of Alpine to
file a SARs [sic] related to each deposit
of securities into accounts of this nature.
On or around [date, this customer]
deposited a large quantity (6-,—-,—shares) of [issuer], a low-priced
($.0002/share) security. This transaction
amounted to approximately $1-,—-.—.
The SEC alleges that SAR J was deficient because the
narrative does not disclose that the stock had been
promoted, information contained in the SAR J
support file.
SAR K was filed on May 6, 2013. The narrative
states that the customer in question is a client of SCA,
and that Alpine files
a SAR for each security deposited into
the account because of the heightened
sensitivity around this particular
account as this account historically
makes deposits of large volumes of low-

191a
priced securities. For that reason this
transaction may be suspicious in nature.
On or around [date, this customer]
deposited a physical stock certificate(s)
representing a large quantity (1-,—-,—shares) of [issuer], a low-priced
($0.001/share) security, into brokerage
account [number]. The brokerage
account is maintained through Alpine
Securities. This transaction amounted to
approximately $1-,—-.—.
The SEC alleges that SAR K is deficient because it
does not report that the issuer’s website is not
currently functioning, information contained in the
SAR K support file.
SAR L was filed on June 7, 2013. The narrative
recites that the customer is a client of SCA, and that
it is
Alpine’s policy to file a SAR for each
security deposited into the account
because of the heightened sensitivity
around this particular account as this
account historically makes deposits of
large volumes of low-priced securities.
For that reason this transaction may be
suspicious in nature. On or around [date,
the customer] deposited a physical stock
certificate(s) representing a large
quantity (2,—-,—- shares) of [issuer], a
low-priced ($0.003/share) security, into
brokerage account [number]. The
brokerage account is maintained

192a
through
Alpine
Securities.
This
transaction amounted to approximately
$8,—-.—.
The SEC alleges that SAR L is deficient because it
does not report that the issuer’s corporate registration
was in default, information contained in the SAR L
support file.
SAR M was filed on April 17, 2013. The SAR M
narrative reports that the customer is client of SCA
and that
[i]t is Alpine’s policy to file a SAR for
each security deposited in to the account
because of the heightened sensitivity
around this particular account as this
account historically makes deposits of
large volumes of low-priced securities.
For that reason this transaction may be
suspicious in nature. On or around [date,
this customer] deposited a physical stock
certificate(s) representing a large
quantity (5,—-,—- shares) of [issuer], a
low-priced ($0.0159/share) security, into
brokerage account [number]. The
brokerage account is maintained
through
Alpine
Securities.
This
transaction amounted to approximately
$1-,—-.—. [This customer] acquired the
shares from a promissory note dated
[date] in the principal amount of $1-,—.—issued to [the customer]. The note is
specifically disclosed in 10Q filed [date]
period ending [date]. [This customer]

193a
converted the entire note into 5,—-,—shares pursuant to the notice of
conversion dated [date].
The SEC alleges that because the SAR M narrative
does not report that the average shares traded per day
over the last three months for the security was 59,108,
roughly one hundred times smaller than the single
deposit reported in SAR M, SAR M is deficient.
SAR N was filed on June 6, 2013. The SAR
narrative states that the customer is a client of SCA,
and that on a given date, the customer
deposited a physical stock certificate(s)
representing a large quantity (6-,—-,—shares) of [issuer], a low-priced
($0.0055/share) security into brokerage
account [number]. The brokerage
account is maintained through Alpine
Securities. The entity is a foreign
broker-dealer. Alpine is filing this SAR
because of the potentially suspicious
nature of depositing large volumes of
shares
involving
a
low-priced
security(ies). This transaction amounted
to approximately $3—,—-.—. [This
customer] deposited the shares for the
benefit of [the customer’s] sub-account
[name] who is a resident of Panama.
The SEC alleges that SAR N is deficient because it
fails to report that the security at issue had a trading
volume of around 100,000 shares per day, more than

194a
600 times smaller than the single deposit reported in
the SAR, information contained in the support file.
SAR P was filed on March 6, 2014. The SAR P
narrative states that the customer is a client of SCA,
and that on a given date the customer
deposited a physical stock certificate(s)
representing a large quantity (5—,—shares) of [issuer], a low-priced
($.55/share) security into brokerage
account [number]. The brokerage
account is maintained through Alpine
Securities. Alpine is filing this SAR
because of the potentially suspicious
nature of depositing large volumes of
shares
involving
a
low-priced
security(ies). This proposed transaction
is expected to amount to approximately
$2—,—-.—. The shares stem from debt
owed to [the customer] from the issuer.
[This customer] converted a $2-,—-.—
portion of the debt into the 5—,—shares. Alpine is also filing a SAR as the
shares represent a potential large return
on the investment, which may be
suspicious.
The SEC alleges that SAR P is deficient because it
fails to report that the average trading volume is
10,971, roughly fifty times smaller than the deposit
reported in the SAR, information found in the support
file.

195a
The SEC also moves for summary judgment on
the ground that Alpine failed to file necessary SARs
for three of its customers who engaged in patterns of
deposit-and-liquidation
transactions
that
are
suspicious as a matter of law; the SEC refers to these
customers as Customers A, B, and C. The SEC has
submitted the SARs that Alpine did file as Customer
A SARs 1 through 5, Customer B SARs 1 through 5,
and Customer C SARs 1 and 2. Each of these SARs
notes that the customer has deposited a large number
of certificates of a penny stock. The SEC has also
submitted charts that it alleges represent subsequent
sales of shares in that same penny stock. The SEC
alleges that the pattern of a large deposit of securities
followed by successive sales of a large proportion of
that deposit required Alpine to file SARs reporting
those sales.
The SEC further moves for summary judgment
on five SARs it alleges were filed late; these SARs are
labeled Late SARs 1 through 5. Each of these five
SARs was filed between 189 and 211 days after the
underlying transaction.
Lastly, the SEC moves for summary judgment
on five SARs for which it alleges Alpine has not
maintained support files for five years, as it is
required to do. These SARs are labeled Missing File
SARs 1 through 5. The SEC has submitted the SARs
and alleges that Alpine did not produce any support
files for those SARs when requested to do so by the
SEC in 2016.

196a
Procedural History
The SEC filed this action on June 5, 2017. On
August 3, Alpine moved to dismiss under Rules
12(b)(2) and 12(b)(3) for lack of personal jurisdiction
and improper venue, or to transfer venue to the
District of Utah under 28 U.S.C. § 1404(a). The
August 3 motion to dismiss or to transfer was denied
at a conference on September 15.
Alpine answered the complaint on September
29, 2017, and filed an amended answer on October 27.
On November 13, the SEC filed a motion to strike
affirmative defenses of estoppel, waiver, and unclean
hands asserted in Alpine’s amended answer. The
November 13 motion to strike was granted January
12, 2018.
A Scheduling Order of September 15, 2017 set
the discovery schedule, which is ongoing. Fact
discovery was scheduled to conclude on March 30,
2018. Expert reports and disclosures of expert
testimony were due to be served by April 20, and
identification of rebuttal experts and disclosure of
their expert testimony to be served by May 11. Any
motion for summary judgment, or a joint pretrial
order, is due July 13, 2018.5
As invited by the Court, the SEC moved for
partial summary judgment on December 6, 2017. In
On March 21, the parties jointly sought to extend this schedule
by 21 days. The Court denied the motion on March 22 insofar as
it sought to extend the July 13 date on which summary judgment
motions or pretrial materials are due, but permitted the parties
to extend the interim dates on consent.
5

197a
connection with its motion, and pursuant to an Order
of December 13, the SEC submitted 36 SARs under
seal as examples of the four categories of Rule 17a-8
violations it asserts. The SEC’s motion became fully
submitted on February 9, 2018. Alpine moved for
summary judgment and for judgment on the
pleadings on January 19. Alpine’s motion became
fully submitted on February 26.
Discussion
The parties have cross-moved for summary
judgment. “On a motion for summary judgment, the
court must resolve all ambiguities and draw all
permissible factual inferences in favor of the party
against whom summary judgment is sought.” Dufort
v. City of New York, 874 F.3d 338, 347 (2d Cir. 2017)
(citation omitted). “For the court to grant summary
judgment, the movant must show that there is no
genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.”
Nick’s Garage, Inc. v. Progressive Cas. Ins. Co.,
875 F.3d 107, 113 (2d Cir. 2017) (citation omitted).
In assessing a motion for judgment on the
pleadings under Rule 12(c), Fed. R. Civ. P., the court
“accept[s] all factual allegations in the complaint as
true and construe[s] them in the light most favorable
to the non-moving party.” Latner v. Mt. Sinai Health
Sys., Inc., 879 F.3d 52, 54 (2d Cir. 2018). This is the
“same standard as that applicable to a motion under
Rule 12(b)(6).” Mantena v. Johnson, 809 F.3d 721, 727
(2d Cir. 2015) (citation omitted).

198a
An agency to which Congress has delegated
authority to administer a statute is entitled to judicial
deference to its views of the statute it administers. If
an agency promulgates a regulation and complies
with the notice-and-comment procedures defined in
the Administrative Procedure Act (“APA”), 5 U.S.C.
§ 500, et seq., a court reviews the regulation under the
two-part framework established in Chevron U.S.A.
Inc. v. Nat. Res. Def. Council, Inc., 467 U.S. 837
(1984). Formal adjudications by an agency are also
binding on a court if the agency view passes Chevron
review. See, e.g., ABF Freight Sys., Inc. v. NLRB, 510
U.S. 317, 324 (1994). Giving an agency the power to
regulate via adjudication as well as via rulemaking
implies the power to govern conduct prospectively, via
rules and retrospectively, in the form of adjudications.
See SEC v. Chenery Corp., 332 U.S. 194, 201-02
(1947); see also Bowen v. Georgetown Univ. Hosp.,
488 U.S. 204, 221 (1988) (Scalia, J., concurring)
(defining adjudication as “that form of administrative
action where retroactivity is not only permissible but
standard”).
“Step One of Chevron analysis requires the
court to determine whether Congress has directly
spoken to the precise question at issue. If the intent
of Congress is clear, that is the end of the matter; for
the court, as well as the agency, must give effect to
the unambiguously expressed intent of Congress.”
Lawrence + Memorial Hosp. v. Burwell, 812 F.3d 257,
264 (2d Cir. 2016) (citation omitted). If the statute is
ambiguous or silent on the question, however, “[t]he
question for the reviewing court … is whether the
agency’s answer to the interpretive question is based
on a permissible construction of the statute.” Catskill

199a
Mountains Chapter of Trout Unlimited, Inc. v. EPA,
846 F.3d 492, 520 (2d Cir. 2017) (citation omitted).
“The agency’s view need not be the only possible
interpretation, nor even the interpretation deemed
most reasonable by the courts,” so long as the
interpretation is “reasonable” and not “not arbitrary,
capricious, or manifestly contrary to the statute.” Id.
(emphasis in original) (citation omitted).
Similarly, a court must defer to an agency’s
“interpretation of its own regulations unless that
interpretation is plainly erroneous or inconsistent
with the regulation.” Nat. Res. Def. Council v. EPA,
808 F.3d 556, 569 (2d Cir. 2015) (citation omitted).
This is true even if the agency’s interpretation of its
regulation was not promulgated through formal
procedures prescribed by the APA, but, for example,
is advanced in a legal brief. See Talk Am., Inc. v. Mich.
Bell Tel. Co., 564 U.S. 50, 59 (2011). This kind of
deference is referred to as “Auer deference” after Auer
v. Robbins, 519 U.S. 452 (1997), but it is “warranted
only when the language of the regulation is
ambiguous.” Christensen v. Harris Cty., 529 U.S. 576,
588 (2000). If a regulation is unambiguous, the clear
meaning of the regulation controls and may not be
overridden by an inconsistent agency interpretation.
See id.
An agency may announce an interpretation of
a statute it administers in a variety of ways that do
not receive Chevron deference but that nonetheless
receive “a respect proportional to [their] power to
persuade.” United States v. Mead Corp., 533 U.S. 218,
235 (2001) (quoting Skidmore v. Swift & Co., 323 U.S.
134, 140 (1944)). This level of deference is referred to

200a
as Skidmore deference. A less formal agency
interpretation of this nature is often referred to as
“guidance,” although whether it is entitled to Auer
deference or merely Skidmore deference depends both
on the ambiguity of the agency regulation and on
whether the guidance is interpreting the statute, in
which case it is merely persuasive, or the regulation,
in which case Auer deference may be appropriate. See,
e.g., Alaska Dep’t of Envtl. Conservation v. EPA, 540
U.S. 461, 487-88 (2004); Christensen, 529 U.S. at 588.
The weight given to a guidance document of this sort
“in turn depends on, inter alia, the thoroughness
evident in its consideration, the validity of its
reasoning, and its consistency with earlier and later
pronouncements.” Catskill Mountains, 846 F.3d at
509 (citation omitted). This kind of agency action can
take many forms, including agency opinion letters,
policy statements, agency manuals, and enforcement
guidelines. See New York v. Next Millennium Realty,
LLC, 732 F.3d 117, 125 n.8 (2d Cir. 2013).
I. The SAR Regulatory Framework
The Exchange Act delegates to the SEC broad
authority to regulate brokers and dealers in
securities. See 15 U.S.C. § 78b; id. § 78q-1. A broker
is “any person engaged in the business of effecting
transactions in securities for the account of others.”
Id. § 78c(a)(4)(A). A dealer is “any person engaged in
the business of buying and selling securities … for
such person’s own account through a broker or
otherwise.” Id. § 78c(a)(5)(A). Brokers and dealers
may not engage in the business of buying and selling
securities unless they register with the SEC. See id.
§ 78o.

201a
Because of their importance to the national
markets, broker-dealers are subject to a number of
regulations, both state and federal, administered by a
variety of organizations. See generally 1 Hazen,
Treatise on the Law of Securities Regulation
§ 1:12 (2017). Although the SEC is the primary
federal regulator of broker-dealers, SEC oversight is
“supplemented by a system of self regulation” also
created by the Exchange Act. 4 id. § 14:7. The selfregulatory organization (“SRO”) that governs brokerdealers such as Alpine is the Financial Industry
Regulatory Authority (“FINRA”), the successor
organization to the National Association of Securities
Dealers (“NASD”). See generally Fiero v. FINRA, Inc.,
660 F.3d 569, 571 & n.1 (2d Cir. 2011).
that

Section 17(a) of the Exchange Act mandates
[e]very … registered
broker
or
dealer … shall make and keep for
prescribed periods such records, furnish
such copies thereof, and make and
disseminate such reports as the
Commission, by rule, prescribes as
necessary or appropriate in the public
interest, for the protection of investors,
or otherwise in furtherance of the
purposes of this chapter.

15 U.S.C. § 78q(a)(1). In 1981, the SEC promulgated
with notice and comment Rule 17a-8, which provides
that “[e]very registered broker or dealer … shall
comply with the reporting, recordkeeping and record
retention requirements of chapter X of title 31 of the

202a
Code of Federal Regulations.” 17 C.F.R. § 240.17a-8.
That title contains regulations promulgated by the
Treasury and FinCEN under the BSA.
FinCEN and the Treasury promulgated, with
notice and comment, Section 1023.320, which defines
a broker-dealer’s obligation to file SARs. In pertinent
part, it reads as follows:
A transaction requires reporting under
the terms of this section if it is conducted
or attempted by, at, or through a brokerdealer, it involves or aggregates funds or
other assets of at least $5,000, and the
broker-dealer knows, suspects, or has
reason to suspect that the transaction
(or a pattern of transactions of which the
transaction is a part):
(i) Involves funds derived from illegal
activity or is intended or conducted in
order to hide or disguise funds or assets
derived from illegal activity (including,
without limitation, the ownership,
nature, source, location, or control of
such funds or assets) as part of a plan to
violate or evade any Federal law or
regulation or to avoid any transaction
reporting requirement under Federal
law or regulation;
(ii) Is designed, whether through
structuring or other means, to evade any
requirements of this chapter or of any

203a
other regulations promulgated under the
Bank Secrecy Act;
(iii) Has no business or apparent lawful
purpose or is not the sort in which the
particular customer would normally be
expected to engage, and the brokerdealer knows of no reasonable
explanation for the transaction after
examining the available facts, including
the background and possible purpose of
the transaction; or
(iv) Involves use of the broker-dealer to
facilitate criminal activity.
31 C.F.R. § 1023.320(a)(2) (emphasis supplied).
The regulations define “transaction” broadly.
The definition states that a transaction is
a purchase, sale, loan, pledge, gift,
transfer, delivery, or other disposition,
and with respect to a financial
institution
includes
a
deposit,
withdrawal, transfer between accounts,
exchange of currency, loan, extension of
credit, purchase or sale of any stock,
bond, certificate of deposit, or other
monetary instrument, security, contract
of sale of a commodity for future
delivery, option on any contract of sale of
a commodity for future delivery, option
on a commodity, purchase or redemption
of any money order, payment or order for

204a
any money remittance or transfer,
purchase or redemption of casino chips
or tokens, or other gaming instruments
or any other payment, transfer, or
delivery by, through, or to a financial
institution, by whatever means effected.
Id. § 1010.100(bbb)(1) (emphasis supplied). These
regulations are found in chapter X of title 31 of the
Code of Federal Regulations, so compliance is
required by Rule 17a-8.
As is plain from its text, Section 023.320
requires reporting in broadly defined situations. In
targeting all possible types of illegal activity, the
regulation covers a large range of conduct such that it
is susceptible to a number of interpretations. Due to
the
breadth
of
Section 1023.320,
FinCEN’s
interpretation of Section 1023.320 as expressed in
guidance and other documents is entitled to deference
and is binding so long as it is reasonable and is
consistent with earlier and later pronouncements.
The BSA’s regulations do not define “pattern of
transactions.” In the notice of final rule published in
the Federal Register with the implementation of
Section 1023.320, however, FinCEN explained that
[t]he language in the rule requiring the
reporting of patterns of transactions is
not intended to impose an additional
reporting burden on broker-dealers.
Rather, it is intended to recognize the
fact that a transaction may not always
appear suspicious standing alone. In

205a
some cases, a broker-dealer may only be
able to determine that a suspicious
transaction report must be filed after
reviewing its records, either for the
purposes of monitoring for suspicious
transactions, auditing its compliance
systems, or during some other review.
The language relating to patterns of
transactions is intended to make explicit
the requirement that FinCEN believes
implicitly exists in the suspicious
transaction reporting rules for banks: if
a broker-dealer determines that a series
of transactions that would not
independently trigger the suspicion of
the broker-dealer, but that taken
together, form a suspicious pattern of
activity, the broker-dealer must file a
suspicious transaction report.
FinCEN, Amendment to the Bank Secrecy Act
Regulations—Requirement that Brokers or Dealers
in Securities Report Suspicious Transactions, 67 Fed.
Reg. 44,048, 44,051 (July 1, 2002) (“FinCEN
Section 1023.320 Notice”) (emphasis supplied).
The current form of Section 1023.320 was
promulgated in 2002, after the USA PATRIOT ACT
of 2001 significantly increased the scope of the Bank
Secrecy Act. See USA PATRIOT ACT of 2001, Pub. L.
No. 107-56, 115 Stat. 272 (“Patriot Act”). As relevant
here, Congress specifically found that money
laundering was being used to finance terrorist
organizations, and sought to increase reporting of

206a
transactions that potentially involved money
laundering. See id., sec. 302, 115 Stat. at 296-98.
The Treasury has delegated enforcement of the
BSA to FinCEN, and FinCEN has issued a number of
guidance documents interpreting Section 1023.320.
See Treasury Order 180-01, Financial Crimes
Enforcement Network, 67 Fed. Reg. 64,697 ¶ 3 (Oct.
21, 2002). In guidance documents, FinCEN indicates
that SARs should include the who, what, when, why,
where, and how of the suspicious activity (the “Five
Essential Elements”).6 See SAR Narrative Guidance
at 3-6; SAR Activity Review, Issue 22, at 39-40;7 2012
SAR Instructions at 110-12.8 The who encompasses
the “occupation, position or title … , and the nature of
the suspect’s business(es),” the what includes
“instruments or mechanisms involved” such as wire
transfers, shell companies, and “bonds/notes,” and the
why includes “why the activity or transaction is
unusual for the customer; consider[ing] the types of
FinCEN guidance refers to the who, what, where, when, and
why, as the “five essential elements” of a SAR narrative, but also
adds that a sixth element, “the method of operation (or how?)[,]
is also important.” FinCEN, Guidance on Preparing a Compete
& Sufficient Suspicious Activity Report Narrative 3 (2003),
https:
//www.fincen.gov/sites/default/files/shared/sarnarr
completguidfinal_112003.pdf (“SAR Narrative Guidance”). For
clarity, this Opinion follows FinCEN in calling these the Five
Essential Elements of a SAR.
7 FinCEN, The SAR Activity Review: Trends, Tips & Issues, Issue
22 (Oct. 2012), https://www.fincen.gov/sites/default/files/
shared/sar_tti_22.pdf.
8 FinCEN, FinCEN Suspicious Activity Report (FinCEN SAR)
Electronic Filing Instructions (2012), https://www.fincen.gov/
sites/default/files/shared/FinCEN%20SAR%20Electronic Filing
Instructions-%20Stand%20Alone%20doc.pdf.
6

207a
products and services offered by the [filer’s] industry,
and the nature and normally expected activities of
similar customers.” SAR Narrative Guidance at 3-4.
The obligation to identify involved parties extends to
all “subject(s) of the filing,” and “filers should include
as much information as is known to them about the
subject(s).” SAR Activity Review, Issue 22, at 39.
Examples of relevant information listed by
FinCEN include “bursts of activities within a short
period of time,” SAR Narrative Guidance at 5,
whether foreign individuals, entities, or jurisdictions
are involved, 2012 SAR Instructions at 112, or the
involvement of unregistered businesses, SAR
Narrative Guidance at 5. A common scenario
identified by FinCEN as suspicious involves a
“[s]ubstantial deposit … of very low-priced and thinly
traded securities” followed by the “[s]ystematic sale of
those low-priced securities shortly after being
deposited.” SAR Activity Review, Issue 15, at 24.9
FinCEN has explained that “[t]ransactions like these
are red flags for the sale of unregistered securities,
and possibly even fraud and market manipulation,”
and firms need to “investigate[] thoroughly” such
questions as “the source of the stock certificates, the
registration status of the shares, how long the
customer has held the shares and how he or she
happened to obtain them, and whether the shares
were freely tradable.” Id.

FinCEN, The SAR Activity Review: Trends, Tips & Issues, Issue
15 (May 2009), https://www.fincen.gov/sites/default/files/shared
/sar_tti_15.pdf.

9

208a
To implement its suspicious activity reporting
system, FinCEN issued, after notice and comment,
two forms relevant to Alpine’s conduct. The first, form
SAR-SF, was mandatory from 2002 until 2012 (“2002
Form”).10 The second became mandatory in 2012
(“2012 Form”).11
The 2002 Form contains instructions and a
checklist that directs filers to include a number of
pieces of information when filing a SAR. The
instructions state that the narrative
section of the report is critical. The care
with which it is completed may
determine whether or not the described
activity and its possible criminal nature
are clearly understood by investigators.
Provide
a
clear,
complete
and
chronological
description … of
the
activity, including what is unusual,
irregular or suspicious about the
transaction(s), using the checklist below
as a guide.
2002 Form at 4 (emphasis in original). The checklist
has 22 items, each directing filers to include a specific
type of information. The following items are
particularly relevant to the present motions:

See FinCEN, Proposed Collection, Comment Request,
Suspicious Activity Report by the Securities and Futures
Industry, 67 Fed. Reg. 50,751 (Aug. 5, 2002).
11 See FinCEN, Proposed Collection, Comment Request, Bank
Secrecy Act Suspicious Activity Report Database Proposed Data
Fields, 75 Fed. Reg. 63,545 (Oct. 15, 2010).
10

209a
h.
Indicate whether the suspicious
activity is an isolated incident or relates
to another transaction.
i.Indicate whether there is any related
litigation. If so, specify the name of the
litigation and the court where the action
is pending.
…
l.Indicate whether U.S. or foreign
currency and/or U.S. or foreign
negotiable instrument(s) were involved.
If foreign, provide the amount, name of
currency, and country of origin.
…
o.
Indicate any additional account
number(s), and any foreign bank(s)
account number(s) which may be
involved.
p.
Indicate for a foreign national any
available information on subject’s
passport(s), visa(s), and/or identification
card(s). Include date, country, city of
issue, issuing authority, and nationality.
q.
Describe any suspicious activities
that involve transfer of funds to or from
a foreign country, or transactions in a
foreign currency. Identify the country,
sources and destinations of funds.

210a
Id.
Beginning in 2012, FinCEN switched to an efile system.12 The SEC has submitted excerpts from a
document entitled “FinCEN Suspicious Activity
Report
(FinCEN
SAR)
Electronic
Filing
Requirements.” This document, dated October 2012,
directs that “[f]ilers must provide a clear, complete,
and concise description of the activity, including what
was unusual or irregular that caused suspicion.” 2012
SAR Instructions at 111. The document contains a
checklist similar in all material respects to the
checklist on the 2002 Form.13 See id. at 111-12.
A broker-dealer is required to “maintain a copy
of any SAR filed and the original or business record
equivalent of any supporting documentation for a
period of five years from the date of filing the SAR.”
31 C.F.R. § 1023.320(d). If multiple broker-dealers
are involved in a transaction, “[t]he obligation to
identify and properly and timely to report a
suspicious transaction rests with each broker-dealer
involved … provided that no more than one report is
required to be filed by the broker-dealers involved in
a particular transaction (so long as the report filed
contains all relevant facts).” Id. § 1023.320(a)(3).

SARs submitted by the SEC filed on the 2012 Form do not
themselves contain instructions. The parties have not indicated
in their submissions whether FinCEN’s e-filing website contains
such instructions on the screens where SARs are submitted.
13 The 2012 Form does not state, however, that filers should
indicate additional bank account numbers or foreign bank
account numbers that may be involved.
12

211a
SARs must be filed “no later than 30 calendar
days after the date of the initial detection by the
reporting broker-dealer of facts that may constitute a
basis for filing a SAR under this section.” Id.
§ 1023.320(b)(3). Where no suspect of the potentially
illegal activity can be immediately identified, a
broker-dealer may take an additional 30 days to
attempt to identify a suspect. Id. § 1023.320(b)(3). In
addition, “[a] broker-dealer may also file with
FinCEN a report of any suspicious transaction that it
believes is relevant to the possible violation of any law
or regulation but whose reporting is not required by
this section.” Id. § 1023.320(a)(1).
Broker-dealers are required to file SARs for
continuing activity that follows the original SAR. For
instance, FinCEN guidance provides that a
“continuing report should be filed on suspicious
activity that continues after an initial FinCEN SAR
is filed,” and that “[f]inancial institutions … may file
SARs for continuing activity after a 90 day review
with the filing deadline being 120 days after the date
of the previously related SAR filing.” 2012 SAR
Instructions at 84. “Continuing reports must be
completed in their entirety” and the narrative section
“should include all details of the suspicious activity
for the 90-day period encompassed by the report, and
only such data from prior reports as is necessary to
understand the activity.” Id. Moreover, “[a]n
amended report must be filed on a previously-filed
FinCEN SAR … whenever new data about a reported
suspicious activity is discovered and circumstances
will not justify filing a continuing report.” Id. at 83.

212a
Finally, broker-dealers are required to
maintain written AML policies that define how the
broker-dealer detects potential money laundering and
files SARs. This requires broker-dealers to engage in
“ongoing customer due diligence,” which includes
(i) Understanding the nature and
purpose of customer relationships for
the purpose of developing a customer
risk profile; and
(ii) Conducting ongoing monitoring to
identify
and
report
suspicious
transactions and, on a risk basis, to
maintain
and
update
customer
information … includ[ing] information
regarding the beneficial owners of legal
entity customers.
31 C.F.R. § 1023.210(b)(5).14 These duties to maintain
ongoing reviews of customers and transactions are in
addition to a broker-dealer’s obligation to verify the
identities of its customers such that it is able “to form

FINRA similarly requires broker-dealers to “use reasonable
diligence, in regard to the opening and maintenance of every
account, to know (and retain) the essential facts concerning
every customer and concerning the authority of each person
acting on behalf of such customer.” FINRA Rule 2090 (2012),
http://finra.complinet.com/en/display/display main.html?rbid=
2403&element_id=9858. FINRA Rule 2090 relates to the
obligation of broker-dealers to be aware of their customers’
investment objectives when recommending securities. See
generally 5 Hazen, Treatise on the Law of Securities Regulation
§ 14:138 (2017).
14

213a
a reasonable belief that it knows the true identity of
each customer” based on
the broker-dealer’s assessment of the
relevant risks, including those presented
by the various types of accounts
maintained by the broker-dealer, the
various methods of opening accounts
provided by the broker-dealer, the
various types of identifying information
available and the broker-dealer’s size,
location and customer base.
Id. § 1023.220(a)(2).
In 2002, FinCEN delegated its BSA authority
over broker-dealer AML programs to the SEC.
FinCEN, Anti-Money Laundering Programs for
Financial Institutions, 67 Fed. Reg. 21,110 (Apr. 29,
2002) (interim final rule effective April 24, 2002); see
also 31 C.F.R. § 1023.210(c) (requiring a brokerdealer AML program to “[c]ompl[y] with the rules,
regulations, or requirements of its self-regulatory
organization governing such programs”). The SEC
then delegated this authority to SROs, and approved
AML best practices submitted by the SROs. See SEC,
Order Approving Proposed Rule Changes Relating to
Anti-Money Laundering Compliance Programs, 67
Fed. Reg. 20,854 (Apr. 26, 2002). FINRA Rule 3310
currently governs its members’ AML programs. See
SEC, Order Approving Proposed Rule Change to
Adopt FINRA Rule 3310 (Anti-Money Laundering
Compliance Program) in the Consolidated FINRA
Rulebook, SEC Release No. 60645, 2009 WL 2915633
(Sept. 10, 2009). Rule 3310 requires member firms to

214a
have a written AML policy that receives approval
from FINRA’s senior management and that
“[e]stablish[es] and implement[s] policies, procedures,
and internal controls reasonably designed to achieve
compliance with the Bank Secrecy Act and the
implementing regulations thereunder.” FINRA
Rule 3310 (2015).15
II. Alpine Motion for Summary Judgment and for
Judgment on the Pleadings
Alpine moves for summary judgment
principally on the ground that the SEC is not
authorized to enforce BSA regulations via Rule 17a-8.
Alpine also moves for judgment on the pleadings on
the ground that the SEC’s complaint fails to plead
that Alpine willfully or recklessly violated BSA
regulations. For the reasons that follow, Alpine’s
motion for summary judgment and for judgment on
the pleadings is denied.
A. Alpine Motion for Summary Judgment
Alpine makes two related arguments in
support of summary judgment. First, it argues that in
the instant action the SEC is suing under the BSA, a
statute it is not authorized to enforce. Because the
gravamen of the SEC’s complaint is Alpine’s alleged
failure to comply with the BSA SAR regulation,
Found at http://finra.complinet.com/en/display/display_main.
html?rbid=2403&element_id=8656. The current version of
Rule 3310 was adopted in 2015. The version of the rule that was
effective between 2011 and 2015 is materially the same. See
FINRA Rule 3310 (2011), http://finra.complinet.com/en/display/
display main.html?rbid=2403&record id=11859.
15

215a
Alpine argues that this suit is not actually brought
under Rule 17a-8, despite what the complaint itself
says. Alpine is incorrect.
The SEC promulgated Rule 17a-8. The plain
text of that rule requires broker-dealers to “comply
with the reporting, recordkeeping and record
retention requirements of chapter X of title 31 of the
Code of Federal Regulations.” 17 C.F.R. § 240.17a-8.
Alpine does not contest that the SEC has enforcement
authority to pursue violations of the Exchange Act.
Since this suit is brought pursuant to the Exchange
Act, Alpine’s first argument fails.
This leads to Alpine’s second argument. Alpine
contends that even if this suit is brought under
Rule 17a-8, that rule is an impermissible
interpretation of Section 17(a) of the Exchange Act,
15 U.S.C. § 78q(a). Alpine raises two principal issues
with Rule 17a-8. First, Alpine argues that the rule
itself is not a reasonable interpretation of the
Exchange Act, and is therefore invalid.16 Second,
Alpine argues that to the extent Rule 17a-8 was ever
a valid interpretation of the statute, the failure to
update the regulation or to engage in notice-andTo some extent, Alpine’s papers can be read to assert that the
SEC lacks jurisdiction to enforce suspicious activity reporting
regulations. “[T]he distinction between jurisdictional and
nonjurisdictional interpretations” of statutory ambiguity is “a
mirage.” City of Arlington v. FCC, 569 U.S. 290, 297 (2013).
Accordingly, insofar as the question is whether the Exchange Act
confers jurisdiction on the SEC over suspicious transaction
reporting, the same framework of analysis supplies the rule of
decision. See New York v. FERC, 783 F.3d 946, 953 (2d Cir.
2015).
16

216a
comment procedures after the significant 2002
revisions to the relevant part of Title 31 precludes the
SEC from enforcing Rule 17a-8 against Alpine for its
allegedly deficient SARs. Each contention is
addressed in turn.
The validity of an agency’s regulation
interpreting a statute is judged by the familiar twopart test derived from Chevron. The Exchange Act
provides that entities, including brokers and dealers,
subject to the Exchange Act
shall make and keep for prescribed
periods such records, furnish such copies
thereof, and make and disseminate such
reports as the Commission, by rule,
prescribes as necessary or appropriate in
the public interest, for the protection of
investors, or otherwise in furtherance of
the purposes of this chapter.
15 U.S.C. § 78q(a)(1) (emphasis supplied). Under
Chevron step one, this regulation expressly commits
to the SEC discretion to determine which reports are
“necessary or appropriate” to further the goals of the
Exchange Act, and empowers the SEC to promulgate
rules defining recordkeeping and reporting
obligations of broker-dealers. Id.
This express delegation of rulemaking
authority satisfies the Chevron test. Even if it were
necessary to proceed to Chevron’s step two, the SEC
has easily shown that Rule 17a-8, which requires
compliance with certain BSA regulations, is a
reasonable interpretation of Section 17(a) of the

217a
Exchange Act. It has shown that the duty to file a SAR
is reasonably “necessary or appropriate in the public
interest, for the protection of investors, or otherwise
in furtherance of the purposes of” the Exchange Act.
Id. SARs are reports that assist law enforcement in
detecting whether transactions have “no apparent or
lawful purpose,” or involve “funds derived from illegal
activity,” “structuring or other means” of evading
requirements of the BSA, or the “facilitat[ion] of
illegal activity.” 31 C.F.R. § 1023.320(a)(2). The
purposes of the Exchange Act are to protect the
national securities market and “safeguard[]
… securities and funds related thereto.” 15 U.S.C.
§ 78b; see also 15 U.S.C. § 78q-1. It is reasonable to
conclude that the same reports that help the Treasury
target illegal securities transactions for its purposes
also help protect investors by providing information
to the SEC that may be relevant to whether a stock or
a market is being manipulated in violation of the
nation’s securities laws.
Alpine resists this conclusion by arguing that
the SEC may not incorporate the regulations of
another agency. Not surprisingly, Alpine does not cite
any authority to support that counter-intuitive
proposition. Instead, Alpine presents a parade of
horribles—such as the SEC enforcing broker-dealers’
tax-filing obligations through Section 17(a)—or relies
on cases where a statute expressly excluded certain
remedies or actions. See, e.g., United States ex rel.
Lissack v. Sakura Global Capital Mkts., Inc., 377 F.3d
145, 152 (2d Cir. 2004) (False Claims Act has express
bar stating that it does not apply to claims brought
under the Internal Revenue Code.).

218a
Moreover, neither the Exchange Act nor the
BSA expressly precludes joint regulatory authority by
FinCEN and the SEC over the reporting of potentially
suspicious transactions. And Alpine itself cites at
least one case where Congress’s silence regarding
whether a state remedy precluded a concurrent
federal remedy was held not to bar concurrent
remedies. See Adams Fruit Co. v. Barrett, 494 U.S.
638, 649-50 (1990) (declining to defer to agency
conclusion that federal statute was preempted by
state law and holding that both state and federal
remedies were available to migrant workers).
Alpine’s second contention is that, regardless of
whether Rule 17a-8 could be a validly promulgated
regulation, the SEC never properly solicited public
comment on Rule 17a-8 as it relates to the expanded
BSA regulation of broker-dealers upon the enactment
of the Patriot Act. Alpine’s position is unpersuasive.
First, the text of the regulation itself, as well as
the SEC’s 1981 notice of final rule, unambiguously
demonstrate the SEC’s intent for the nature of the
Rule 17a-8 reporting obligation to evolve over time
through the Treasury’s regulations. The text of the
rule simply incorporates the entirety of “chapter X of
title 31 of the Code of Federal Regulations.” 17 C.F.R.
§ 240.17a-8. Rather than imposing a separate and
competing set of reporting obligations on brokerdealers, the SEC made government more efficient by
incorporating the obligations that had been and
would be imposed by the Treasury. As the notice of
final rule states: “[t]he rule does not specify the
required reports and records so as to allow for any
revisions the Treasury may adopt in the future.” SEC,

219a
Recordkeeping by Brokers and Dealers, 46 Fed. Reg.
61,454, 61,455 (Dec. 17, 1981).
Moreover, FinCEN saw Rule 17a-8 the way the
SEC does, namely that Rule 17a-8 was promulgated
to impose the same obligations on broker-dealers
under the Exchange Act as the Treasury imposed
under the BSA, including any changes to those
obligations over time. The notice of final rule for the
original version of Section 1023.320 acknowledged
that the scope of the SEC’s Rule 17a-8 would include
the new BSA broker-dealer regulations:
The SEC adopted rule 17a-8 in 1981
under the Securities and Exchange Act
of 1934 (“Exchange Act”), which enables
the SROs, subject to SEC oversight, to
examine
for
BSA
compliance.
Accordingly, both the SEC and SROs
will address broker-dealer compliance
with this rule.
FinCEN Section 1023.320 Notice, 67 Fed. Reg.
at 44,049.
Finally, in a formal adjudication the SEC has
announced its view that Rule 17a-8 encompasses the
post-2002 BSA regulations. See In re Bloomfield, SEC
Release No. 9553, 2014 WL 768828, at *15-*17 (Feb.
24, 2014), vacated in part on other grounds, In re
Gorgia, SEC Release No. 9743, 2015 WL 1546302
(Apr. 8, 2015) (vacating sanctions as to one individual
who died during the pendency of the administrative
proceedings), aff’d, 649 F. App’x 546, 549 (9th Cir.
2016). It has also issued several settled orders

220a
expressing its view that a broker-dealer’s failure to
file SARs violates Rule 17a-8. See In re Biremis Corp.,
SEC Release No. 68456, 2012 WL 6587520, at *13
(Dec. 18, 2012); see also In re Oppenheimer & Co.,
FinCEN Assessment No. 2015-01 (Jan. 26, 2016),
https://www.fincen.gov/sites/default/files/
enforcement_action/Oppenheimer_Assessment_2015
0126.pdf; In re Oppenheimer & Co., SEC Release
No. 3621, 2015 WL 331117, at *8 (Jan. 27, 2015).
These expressions of the SEC’s view have been
consistent over the years and Alpine has not
presented any contrary SEC position that would
undermine the agency’s interpretation of Rule 17a-8.
Accordingly, Alpine’s motion for summary judgment
is denied. Rule 17a-8 is a valid interpretation of the
Exchange Act, and validly encompasses the
suspicious
activity
reporting
obligation
of
Section 1023.320.
B. Alpine Motion for Judgment on the
Pleadings
In addition to its motion for summary
judgment, Alpine moves for judgment on the
pleadings. Alpine asserts that the SEC failed to plead
that it negligently or willfully violated the BSA, as
required to prove a violation of that statute.
Given the foregoing analysis, Alpine’s motion
for judgment on the pleadings is easily denied. This
suit is brought solely under the Exchange Act,
specifically under Section 17(a) and Rule 17a-8.
Although Alpine’s intent is relevant to the remedy if
the SEC carries its burden of proving a violation of
Rule 17a-8, see 15 U.S.C. § 78u(d)(3), neither

221a
Section 17(a) nor Rule 17a-8 includes a separate
element of scienter.17 See 15 U.S.C. § 78q; 17 C.F.R.
§ 240.17a-8. Accord Stead v. SEC, 444 F.2d 713,
716-17 (10th Cir. 1971) (holding that a defendant’s
knowledge that a securities transaction was not
recorded was sufficient to show a violation of
Section 17(a) of the Exchange Act). In those
provisions of the Exchange Act in which Congress has
imposed a scienter requirement for a violation to be
found, it has done so expressly with language not
found in Section 17(a).
III. SAR Narratives Missing Information
The remainder of this Opinion addresses the
SEC’s motion for summary judgment. The SEC’s first
category of alleged violations consists of SARs whose
narrative sections the SEC alleges lack certain
required information. Within this category are seven
subcategories. The SEC has submitted 14 SARs in
support of this branch of its motion. Each subcategory
of SARs is addressed in turn.
A. Basic
Information

Customer

and

Suspiciousness

The SEC contends that Alpine omitted some of
the Five Essential Elements in the narratives of SARs
A, B, and C. The SEC is correct.

Alpine’s suggestion that this holding would deprive it of
constitutionally required notice is meritless, as it is plain from
the text of Rule 17a-8 and the Exchange Act’s penalty provisions
that liability may be imposed without regard to scienter.
17

222a
SARs A and C were completed on the 2002
Form. The 2002 Form warns that the narrative
section of the report is “critical.” It instructs the filer
to “[p]rovide a clear, complete and chronological
description … of the activity, including what is
unusual, irregular or suspicious about the
transaction(s), using [a] checklist” also found on the
form. The 2012 SAR Instructions contains the same
instruction.
Each of the three narratives at issue reports an
enormous deposit of shares in a penny stock: over 40,
over 5 and over 5 million shares, respectively. But,
none of the narratives describe who the client is by,
for instance, describing the nature of its business. The
SAR A narrative also fails to describe why the
transaction is unusual for the customer’s business or
to convey why Alpine thought the transaction was
suspicious. The narratives for SARs B and C are
similarly unhelpful. SAR B states that “Alpine is
filing a SAR due to the heightened sensitivity
surrounding the client” without explaining what led
to that heightened sensitivity. SAR C states that “[i]t
is the policy of Alpine to file a SAR[] related to each
deposit of securities into it[]s account” without
explaining why Alpine adopted the policy of filing a
SAR for every deposit made by that customer. The
SEC has carried its burden to show that three SARs
are deficient as a matter of law for their failure to
describe the “who” and “why” of the transaction, and
to describe why the underlying transactions were
suspicious.
Alpine does not argue that it was not required
to include information on the SARs regarding the Five

223a
Essential Elements, that the three SARs included
such information, or that the SARs A, B, or C
otherwise met the requirements of the law for
completeness. Instead, Alpine opposes the entry of
summary judgment with three other arguments.18
First, it states that summary judgment is not
warranted because the SEC has not offered evidence
that Alpine knew or suspected that the transaction at
issue was criminal. But, as described above, the SEC
has no burden to prove scienter to show a violation of
Rule 17a-8. Moreover, Section 1023.320 itself imposes
an objective test: a SAR must be filed when the
broker-dealer has “reason to suspect” that the
transaction requires the filing. 31 C.F.R.
§ 1023.320(a)(2).
Second, Alpine argues that it was entitled to
rely on SARs filed by the introducing broker for the
transaction, and that the SEC has the burden to
disprove the existence of such a SAR. While Alpine is
correct that it may rely on such SARs, it carries the
burden of showing that an introducing broker filed
SARs and that the filed SARs were complete.
Section 1023.320 explicitly places that burden
on Alpine. It provides that
[t]he obligation to identify and properly
and timely report a suspicious
transaction rests with each brokerdealer involved in the transaction,
Alpine makes many of these arguments in opposition to each
of the prongs of the SEC’s summary judgment motion. To the
extent they are rejected here, they are also rejected in connection
with Alpine’s arguments regarding the remaining SARs.
18

224a
provided that no more than one report is
required to be filed by the broker-dealers
involved in a particular transaction (so
long as the report filed contains all
relevant facts).
31 C.F.R. § 1023.320(a)(3) (emphasis supplied).
Section 1023.320 also provides that introducing and
clearing brokers who file joint SARs may share the
SARs
with
each
other.
See
id.
§ 1023.320(e)(1)(ii)(A)(2)(i). Alpine has not provided
any evidence that any joint filings were made, that
the introducing brokers for these transactions filed
the necessary SARs, or that any filed SARs were
sufficiently complete to meet the law’s requirements
for disclosure.
Finally, Alpine argues that the SEC has failed
to show that it was required to file a SAR for these
transactions. Alpine contends that it routinely filed
voluntary SARs when it was not required to file any
SAR and that that practice included these three
SARs.19 It is certainly true that Section 1023.320
allows for the voluntary filing of SARs, that is, the
filing of a SAR even when a filing is not required by
law. See 31 C.F.R. § 1023.320(a)(1). It is noteworthy,
however, that none of the three SARs (or any of the
SARs at issue on this motion) indicates that it is being
filed voluntarily and not because of any legal duty to
Alpine has not offered admissible evidence that such a policy
or practice was in place in 2011 and 2012 when SARs A, B and
C were filed, and has not offered any evidence that these three
SARs were filed pursuant to such a practice, even if it were in
place. Because this Opinion is intended to provide guidance to
the parties, it proceeds to the merits of this argument.
19

225a
make a filing. Accordingly, it would have been
unreasonable for Alpine to assume that FinCEN and
the SEC would know the SAR was simply a
“voluntary” filing.20 The reporting requirements set
out in the law are not casual. The SAR framework
allocates scarce government resources to protect
public security by placing the burden of compliance,
and of distilling a wide range of possibly relevant
information into a SAR narrative, on broker-dealers.
As the 2002 Form explains: “the care with which [the
SARI is completed may determine whether or not the
described activity and its possible criminal nature are
clearly understood by investigators.”
The burden rests on the SEC, however, to prove
that a SAR was required to be filed. It would appear
that this will not be an onerous task in connection
with the SARs at issue here, each of which reflected
an enormous deposit of shares in a penny stock and,
as reflected in Alpine’s files, had other indicia of
suspicious activity.21 Nonetheless, because the SEC’s
It is worth noting that the SEC has represented that the SARs
presented on this motion are representative of thousands of
similar SARs. To the extent it is able to show a pattern of
suspicious trading activity for which SARs were filed, the
inference that each of those filings was “voluntary” will be
undermined.
21 The summary judgment submissions of both the SEC and
Alpine assume a fact-finder’s knowledge of the penny stock
market, and manipulation of that market, as well as various
other market and broker-dealer practices. In any subsequent
summary judgment motion and at any trial, the parties will be
required to offer admissible lay and/or expert testimony on many
of the subjects with which they have assumed familiarity for
purposes of this preliminary summary judgment motion. The
parties’ decisions not to include expert declarations with this
20

226a
motion assumed that Alpine had a duty to file each of
the 14 SARs, this Opinion will not reach this
contested issue. It will assume, for the purposes of
that portion of the SEC’s motion which addresses the
adequacy of a SAR’s narrative, that the SARs were
required to be filed.
As explained above, SARs A, B, and C each lack
basic information regarding the Five Essential
Elements. Accordingly, the SEC has carried its
burden of showing that each SAR was deficient as a
matter of law.
B. Criminal or Regulatory History
The SEC contends that SARs D, E, and F are
deficient as a matter of law because Alpine failed to
include the relevant regulatory or criminal history of
the customer in the SARs’ narratives. SARs D and E
are on the 2002 Form, which specifically instructs the
filer to “[i]ndicate whether there is any related
litigation[, and i]f so, specify the name of the litigation
and the court where the action is pending.” A
materially similar instruction appears in the 2012
SAR Instructions. FinCEN guidance from 2009 also
explains that one common failure of broker-dealers in
their suspicious activity reporting is

preliminary summary judgment motion may be explained by the
fact that the initial expert disclosures are not due until at least
April 20. Accordingly, even when it seems self-evident that
Alpine had a legal obligation to file the SARs at issue in this
section of the summary judgment motion, this Opinion will not
reach the issue.

227a
[i]nadequate due diligence conducted
once potentially suspicious activity is
identified; for example, a firm may fail to
use readily available public information
about a customer’s criminal or
regulatory history when evaluating
potentially suspicious activity for a SARSF filing.
SAR Activity Review, Issue 15, at 24.
In the case of each of these three SARs, Alpine’s
own files for the SARs contained information that the
customer was the subject of criminal or regulatory
proceedings. The SARs, however, did not include that
information. The SAR D support file shows an SEC
complaint against the customer and its CEO. The
SAR E support file includes a news article regarding
the customer’s guilty plea to conspiracy related to
counterfeiting. The SAR F support file notes the
individual has an “SEC history for misrepresentation
and misappropriation of funds.”
Moreover, the narratives for each of these
SARs contain minimal information other than
describing an enormous deposit of shares in a penny
stock. SAR D recites that the customer deposited
roughly 2 million shares, and “has been placed on a
Heightened Supervisory list” and that “[i]t is the
policy of Alpine to file a SAR[] related to each deposit
of securities into accounts of this nature.” SAR E
notes only that the customer deposited over 27 million
shares of a penny stock. SAR F explains that the
customer deposited 15 million shares of a penny stock,
purchased a convertible note, and that “the shares are

228a
worth about 33 times their purchase price, which may
be potentially suspicious.”
Again, assuming that the SEC has established
that Alpine had a duty to file each of these SARs, it
has easily carried its burden of showing that each of
them was deficient as a matter of law for its omission
of the criminal or regulatory history of a related party.
This constituted a violation of Rule 17a-8, through its
violation of Section 1023.320(a)(2). The information
in Alpine’s files not only provided Alpine with “reason
to suspect” that the transactions were among those
for which it was required to make a filing, but also
constituted specific information that Alpine was
required to include in the SAR narratives. This duty
to describe the regulatory and criminal history of the
customer is contained in the 2002 Form and the 2012
SAR Instructions, as well as the FinCEN Narrative
Guidance. The information omitted from these three
SARs was also responsive to the Five Essential
Elements of these transactions.
Alpine has not argued that it was free to omit
the information because this particular information
did not constitute information responsive to any of the
Five Essential Elements, or because the information
did not relate to Alpine’s separate duty to report
criminal and regulatory history. Nor has it argued
more generally that the omitted information would
not be important for an understanding of the
transactions. Instead, Alpine argues that the
regulatory and criminal history of each of these
customers was a matter of public record. This
argument fails.

229a
To the extent Alpine has a duty to file a SAR, it
has a duty to file one that complies with the reporting
requirements described above. The law does not
recognize any exception to that duty based on a
determination that the government may also know
through other sources the very information that
Alpine was required to report.22 The SEC has shown
that it is entitled to summary judgment on SARs D,
E, and F.
C. Shell Company Involvement or Derogatory
History of Stock
The SEC argues that SARs A and C are
deficient because their narratives do not state that a
shell company was involved in the transaction. It
contends that SAR G omitted certain other issuer
information.
FinCEN guidance explains that “[m]ost shell
companies are formed by individuals and businesses
for legitimate purposes.” FinCEN Shell Company
Guidance at 1.23 This guidance advises that a SAR
“narrative should use the term ‘shell,’ as appropriate.”
Id. at 5. The guidance lists, among several examples
of suspicious activity FinCEN has observed in SARs,
the “inability to obtain … information necessary to
While it would not be a defense to the charged violation of
Rule 17a-8, Alpine does not provide any evidence in support of
an assertion that the reason it omitted the information was
because it believed the information was already known to the
SEC.
23 FinCEN, FIN-2006-G014, Potential Money Laundering Risks
Related to Shell Companies (Nov. 9, 2006), https://www.fincen.
gov/sites/default/files/guidance/AdvisoryOnShells_FINAL.pdf.
22

230a
identify originators or beneficiaries of wire transfers.”
Id. at 3-5. It also instructs that a company being a
“suspected shell entit[y]” is one of many “common
patterns of suspicious activity.” SAR Narrative
Guidance at 5.
Assuming that the SEC proves that Alpine was
required to file SARs A, C, and G, the SEC has carried
its burden to show that the omission of the customer
information from the SARs at issue here was a
violation of law. SARs A, C, and G report transactions
where a customer deposited, respectively, over 40, 5,
and 6 million shares of a penny stock. The SARs’
narratives do not disclose the involvement of a shell
company or provide other information that would help
a regulator understand either the customer or the
transaction at issue. Alpine’s file for SAR A indicates
that the issuer of the deposited stock was a shell
company, and the file for SAR C indicates that the
issuer had been a shell company within the last year.
Alpine’s file for SAR G indicates that the issuer was
not current in its SEC filings, that no company
website was found for the issuer, and that the overthe-counter market’s website for the issuer marked
its stock with a stop sign.
The SEC has shown that Alpine’s failure to
disclose in the three SAR narratives the abovedescribed information about the issuer and customer
was a violation of law. In each instance, the omitted
information was necessary to describe the Five
Essential Elements. Given the paucity of information
in the SAR narratives for SARs A and C, the identity
of the customer as a shell entity engaged in a large
deposit of penny stock shares was particularly

231a
critical. Similarly, the lack of current SEC filings, a
stop sign on a website listing the stock, and lack of an
issuer website were obvious red flags for the penny
stock transaction reported in SAR G. These facts raise
serious questions about whether the issuer of the
shares in the transaction reported in SAR G was a
bona fide entity, and whether the transaction
involved fraud.
Alpine does not contend that the omitted
information in the three SARs is not responsive to the
Five Essential Elements, and therefore a required
element of a SAR. It makes essentially three other
arguments, none of which is persuasive.
First, Alpine argues that, in light of FinCEN
guidance stating that shell company involvement is
not always suspicious, the involvement of a shell
company in these transactions did not make them
suspicious. But, if the SEC, using all the information
on the SAR and in Alpine’s possession, shows that
Alpine was required to file a SAR for the transaction,
then the SEC has shown that Alpine was required to
disclose in both SARs A and C that the suspicious
transactions were in fact conducted through a shell
company. As is true with most if not all facts
generating suspicion, the presence of a shell company
may serve not only to identify the transaction as
suspicious, thereby triggering the duty to file a SAR,
but may also be a required fact to report in the SAR.
Any complete description of the facts responsive to the
Five Essential Elements would so demand. Alpine’s
conclusory argument to the contrary is insufficient to
escape summary judgment.

232a
With respect to SAR G, Alpine points out that
the SEC has not explained in support of its motion
what an OTC Market “stop” signal for trading in a
stock means. Alpine is correct: the SEC has assumed
the Court’s familiarity with the significance of that
market action. Alpine argues as well that Alpine’s
inability to locate a website for or confirm the
existence of an issuer “is indicative of nothing.” Again,
assuming that the SEC establishes that Alpine had a
duty to file SAR G, then the SEC has carried its
burden to show the stop order and the absence of a
website for the issuer were facts that Alpine had to
disclose in the SAR. They are at the very least
responsive to the Five Essential Elements. SAR G
explains that the customer “historically makes
deposits of large volumes of low-priced securities,”
and that this transaction was for another such
deposit. Alpine has failed to offer any evidence or
persuasive argument to raise a question of fact
regarding its obligation to add two other important
pieces of information for this very transaction: there
was no website for the issuer and there was a stop in
place for trading shares for that issuer.
D. Stock Promotion
The SEC contends that SARs G, H, and J are
deficient for their failure to describe the evidence of
stock promotion activity that appears in Alpine’s files
for these SARs. It contends that such evidence is
relevant to whether a transaction may be a
component of a pump-and-dump scheme. In a pumpand-dump scheme, conspirators manipulate the price
and volume of a particular stock through the
dissemination of false and misleading promotional

233a
materials. See Fezzani v. Bear, Stearns & Co.,
716 F.3d 18, 21 (2d Cir. 2013) (scheme in which a
security appeared to be “the subject of an active,
rising market” but where in fact “the market was
principally a series of artificial trades” is a
“paradigmatic ‘pump and dump’ scheme”). In 2016,
the SEC concluded that SARs were deficient, in
violation of Rule 17a-8, because they omitted an
“additional red flag[] that should have further raised
suspicions concerned [a customer’s] trading,” namely
that the entity “knew or should have known that two
of the issuers were the subject of promotional
campaigns at the time of [the customer’s] trading.” In
re Albert Fried & Co., SEC Release No. 77971, 2016
WL 3072175, at *5 (June 1, 2016) (emphasis
supplied).24
The SAR narratives for SARs G, H, and J state
that it is “Alpine’s policy to file a SAR for each security
deposited into the account.” Each SAR describes a
transaction involving a sizable deposit of a penny
stock: over 6 million shares in SAR G; over 13 million
in SAR H; and 60 million shares in SAR J. No other
information is included in the narrative.
The SAR G support file includes screenshots of
Google search results indicating that stock promotion
was occurring. The SAR H support file includes four
pages of screenshots of websites indicating that the
stock at issue was being promoted by a third party.

Although the adjudication occurred in 2016, the decision is
entitled to deference as an authoritative and reasoned
interpretation of Rule17a-8.
24

234a
The SAR J support file contains news articles that
reveal that the stock was being promoted.
Alpine acknowledges that evidence of stock
promotion activity is relevant if connected to a “pump
and dump” scheme. Accordingly, should the SEC
establish that Alpine had a duty to file these three
SARs, it has carried its burden to show that Alpine
was required to add to the SAR narrative the evidence
of stock promotion activity that appeared in Alpine’s
files. The three transactions reported in SARs G, H,
and J involved deposits of many millions of shares of
a penny stock; evidence of stock promotion is
particularly relevant to a transaction of this type
because the combination is suggestive of illegal
activity. As a result, the SEC is entitled to summary
judgment on SARs G, H, and J.
E. Unverified Issuers
The SEC argues that SARs G, K, and L were
defective for failing to include critical information
about the issuers of securities that was contained in
the Alpine files for these SARs. FinCEN guidance
identifies unregistered and unlicensed businesses as
indicative of suspicious transactions. It states that
suspicious
activity
“common[ly]”
includes
transactions involving “parties and businesses that
do not meet the standards of routinely initiated due
diligence and anti-money laundering oversight
programs (e.g., unregistered/unlicensed businesses).”
SAR Narrative Guidance at 5. As explained above,
when a SAR is filed, it must include information about
each of the Five Essential Elements of the suspicious
activity, which includes “what” is involved in the

235a
transaction. Underscoring this duty, a 2012 issue of
the SAR Activity Review directs filers to “include as
much information as is known to them about the
subject(s)” of a SAR. SAR Activity Review, Issue 22, at
39.
SARs G, K, and L each report a large deposit of
a penny stock. SAR G reports a deposit of over
6 million shares; SAR K, over 11 million shares; and
SAR L, nearly 3 million shares. The three SARs
reported very little additional information. Each of
them explained that it was Alpine’s policy to file a
SAR for every deposit by this customer, but added no
information about the issuer of the securities for that
transaction. Each SAR support file for these SARs,
however, indicates that an Alpine employee was
unable to locate basic information about the issuer
whose stock was deposited. For SARs G and K, the
files indicate that Alpine could not locate a company
website for the issuer. For SAR L, Alpine’s file
indicates that the issuer’s corporate registration was
in default. The SEC has shown that if Alpine was
required to file any of these SARs, then it was
required by law to include in its SAR the fact that it
could not locate such information concerning an
issuer.
Alpine argues that, as a general matter, the
absence of a website for an issuer or an issuer’s failure
to renew its incorporation is “indicative of nothing.” It
does not address the omission of this information in
the context of what was and was not included in each
of these SARs. Considering the entirety of the
narrative portion of these three SARs, the SEC has
shown that the failure to include this information

236a
about the issuers was a violation of Rule 17a-8. These
were deposits of enormous quantities of penny stocks
with absolutely no indication in the SAR itself that
there was also a problem with the issuer. Accordingly,
the SEC is entitled to summary judgment as to SARs
G, K, and L with respect to the omissions regarding
the issuers.
F. Low Trading Volume
The SEC contends that SARs M, N, and P are
defective for their failure to disclose the low trading
volume in the shares that these SARs reported were
being deposited with Alpine. The 2002 Form and 2012
SAR Instructions required disclosures in the
narrative of those circumstances that make the filing
of a SAR a necessity. When a SAR was filed, as
indicated repeatedly above, the filer had to include
information responsive to the Five Essential
Elements. A 2009 issue of the SAR Activity Review
notes that one element of a transaction that is
suspicious and should be reported is a “[s]ubstantial
deposit, transfer or journal of very low-priced and
thinly traded securities.” SAR Activity Review, Issue
15, at 24. Accordingly, three elements for such events
must be reported: the substantial deposit of a
security, the low price of the security, and the low
trading volume in the security.
These three SARs each reported a deposit of a
very large quantity of shares of a penny stock. The
SAR support files for SARs M, N, and P each included
relevant information regarding the third element: the
low trading volume. Yet, none of these SARs’
narratives included that fact. SAR M’s narrative

237a
reports a deposit of almost million shares of a lowpriced security, but omits that the average trading
volume over the last three months is 59,108, smaller
than the single deposit by a factor of ten. SAR N’s
narrative lists a deposit of over 60 million shares of a
low-priced security, but does not include the fact that
the trading volume was 101,100 per day, a tiny
fraction of the single deposit reported in SAR N. SAR
P’s narrative notes a deposit of 500,000 shares of a
low-priced security, but states nothing about the
trading volume, reported in the support file to be
10,971 per day. Thus, the reported deposit was 45
times larger than the average trading volume.
The SEC has demonstrated its entitlement to
summary judgment as to SARs M, N, and P. The
sizable deposits, when combined with the low trading
volume of a low-priced security, constitute red flags.
Alpine had a duty to disclose in the SAR the reasons
that made the filing necessary. It did not do so.
Alpine does not argue that SARs M, N, and P
were properly completed. It does not contest that it
had a duty to report low trading volume in the
narrative sections of these three SARs if it had a duty
to file these SARs. Instead, it contends that the SEC
has a burden to show that manipulative trading such
as “wash trades” was actually occurring in order for
the SEC to prevail on its claim that Alpine had a duty
to file a SAR. Alpine is incorrect.
Under Section 1023.320, Alpine had a duty to
report a transaction when, as the regulated brokerdealer, it had “reason to suspect that a transaction (or
a pattern of transactions) … [i]nvolves”, among other

238a
things, the use of the broker-dealer to facilitate
criminal activity. The duty to report is not triggered
by the existence of a government investigation, and
the SEC has no burden at trial, when it has charged
a violation of Rule 17a-8, to show that manipulative
trading was actually occurring. Indeed, the entire
regulatory scheme is set up to bring to the
government’s attention suspicious activity of which it
might otherwise be unaware. Whether the
government is aware or not of criminality, or able to
confirm criminality or not, the duty to report
suspicious activity exists. Thus, the SEC has shown
that it is entitled to summary judgment because SARs
M, N, and P were defective as a matter of law.
G. Foreign Involvement
In the seventh and final category, the SEC
contends that SARs A, C, and H are defective because
they failed to disclose the involvement of a foreign
individual or entity in the transaction. The 2002 Form
used for SARs A and C states that the filer should
“[i]ndicate whether U.S. or foreign currency and/or
U.S. or foreign negotiable instrument(s) were
involved. If foreign, provide the amount, name of
currency, and country of origin.” The 2002 Form also
states that “foreign bank(s) account number(s)”
should be included, as should “passport(s), visa(s),
and/or identification card(s)” belonging to an involved
“foreign national.” The 2012 SAR Instructions
contain a materially identical instruction. Both
instructions also state that filers should “identify the
country, sources, and destinations of funds” if funds
have been “transfer[red] to or from a foreign country.”

239a
FinCEN guidance from 2003 also emphasizes
that the involvement of a foreign entity or individual
must be included in a SAR. It states that a SAR
should
[s]pecify if the suspected activity or
transaction(s)
involve
a
foreign
jurisdiction. If so, provide the name of
the foreign jurisdiction, financial
institution, address and any account
numbers involved in, or affiliated with
the suspected activity or transaction(s).
SAR Narrative Guidance at 4.
SARs A, C, and H each report a large deposit of
shares of a penny stock. SAR A lists a foreign address
for Alpine’s customer, but omits information in the
support file that identifies foreign correspondent
accounts in two foreign jurisdictions that were
involved in the underlying transaction. SAR C
provides a foreign address for the customer in the
“subject information” boxes of the SAR, but omits
from the narrative section any reference to the foreign
nature of the transaction, much less that the country
in question has been identified as a jurisdiction of
primary concern for money laundering activity. SAR
H does not disclose any foreign involvement with the
transaction, omitting that the deposited shares were
purchased by the customer through a transfer of
funds to a foreign bank account, information that
appears in Alpine’s files.
The SEC has carried its burden of showing
that, to the extent Alpine was required to file a SAR

240a
for these transactions, it was required to include in
the narrative sections for the SARs the information
about the foreign connections to the transactions that
it had in its files. SARs A, C, and H each reflect
enormous deposits of shares of penny stocks with a
very opaque discussion in the narrative section of the
SAR of the reasons for filing the SAR. The narrative
does not comply with either the requirement to report
on the Five Essential Elements, or the more specific
duty to report the foreign connections to the
transactions. As described above, these duties of
disclosure apply specifically to the narrative section
of the SAR.
Unlike its response in connection with each of
the other deficiencies discussed above, Alpine’s
opposition to this portion of the SEC’s motion
switches gears and does discuss the three individual
SARs and the identified deficiencies in the context of
those individual SARs. None of its arguments,
however, raises a question of fact regarding its
obligation to add the omitted information about the
foreign connections to the transactions.
First, with respect to SARs A and C, it asserts
that the foreign entity was the “introducing broker”,
and that it identified its foreign location in the
“subject information” boxes of the SARs. But, the SAR
identifies the foreign entity at issue as the customer
and not the introducing broker. And, as explained
above, a broker-dealer is required by law to include
information constituting the Five Essential Elements
and foreign connections to the transaction in the
narrative section of any SAR that the filer is required
to file. Correctly reporting an address in a “subject

241a
information” box does not excuse compliance with the
law’s additional obligations to identify why a
transaction is suspicious in the narrative section of
the SAR.
Next, Alpine argues that it had no obligation to
report in the foreign connection to the transaction in
the narrative section of SAR C since SAR C’s
narrative indicated that Alpine had placed the
customer on a “Heightened Supervisory list” and as a
matter of policy Alpine filed a SAR for each deposit of
securities made by that customer. This opaque
reference to Alpine’s internal policy for that customer
did not relieve Alpine of its obligation under the law
to provide information in the SAR’s narrative
regarding each of the Five Essential Elements for, as
well as the foreign connections to, the specific
transaction.
Finally, with respect to SAR H, Alpine does not
dispute that it failed to disclose that the customer had
purchased the deposited shares by transferring funds
to a foreign bank account. It argues only that the
disclosure was unnecessary because the support file
did not show a foreign wire transfer after the shares
were deposited, and the prior transfer did not
“involve” Alpine. These distinguishing features did
not relieve Alpine of the obligation to report the
foreign connection to the transaction. Nothing in the
law, which is recited above, confines the reporting
requirements for foreign connections to those specific
transactions in which the broker-dealer participated
or to occurrences after the reported transaction. As a
result, the SEC is entitled to summary judgment on
SARs A, C, and G on the ground that Alpine failed to

242a
include information regarding the transaction’s
foreign connections in the SAR narrative.
H. Summary
In this section of the Opinion, the Court has
assumed that Alpine had a duty to file the 14 SARs at
issue. Assuming that obligation, the Opinion has
addressed seven categories of omissions in the
narratives of the SARs on which the SEC’s summary
judgment motion has focused. In each instance, the
Opinion has concluded, following an examination of
the specific SAR’s narrative section, that Alpine had
a duty under the law to include the omitted
information that is the subject of the SEC motion, and
that the SAR, as filed, violated the law’s disclosure
requirements for suspicious transactions.
A broker-dealer must complete a SAR
narrative that contains sufficient information for a
regulator to understand what is suspicious about the
reported activity. Any analysis of a Rule 17a-8 claim
that a particular SAR is deficient in this regard is
necessarily a context-specific analysis. If a SAR had
had a fulsome disclosure of the Five Essential
Elements and other information pertinent to the
transaction that the law requires a broker-dealer to
disclose, then the omission of repetitive or cumulative
information found in the broker-dealer’s files might
raise a question of fact regarding an alleged violation
of Rule 17a-8. As the descriptions of the individual
SARs has shown, however, Alpine’s SARs were
woefully inadequate. Alpine has not shown that there
is any question of fact regarding its compliance with
the law’s disclosure requirements. The SEC is

243a
therefore entitled to summary judgment regarding
information omitted from SARs A, B, C, D, E, F, G, H,
J, K, L, M, N, and P. IV. Deposit-and-Liquidate
Patterns
The SEC contends that Alpine violated
Rule 17a-8 and Section 1023.320(a)(2) when it failed
to file new or continuing SARs in connection with
liquidations of share positions. Alpine filed SARs for
large deposits of shares by three customers, but no
additional SARs when they sold off a large proportion
of those deposits in transactions within a month or so
of the deposit. In support of its motion, the SEC
submitted
three
charts
summarizing
the
transactions, along with SARs that Alpine filed for
the customers’ deposits.
The three customers are referred to as
Customers A, B, and C. Customer A deposited over 12
million shares of a penny stock in February 2012,
then sold, in a series of 12 transactions, 10 million
shares of that same security in February and
March 2012. The pattern then repeated itself in April
through August 2012, with the customer depositing a
very large number of shares in the same security and,
within weeks, selling a large proportion of those
shares in a series of smaller transactions. Alpine
timely filed SARs on the deposits by Customer A, but
not on the sales of the deposited shares. Similarly,
Customer B and Customer C each deposited a large
number of physical certificates of a penny stock, then
sold an almost equal amount of shares in that security
in a series of small transactions over the weeks
immediately following the deposit.

244a
The SEC has shown that it is entitled to
summary judgment to the extent it carries its burden
of showing the existence of the deposit-and-sales
patterns on which it relies. The applicable regulations
state that a broker-dealer must report a transaction
if the transaction “or a pattern of transactions of
which the transaction is a part” meets certain criteria.
31 C.F.R. § 1023.320(a)(2). As noted above, the notice
of final rule published by FinCEN explains that the
“pattern of transactions” phrase was included in the
regulation so that if a broker-dealer determines that
a series of transactions, “taken together, form a
suspicious pattern of activity, the broker-dealer must
file a suspicious transaction report.” FinCEN
Section 1023.320 Notice, 67 Fed. Reg. at 44,051.
Similarly, FinCEN has identified as suspicious a
“[s]ubstantial deposit … of very low-priced and thinly
traded securities,” followed by the “[s]ystematic sale
of those low-priced securities shortly after being
deposited.” SAR Activity Review, Issue 15, at 24
(footnote omitted). This guidance explains that these
transactions present “red flags for the sale of
unregistered securities, and possibly even fraud and
market manipulation.” Id. And the same issue of the
SAR Activity Review notes that “transactions
involv[ing] the deposit of physical certificates … have
their own red flags, such as [the risk that] the shares
were not issued in the name of the customer, or were
recently issued or sequentially numbered.” Id. at 2425.
Alpine argues that the SEC has not shown that
the sell-offs by these three customers are sales of the
very same physical securities that had been

245a
deposited, and that as a result they are not suspicious
as a matter of law.25 Alpine is wrong.
Alpine’s argument that the transactions are
not suspicious as a matter of law because the
liquidations are not necessarily related to the deposit
of physical certificates misses the point of the relevant
FinCEN guidance. The three customers at issue here
dramatically increased their holdings in a penny
stock with a deposit of physical certificates—activity
which FinCEN indicates independently raises
concerns—and then sold off most of those holdings
over a few weeks in a number of discrete, small
transactions. That pattern of transactions requires
supplemental reporting as a matter of law, and the
SEC is entitled to summary judgment to the extent
that it proves that such a pattern occurred and that
Alpine failed to file SARs reflecting that trading.
Next, Alpine asserts that the SEC has
improperly supported its motion with three charts
that the SEC claims to have prepared based on data
provided by Alpine without disclosing what data was
used. As provided by the Federal Rules, voluminous
data may be summarized in a chart. Rule 1006, Fed.
R. Evid., provides that “[t]he proponent may use
a … chart … to prove the content of voluminous
writings … that cannot be conveniently examined in
court.” But the proponent “must make the originals or
duplicates available for examination or copying, or
Alpine argues further that the SEC must show that Alpine
subjectively thought the transactions were suspicious before it
can make out a violation. As described above, Rule 17a-8
contains no scienter element.
25

246a
both, by other parties at a reasonable time and place.”
Id.; see United States ex rel. Evergreen Pipeline
Constr. Co. v. Merritt Meridian Constr. Corp., 95 F.3d
153, 163 (2d Cir. 1996). The SEC has shown it is
entitled to summary judgment on these transactions,
conditioned upon its ability to demonstrate to Alpine,
and if necessary to this Court, that its charts are
accurate.
V. Late-Filed SARs
The SEC contends Alpine violated the law by
filing five SARs late, specifically between 189 and 211
days late. Alpine argues that it was entitled to file a
SAR up to 30 days after conducting an appropriate
review, and the SEC has not shown when Alpine
conducted its review. Alpine’s view, if adopted, would
allow broker-dealers to delay review of transactions
indefinitely and thereby delay the filing of SARs
indefinitely. The regulatory scheme does not support
that somewhat startling proposition. As described
below, a broker-dealer must conduct an ongoing due
diligence review of transactions. It must promptly
initiate a review upon identification of unusual
activity that warrants investigation. It generally has
30 days thereafter to file a SAR. Accordingly, the SEC
has shown it is entitled to summary judgment.
The starting point for the analysis of the
deadline for filing a SAR is again Section 1023.320,
which requires a covered transaction to be reported
when the broker-dealer “knows, suspects, or has
reason to suspect” that the transaction is a covered
transaction. Broker-dealers have an ongoing duty to
scrutinize all transactions they conduct. BSA

247a
regulations require broker-dealers to “maintain[] a
written anti-money laundering program that,” inter
alia,
“[i]ncludes … [a]ppropriate
risk-based
procedures for conducting ongoing customer due
diligence,”
including
“[c]onducting
ongoing
monitoring to identify and report suspicious
transactions.”
31
C.F.R.
§ 1023.210(b)(5)(ii)
(emphasis
supplied);
see
also
31
C.F.R.
§ 1023.220(a)(2) (requiring a broker-dealer to be able
to “form a reasonable belief that it knows the true
identity of each customer” based on types of accounts,
the methods of account opening, and identification
documents).
Through a series of regulatory delegations,
SROs review and approve their member
organizations’ AML policies; Alpine’s AML policy was
approved by FINRA. See SEC, Order Approving
Proposed Rule Changes Relating to Anti-Money
Laundering Compliance Programs, 67 Fed. Reg.
20,854 (Apr. 26, 2002). FINRA requires member firms
to have a written AML policy that receives approval
from FINRA’s senior management and that
“[e]stablish[es] and implement[s] policies, procedures,
and internal controls reasonably designed to achieve
compliance with the Bank Secrecy Act and the
implementing regulations thereunder.” FINRA
Rule 3310
(2015),
http://finra.complinet.com/en/display/display main.
html?rbid=2403&element_id=8656.
As relevant here, Section 1023.320 provides
that a “SAR shall be filed no later than 30 calendar
days after the date of the initial detection by the
reporting broker-dealer of facts that may constitute a

248a
basis for filing a SAR under this section.” 31 C.F.R.
§ 1023.320(b)(3). The Federal Register notice
explaining the final rule used slightly different
phrasing, requiring a SAR to be filed “[w]ithin 30 days
after a broker-dealer becomes aware of a suspicious
transaction.” FinCEN Section 1023.320 Notice, 67
Fed. Reg. at 44,054. Alpine’s FINRA-approved WSPs
state that Alpine will file a SAR “within 30 days of
becoming aware of the suspicious transaction.”
FINRA also publishes a template AML
program for small firms such as Alpine. Given that
FINRA is the ultimate delegee of FinCEN’s authority
to approve AML programs, this document is probative
of whether an AML program complies with the BSA.
The FINRA template states that
The phrase “initial detection” does not
mean the moment a transaction is
highlighted
for
review.
The
30-day … period begins when an
appropriate review is conducted and a
determination is made that the
transaction under review is “suspicious”
within the meaning of the SAR
requirements.
FINRA, Anti-Money Laundering Template for Small
Firms 37-38 (2010), http://www.finra.org/industry
/anti-money-laundering-template-small-firms. With
this explanation, firms are encouraged to flag
transactions liberally for review without fear of
triggering the 30-day reporting requirement.

249a
FinCEN has also issued guidance related to
this question in two publications of the SAR Activity
Review. In one, FinCEN has said that
[t]he phrase “initial detection” should
not be interpreted as meaning the
moment a transaction is highlighted for
review. There are a variety of legitimate
transactions that could raise a red flag
simply because they are inconsistent
with an accountholder’s normal account
activity. A real estate investment
(purchase or sale), the receipt of an
inheritance, or a gift, for example, may
cause an account to have a significant
credit or debit that would be inconsistent
with typical account activity. The
institution’s
automated
account
monitoring system or initial discovery of
information, such as system-generated
reports, may flag the transaction;
however, this should not be considered
initial detection of potential suspicious
activity. The 30-day (or 60-day) period
does not begin until an appropriate
review is conducted and a determination
is made that the transaction under
review is “suspicious” within the
meaning of the SAR regulations.
A review must be initiated promptly
upon identification of unusual activity
that
warrants
investigation.
The
timeframe required for completing
review of the identified activity,

250a
however, may vary given the situation.
According to the FFIEC’s 2005 Bank
Secrecy Act/Anti-Money Laundering
Examination Manual, “an expeditious
review of the transaction or the account
is recommended and can be of significant
assistance to law enforcement. In any
event, the review should be completed in
a reasonable period of time.”26 What
constitutes a “reasonable period of time”
will vary according to the facts and
circumstances of the particular matter
being reviewed and the effectiveness of
the SAR monitoring, reporting, and
decision-making
process
of
each
institution. The key factor is that an
institution has established adequate
procedures for reviewing and assessing
facts and circumstances identified as
potentially suspicious, and that those
procedures
are
documented
and
followed.
FinCEN, The SAR Activity Review: Trends, Tips &
Issues, Issue
10,
at
45-46
(May
2006),
https://www.fincen.gov/sites/default/files/shared/sar_
tti_10.pdf (other footnote omitted) (emphasis
supplied). In another relevant publication, FinCEN
indicated that

While the FFIEC BSA/AML Examination Manual is specific
to the banking industry, this piece of guidance is also applicable
to other industries with suspicious activity reporting
requirements.

26

251a
[t]he time to file a SAR starts when a
firm, in the course of its review or on
account of other factors, is able to make
the determination that it knows, or has
reason to suspect, that the activity or
transactions under review meet one or
more of the definitions of suspicious
activity. Specifically, the 30-day (or
60-day) period does not begin until an
appropriate review is conducted and a
determination is made that the
transaction under review is “suspicious”
within the meaning of the SAR
regulations. Of course, a review must be
initiated promptly and completed in a
reasonable period of time. Firms should
maintain some type of record reflecting
the date the transaction was deemed
suspicious.
SAR Activity Review, Issue 15, at 15-16 (footnote
omitted) (emphasis supplied).
With this exposition in mind, the FinCEN
guidance (on which Alpine and the SEC both rely)
does not support the position Alpine takes, namely
that Alpine was entitled to an indeterminate amount
of time to initiate review of a transaction before the
30- or 60-day reporting period began. The FinCEN
guidance specifically states that the time begins when
an entity such as Alpine “is able to make the
determination that it … has reason to suspect[] that
the activity or transactions under review meet one or
more of the definitions of suspicious activity.” Id. at
15 (emphasis supplied). Further, the FinCEN

252a
guidance emphasizes that “a review must be initiated
promptly and completed in a reasonable period of
time.” Id. (emphasis supplied). And again, the BSA
regulation on broker-dealer AML programs—the
regulatory document out of the many canvassed above
that defines AML obligations with the most
specificity—states that a broker-dealer must engage
in “ongoing monitoring to identify and report
suspicious
transactions.”
31
C.F.R.
§ 1023.210(b)(5)(ii).
The information that triggered the duty to file
a SAR was available to Alpine at the very time that
the five transactions reported in these SARs occurred.
This included that each transaction was a large
deposit of a penny stock and that the account was
flagged for heightened review. Three of the SARs
themselves state that it is Alpine’s practice to file
SARs for transactions from the accounts at issue.
Alpine had a duty to file these SARs, therefore, within
30 days of the transactions.
Alpine does not dispute that the SARs were
filed between 189 and 211 days after the transactions
reflected in the SARs. It does not identify any
recently-acquired
information
regarding
the
transaction that converted it from one for which no
SAR was required to one that required a SAR. While
it contends, without any admissible evidentiary
support, that the AML officer responsible for
reviewing these transactions determined that the
transactions were not suspicious and did not require
a SAR, as described above, negligence provides no
defense to a violation of Rule 17a-8. Alpine also
represents that it filed the SAR within 30 days of a re-

253a
examination of the transactions, following discussions
with FINRA. But, for the reasons explained above,
this late filing violated Section 1023.320(b)(3), which
requires the filing to be within 30 days, and thereby
violated Rule 17a-8. Accordingly, the SEC is entitled
to summary judgment on the five late-filed SARs.
VI. Missing Supporting Documents
The SEC contends that Alpine has not
produced the supporting documentation for five
SARs, which the law required it to maintain and
produce upon request. This portion of the SEC’s
motion concerns five SARs that were filed by Alpine
with FinCEN between October 2013 and April 2015.
The SEC made requests for the supporting
documentation for these SARs beginning in 2016.
Alpine asserts that it timely supplied the supporting
documentation in response to the SEC’s requests.
Section 1023.320 is cast in mandatory terms
and requires two acts: the maintenance of records for
five years after a SAR is filed, and the production of
such records at the request of a federal regulatory
agency such as the SEC. See 31 C.F.R. § 1023.320(d).
A failure to either maintain or produce a SAR’s
supporting
documentation,
then,
violates
Section 1023.320 and, as a result, violates Rule 17a-8
as well. Alpine agrees that it was required to
maintain “all documents or records that assisted”
Alpine “in making the determination that certain
activity required a SAR filing”, citing FinCEN
guidance from June 2007. FinCEN, FIN-2007-G003,
Suspicious
Activity
Report
Supporting
Documentation
(June
13,
2007),
https://

254a
www.fincen.gov/resources/statutes-regulations
/guidance/suspicious-activity-report-supportingdocumentation. This guidance explains that “[w]hat
qualifies as supporting documentation depends on the
facts and circumstances of each filing,” and includes
examples of “transaction records, new account
information, tape recordings, e-mail messages, and
correspondence. While items identified in the
narrative of the SAR generally constitute supporting
documentation, a document or record may qualify as
supporting documentation even if not identified in the
narrative.” Id.
Summary judgment is denied. The SEC has not
produced evidence of a search of the 2016 document
production that failed to locate the supporting
documents. In the event the SEC produces such
evidence at trial, Alpine will have an opportunity to
identify the supporting documents for those SARs
that it produced to the SEC in 2016. To the extent that
Alpine seeks to avoid liability on this claim by relying
on a more recent production of supporting files in the
course of discovery, that effort is futile. Alpine was
required to produce the files when they were
requested in 2016. Of course, the exchange of pretrial
interrogatories between the parties may eliminate
this dispute with the identification by Alpine by Bates
number or otherwise of the specific documents it
asserts that it provided to the SEC in 2016 that
support these five SARs.
Conclusion
The SEC’s December 6, 2017 motion for partial
summary judgment is granted in part. Alpine’s

255a
January 19, 2018 motion for summary judgment and
for judgment on the pleadings is denied.
Dated:

New York, New York
March 30, 2018
/s/ Denise Cote
DENISE COTE
United States District Judge

256a
APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 19th day of February,
two thousand twenty-one.
United States Securities and Exchange Commission,
Plaintiff - Appellee,
v.

ORDER
Docket No: 19-3272

Alpine Securities Corporation,
Defendant - Appellant.
Appellant, Alpine Securities Corporation, filed
a petition for panel rehearing, or, in the alternative,
for rehearing en banc. The panel that determined the
appeal has considered the request for panel
rehearing, and the active members of the Court have
considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

257a
APPENDIX F
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
UNITED STATES
SECURITIES AND
EXCHANGE COMMISSION,
Plaintiff,
-v-

17cv4179(DLC)
OPINION AND ORDER

ALPINE SECURITIES
CORPORATION,
Defendant.
For the plaintiff:
Zachary T. Carlyle
Terry R. Miller
U.S. Securities and Exchange Commission
1961 Stout Street, 17th Floor
Denver, CO 80294
For the defendant:
Maranda E. Fritz
Thompson Hine LLP
335 Madison Avenue, 12th Floor
New York, NY 10017
Brent R. Baker
Aaron D. Lebenta
Jonathan D. Bletzacker
Clyde Snow & Sessions

258a
One Utah Center, 201 South Main Street, Suite 1300
Salt Lake City, Utah 84111
DENISE COTE, District Judge:
On July 3, 2019, defendant Alpine Securities
Corp. (“Alpine”) filed a motion for reconsideration of
two Opinions of March 30 and December 11, 2018 in
light of the Supreme Court’s recent decision in Kisor
v. Wilkie, 139 S. Ct. 2400 (2019). Kisor reaffirmed the
doctrine of Auer deference for an agency’s
interpretation of its own regulations. The March and
December Opinions are incorporated by reference and
familiarity with them is assumed. See SEC v. Alpine
Sec. Corp., 308 F. Supp. 3d 775 (S.D.N.Y. Mar. 30,
2018) (“March Opinion”); SEC v. Alpine Sec. Corp.,
354 F. Supp. 3d 396 (S.D.N.Y. Dec. 11, 2018)
(“December Opinion”).
Alpine argues that Kisor demonstrates that
this Court’s March and December Opinions deferred
inappropriately to the SEC’s views and failed to apply
the limitations on Auer deference described in Kisor.
The motion was fully submitted on August 9. For the
reasons that follow, Alpine’s July 3 motion for
reconsideration is denied.
Discussion
The standard for granting a motion for
reconsideration is “strict.” Analytical Surveys, Inc. v.
Tonga Partners, L.P., 684 F.3d 36, 52 (2d Cir. 2012)
(citation omitted). Reconsideration will generally be
denied unless, as relevant here, the moving party
“identifies an intervening change of controlling law.”

259a
Kolel Beth Yechiel Mechil of Tartikov, Inc. v. YLL
Irrevocable Tr., 729 F.3d 99, 104 (2d Cir. 2013)
(citation omitted). It is not a vehicle “for relitigating
old issues, presenting the case under new theories,
securing a rehearing on the merits, or otherwise
taking a second bite at the apple.” Analytical Surveys,
684 F.3d at 52 (citation omitted).
Alpine argues that Kisor, which addressed the
continued viability of Auer deference, warrants
reconsideration of the March and December
Opinions.1 The “only question presented” in Kisor was
whether the Supreme Court would overrule Auer v.
Robbins, 519 U.S. 452 (1997) and Bowles v. Seminole
Rock & Sand Co., 325 U.S. 410 (1945) and discard the
deference those cases give to agency interpretations
of ambiguous regulations. 139 S. Ct. at 2408. The
decision in Kisor “answer[ed] that question no,”
affirming that “Auer deference retains an important
role in construing agency regulations.” Id. To the
extent the decision in Kisor “reinforc[ed] some of the
limits inherent in the Auer doctrine,” the Supreme
Court’s analysis did not change the law. Id. at 2415.
Instead, the Supreme Court “t[ook] the opportunity to
restate, and somewhat expand upon those principals”
that have governed Auer deference, noting that while
“[y]ou might view this [discussion] as `just
background’ because we have made many of its points
in prior decisions … , it is background that matters.”
Many of Alpine’s arguments were also considered and rejected
in an Opinion of June 18, 2018, which denied Alpine’s April 20,
2018 motion for reconsideration of the March Opinion. See SEC
v. Alpine Sec. Corp., No. 17cv4179(DLC), 2018 WL 3198889
(S.D.N.Y. June 18, 2018).
1

260a
Id. at 2410, 2414. Because Kisor affirmed the
continued viability of Auer deference, it does not
reflect a change in controlling law that would permit
the filing of an otherwise untimely motion for
reconsideration.2
Even assuming Kisor reflects a change of
emphasis in the doctrine of Auer deference, Alpine’s
motion must be denied. Alpine’s principal complaint
in its motion for reconsideration is that the March and
December Opinions erred by concluding that the
Securities and Exchange Commission (“SEC”) has the
authority to bring this action pursuant to
Section 17(a) of the Exchange Act. Section 17(a) is, of
course, a statute. Therefore, it is the application of
Chevron deference, and not Auer deference, that is
potentially at issue in the construction of
Section 17(a).3 See March Opinion, 308 F. Supp. 3d at
797-79; December Opinion, 354 F. Supp. 3d at 416-17.
Auer deference has no application where an agency is
interpreting a federal statute rather than its own
regulation. See Halo v. Yale Health Plan, Director of
Benefits & Records Yale University, 819 F.3d 42, 53
(2d Cir. 2016).

2 To support its claim that Kisor marks a change in controlling
law, Alpine principally cites to the concurring opinion of Justice
Gorsuch. The majority opinion notes that “[t]he proper
understanding of the scope of limits of the Auer doctrine is, of
course, not set out in any of the opinions that concur in the
judgment.” Kisor, 139 S. Ct. at 2415 n.4.

The March Opinion did not require the application of Chevron
deference to conclude that the SEC had authority to bring this
suit. See March Opinion, 308 F. Supp. 3d at 797-97.
3

261a
Alpine also argues that Kisor requires
reconsideration of this Court’s interpretation of
Rule 17a-8, specifically the holding that the rule
encompasses the duty to file a suspicious activity
report (“SAR”) even though SAR regulations were not
enacted for another two decades. 17 C.F.R.
§ 240.17a-8. This argument is correctly addressed to
the interpretation of a regulation rather than a
statute, but Alpine largely uses this motion to rehash
old arguments that were considered and rejected in
the March and December Opinions and not to suggest
that those decisions incorrectly applied Auer
deference. For several reasons, Kisor has limited
relevance to the Court’s application of Rule 17a-8 to
this action.
First, the conclusion that Rule 17a-8
authorizes the SEC to enforce the SAR obligations
described
in
31
C.F.R.
§ 1023.320
(“Section 1023.320”) did not turn on the application of
Auer deference. It was and remains principally based
on the plain text of Rule 17a-8, which “simply
incorporates the entirety of ‘chapter X of title 31 of the
Code of Federal Regulations.’” March Opinion, 308 F.
Supp. 3d at 797 (quoting 17 C.F.R. § 240.17a-8). As
the March Opinion explained, “the text of the
regulation itself, as well as the SEC’s 1981 notice of
final rule, unambiguously demonstrate the SEC’s
intent for the nature of the Rule 17a-8 reporting
obligation to evolve over time through the Treasury’s
regulations.” Id.4

The SEC’s 1981 notice of final rule states that Rule 17a-8 “does
not specify the required reports and records so as to allow for any
4

262a
Second, to the extent the March Opinion
confirmed this reading of Rule 17a-8 by reviewing
interpretations of Rule 17a-8 by the Financial Crimes
Enforcement Network (“FinCEN”) and the SEC,5
Alpine fails to address the most important aspects of
that review. Cf. SEC v. Alpine Sec. Corp., No.
17cv4179(DLC), 2018 WL 3198889, at *2 (S.D.N.Y.
June 18, 2018) (denying motion for reconsideration of
the March Opinion). Alpine does not address, for
example, FinCEN’s acknowledgement that the SEC
would be able to bring actions such as this pursuant
to Rule 17a-8. See March Opinion, 308 F. Supp. 3d at
797.
Alpine’s final contentions—which do concern
this Court’s application of Auer deference—fare no
better. Alpine appears to argue that the March and
December Opinions inappropriately deferred to “the
positions advanced by the SEC,” as opposed to
“[a]uthoritative’ statements of FinCEN,” when
determining what information must be included in
the narrative portion of a SAR filed pursuant to
Section 1023.320. Alpine is incorrect. As explained in
the December Opinion, this Court “principally relie[d]
on the instructions in the 2002 SAR Form, the 2012
revisions the Treasury may adopt in the future.” SEC,
Recordkeeping by Brokers and Dealers, 46 Fed. Reg. 61,455
(Dec. 17, 1981). Moreover, in 2011, Rule 17a-8 was amended to
specifically refer to regulations of the Bank Secrecy Act (“BSA”).
See 76 Fed. Reg. 11,327-28 (Mar. 2, 2011).
After finding the text of Rule 17a-8 unambiguous, the March
Opinion reviewed a notice of final rule issued by FinCEN for the
original version of 31 C.F.R. § 1023.320 as well as a formal
adjudication and several settled orders issued by the SEC. See
March Opinion, 308 F. Supp. 3d at 797.
5

263a
SAR Instructions, and the SAR Narrative Guidance
issued [by FinCEN] in 2003” to interpret the scope of
Section 1023.320. December Opinion, 354 F. Supp. 3d
at 414.
The December Opinion explained that the SAR
Forms themselves were of principal importance in its
findings. It explained that,
while FinCEN guidance is informative
and useful, its role in this action can be
overstated. The violations that the SEC
asserts occurred here arose from
Alpine’s failure to comply with
Section 1023.320’s mandates and the
SAR Form’s instructions, including the
requirement that it provide in its SARs’
narratives a “clear, complete and
chronological description [of] what is
unusual, irregular or suspicious about
the transaction(s).” These instructions
have the force of law, having been issued
as FinCEN regulations following a
notice and comment period.
Id. at 417 (quoting 2002 SAR Form at 3)
(citation omitted). The FinCEN guidance documents
cited by the SEC “respond[] to the broad legal
requirement contained in Section 1023.320 [and] give
content to a broker-dealer’s obligation to file SARs.”
Id. at 418. Alpine has failed to show that Kisor
warrants reconsideration of this Court’s reliance on
those documents.

264a
Conclusion
Alpine’s July 3 motion for reconsideration is
denied.
Dated:

New York, New York
August 29, 2019
/s/ Denise Cote
DENISE COTE
United States
District Judge

265a
APPENDIX G
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
United States Securities and Exchange Commission,
Plaintiff,
-v-

17cv4179 (DLC)
MEMORANDUM
OPINION & ORDER

Alpine Securities Corporation,
Defendant.
For the plaintiff:
Zachary T. Carlyle
Terry R. Miller
U.S. Securities and Exchange Commission
1961 Stout Street, 17th Floor
Denver, CO 80294
For the defendant:
Maranda E. Fritz
Thompson Hine LLP
335 Madison Avenue, 12th Floor
New York, NY 10017
Brent R. Baker
Aaron D. Lebenta
Jonathan D. Bletzacker
Clyde Snow & Sessions
One Utah Center, 201 South Main Street, Suite 1300
Salt Lake City, Utah 84111

266a
DENISE COTE, District Judge:
On March 30, 2018, the Court denied the
motion for summary judgment and for judgment on
the pleadings filed by defendant Alpine Securities
Corporation (“Alpine”), and granted in part the
motion for partial summary judgment of plaintiff
United States Securities and Exchange Commission
(“SEC”). See SEC v. Alpine Sec. Corp.,
No. 17cv4179(DLC), 2018 WL 1633818 (S.D.N.Y.
Mar. 30, 2018) (the “March Opinion”). On April 20,
Alpine filed motions seeking reconsideration of
rulings in the March Opinion.1 These motions became
fully submitted on May 25. Alpine also moves for
certification of several questions for interlocutory
appeal. For the reasons that follow, Alpine’s April 20
motions are denied.
Discussion
“[T]he standard for granting a … motion for
reconsideration is strict.” Analytical Surveys, Inc. v.
Tonga Partners, L.P., 684 F.3d 36, 52 (2d Cir. 2012)
(citation omitted). “A motion for reconsideration
should be granted only when the [moving party]
identifies an intervening change of controlling law,
the availability of new evidence, or the need to correct
a clear error or prevent manifest injustice.” Kolel Beth
Yechiel Mechil of Tartikov, Inc. v. YLL Irrevocable
Trust, 729 F.3d 99, 104 (2d Cir. 2013) (citation
omitted). It is “not a vehicle for relitigating old issues,
Alpine also moved on April 20 to supplement the record for
purposes of its motions for reconsideration, which was denied on
April 23.
1

267a
presenting the case under new theories, securing a
rehearing on the merits, or otherwise taking a second
bite at the apple.” Analytical Surveys, 684 F.3d at 52
(citation omitted).
An issue may be certified for interlocutory
appeal in the following circumstances:
When a district judge, in making in a
civil action an order not otherwise
appealable under this section, shall be of
the opinion that such order involves a
controlling question of law as to which
there is substantial ground for difference
of opinion and that an immediate appeal
from the order may materially advance
the ultimate termination of the
litigation, he shall so state in writing in
such order. The Court of Appeals which
would have jurisdiction of an appeal of
such action may thereupon, in its
discretion, permit an appeal to be taken
from such order, if application is made to
it within ten days after the entry of the
order.
28
U.S.C.
§ 1292(b).
“[O]nly
exceptional
circumstances will justify a departure from the basic
policy of postponing appellate review until after the
entry of a final judgment.” Flor v. BOT Fin. Corp., 79
F.3d 281, 284 (2d Cir. 1996) (per curiam) (citation
omitted).
At the invitation of the Court, the parties filed
motions for summary judgment addressed to a few

268a
exemplar suspicious activity reports (“SARs”). See
SEC v. Alpine Sec. Corp., No. 17cv4179(DLC), 2018
WL 1633818, at *7 (S.D.N.Y. Mar. 30, 2018). Alpine
principally argued in its motion that the SEC cannot
enforce Bank Secrecy Act regulations via Rule 17a-8.
See id. at *14. The SEC contended in its motion that
Alpine violated its obligations under Rule 17a-8 as to
36 SARs the SEC submitted with its motion. See id.
at *3.
Alpine moves for reconsideration of almost
every aspect of the March Opinion, arguing that the
Opinion overlooked controlling authority cited by
Alpine and inappropriately granted summary
judgment to the SEC despite genuine disputes of
material fact. Alpine argues that the March Opinion
is therefore clearly erroneous and manifestly unjust.
Alpine’s arguments are unavailing.
A significant portion of Alpine’s moving papers
present arguments that were raised by Alpine in its
summary judgment papers and discussed in the
March Opinion. These topics include the appropriate
measure of deference to FinCEN guidance documents,
the validity of the SEC’s theory of violation of Rule
17a-8, and Alpine’s contention that imposing liability
would violate its due process rights. Alpine’s may not
use its motions for reconsideration to relitigate issues
that have already been fully considered by the Court,
and its attempt to do so is denied.
Turning to Alpine’s motion for reconsideration
of the denial of its motion for summary judgment and
for judgment on the pleadings, Alpine fails to address
the most important aspects of the March Opinion. For

269a
example, Alpine does not address FinCEN’s
acknowledgement that the SEC would be able to use
Rule 17a-8 to bring actions such as this one, which is
premised on deficient suspicious activity reporting by
broker-dealers. See Alpine, 2018 WL 1633818, at *15.
As a result, reconsideration of the March Opinion’s
denial of Alpine’s motion for summary judgment and
for judgment on the pleadings is not warranted.
Certification for interlocutory appeal of the
questions proposed by Alpine is also unwarranted.
Although Alpine contests the rulings in the March
Opinion, it has not shown that this case is so
extraordinary that the final judgment rule should not
apply. Moreover, Alpine has failed to show any
serious reason to doubt the March Opinion’s
application of settled administrative law principles to
the suspicious activity reporting regime at issue here.
Finally, Alpine has not shown that
reconsideration of the partial grant of the SEC’s
motion for partial summary judgment is warranted.
Alpine’s motion for reconsideration conflates the
question of whether a broker-dealer has an adequate
anti-money laundering (“AML”) program with the
question of whether a particular SAR filed by a
broker-dealer is adequate. As the SEC explains, this
case is not a test of the adequacy of Alpine’s AML
program as a program, but instead a test of whether
the SARs identified by the SEC satisfy the
requirements of 31 C.F.R. § 1023.320. Alpine has not
shown that the March Opinion erred in ruling that
the exemplar SARs submitted by the SEC in
connection with its motion were deficient. (In many
instances, the Opinion’s findings were conditioned on

270a
the SEC proving at trial that each SAR was required
to be filed. See Alpine, 2018 WL 1633818, at *18.) As
a result, Alpine’s motion for reconsideration of the
March Opinion insofar as it partially granted the
SEC’s motion for partial summary judgment is
denied.
It should be noted that an interlocutory appeal
would be particularly unwarranted since the parties’
full summary judgment motions are due to be filed in
a few weeks, on July 13. The partial summary
judgment motion practice gave the parties the
opportunity to learn the legal framework that will
govern that motion and to address the evidence in
that context.
Conclusion
Alpine’s April 20 motions for reconsideration
and for certification for interlocutory appeal are
denied.
Dated: New York, New York
June 18, 2018
/s/ Denise Cote
Denise Cote
United States District Judge

271a
APPENDIX H
15 U.S.C. § 78q
§ 78q. Records and reports
(a) Rules and regulations
(1) Every national securities exchange, member
thereof, broker or dealer who transacts a business in
securities through the medium of any such member,
registered securities association, registered broker or
dealer, registered municipal securities dealer
municipal advisor,,1 registered securities
information processor, registered transfer agent,
nationally recognized statistical rating organization,
and registered clearing agency and the Municipal
Securities Rulemaking Board shall make and keep
for prescribed periods such records, furnish such
copies thereof, and make and disseminate such
reports as the Commission, by rule, prescribes as
necessary or appropriate in the public interest, for
the protection of investors, or otherwise in
furtherance of the purposes of this chapter. Any
report that a nationally recognized statistical rating
organization is required by Commission rules under
this paragraph to make and disseminate to the
Commission shall be deemed furnished to the
Commission.
*****

1

So in original.

272a
15 U.S.C. § 78u
§ 78u. Investigations and actions
…
(d) Injunction proceedings; authority of court
to prohibit persons from serving as officers
and directors; money penalties in civil actions
(1) Whenever it shall appear to the Commission that
any person is engaged or is about to engage in acts
or practices constituting a violation of any provision
of this chapter, the rules or regulations thereunder,
the rules of a national securities exchange or
registered securities association of which such
person is a member or a person associated with a
member, the rules of a registered clearing agency in
which such person is a participant, the rules of the
Public Company Accounting Oversight Board, of
which such person is a registered public accounting
firm or a person associated with such a firm, or the
rules of the Municipal Securities Rulemaking Board,
it may in its discretion bring an action in the proper
district court of the United States, the United States
District Court for the District of Columbia, or the
United States courts of any territory or other place
subject to the jurisdiction of the United States, to
enjoin such acts or practices, and upon a proper
showing a permanent or temporary injunction or
restraining order shall be granted without bond. The
Commission may transmit such evidence as may be
available concerning such acts or practices as may
constitute a violation of any provision of this chapter
or the rules or regulations thereunder to the
Attorney General, who may, in his discretion,
institute the necessary criminal proceedings under

273a
this chapter.
(2) Authority of court to prohibit persons
from serving as officers and directors
In any proceeding under paragraph (1) of this
subsection, the court may prohibit, conditionally
or unconditionally, and permanently or for such
period of time as it shall determine, any person
who violated section 78j(b) of this title or the rules
or regulations thereunder from acting as an officer
or director of any issuer that has a class of
securities registered pursuant to section 78l of this
title or that is required to file reports pursuant to
section 78o(d) of this title if the person’s conduct
demonstrates unfitness to serve as an officer or
director of any such issuer.
(3) Civil money penalties and authority to
seek disgorgement
(A) Authority of Commission
Whenever it shall appear to the Commission
that any person has violated any provision of
this chapter, the rules or regulations
thereunder, or a cease-and-desist order entered
by the Commission pursuant to section 78u-3 of
this title, other than by committing a violation
subject to a penalty pursuant to section 78u-1 of
this title, the Commission may bring an action
in a United States district court to seek, and the
court shall have jurisdiction to—
(i) impose, upon a proper showing, a civil

274a
penalty to be paid by the person who
committed such violation; and
(ii) require disgorgement under paragraph
(7) of any unjust enrichment by the person
who received such unjust enrichment as a
result of such violation.
(B) Amount of penalty
(i) First tier
The amount of a civil penalty imposed under
subparagraph (A)(i) shall be determined by
the court in light of the facts and
circumstances. For each violation, the amount
of the penalty shall not exceed the greater of
(I) $5,000 for a natural person or $50,000 for
any other person, or (II) the gross amount of
pecuniary gain to such defendant as a result
of the violation.
(ii) Second tier
Notwithstanding clause (i), the amount of a
civil penalty imposed under subparagraph
(A)(i) for each such violation shall not exceed
the greater of (I) $50,000 for a natural person
or $250,000 for any other person, or (II) the
gross amount of pecuniary gain to such
defendant as a result of the violation, if the
violation described in subparagraph (A)
involved fraud, deceit, manipulation, or
deliberate or reckless disregard of a
regulatory requirement.

275a
(iii) Third tier
Notwithstanding clauses (i) and (ii), the
amount of a civil penalty imposed under
subparagraph (A)(i) for each violation
described in that subparagraph shall not
exceed the greater of (I) $100,000 for a
natural person or $500,000 for any other
person, or (II) the gross amount of pecuniary
gain to such defendant as a result of the
violation, if—
(aa) the violation described in
subparagraph (A) involved fraud, deceit,
manipulation, or deliberate or reckless
disregard of a regulatory requirement; and
(bb) such violation directly or indirectly
resulted in substantial losses or created a
significant risk of substantial losses to
other persons.
(C) Procedures for collection
(i) Payment of penalty to treasury
A penalty imposed under this section shall be
payable into the Treasury of the United
States, except as otherwise provided in
section 7246 of this title and section 78u-6 of
this title.
(ii) Collection of penalties
If a person upon whom such a penalty is

276a
imposed shall fail to pay such penalty within
the time prescribed in the court’s order, the
Commission may refer the matter to the
Attorney General who shall recover such
penalty by action in the appropriate United
States district court.
(iii) Remedy not exclusive
The actions authorized by this paragraph
may be brought in addition to any other
action that the Commission or the Attorney
General is entitled to bring.
(iv) Jurisdiction and venue
For purposes of section 78aa of this title,
actions under this paragraph shall be actions
to enforce a liability or a duty created by this
chapter.
(D) Special provisions relating to a
violation of a cease-and-desist order
In an action to enforce a cease-and-desist order
entered by the Commission pursuant to section
78u-3 of this title, each separate violation of
such order shall be a separate offense, except
that in the case of a violation through a
continuing failure to comply with the order,
each day of the failure to comply shall be
deemed a separate offense.
(4) Prohibition of attorneys’ fees paid from
Commission disgorgement funds

277a
Except as otherwise ordered by the court upon
motion by the Commission, or, in the case of an
administrative action, as otherwise ordered by the
Commission, funds disgorged under paragraph (7)
as the result of an action brought by the
Commission in Federal court, or as a result of any
Commission administrative action, shall not be
distributed as payment for attorneys’ fees or
expenses incurred by private parties seeking
distribution of the disgorged funds.
(5) Equitable relief
In any action or proceeding brought or instituted
by the Commission under any provision of the
securities laws, the Commission may seek, and
any Federal court may grant, any equitable relief
that may be appropriate or necessary for the
benefit of investors.
(6) Authority of a court to prohibit persons
from participating in an offering of penny
stock
(A) In general
In any proceeding under paragraph (1) against
any person participating in, or, at the time of
the alleged misconduct who was participating
in, an offering of penny stock, the court may
prohibit that person from participating in an
offering of penny stock, conditionally or
unconditionally, and permanently or for such
period of time as the court shall determine.

278a
(B) Definition
For purposes of this paragraph, the term
“person participating in an offering of penny
stock” includes any person engaging in activities
with a broker, dealer, or issuer for purposes of
issuing, trading, or inducing or attempting to
induce the purchase or sale of, any penny stock.
The Commission may, by rule or regulation,
define such term to include other activities, and
may, by rule, regulation, or order, exempt any
person or class of persons, in whole or in part,
conditionally or unconditionally, from inclusion
in such term.
(7) Disgorgement
In any action or proceeding brought by the
Commission under any provision of the securities
laws, the Commission may seek, and any Federal
court may order, disgorgement.
(8) Limitations periods
(A) Disgorgement
The Commission may bring a claim for
disgorgement under paragraph (7)—
(i) not later than 5 years after the latest date
of the violation that gives rise to the action or
proceeding in which the Commission seeks
the claim occurs; or
(ii) not later than 10 years after the latest

279a
date of the violation that gives rise to the
action or proceeding in which the Commission
seeks the claim if the violation involves
conduct that violates—
(I) section 10(b);
(II) section 17(a)(1) of the Securities Act of
1933 (15 U.S.C. 77q(a)(1));
(III) section 206(1) of the Investment
Advisers Act of 1940 (15 U.S.C. 80b-6(1));
or
(IV) any other provision of the securities
laws for which scienter must be
established.
(B) Equitable remedies
The Commission may seek a claim for any
equitable remedy, including for an injunction or
for a bar, suspension, or cease and desist order,
not later than 10 years after the latest date on
which a violation that gives rise to the claim
occurs.
(C) Calculation
For the purposes of calculating any limitations
period under this paragraph with respect to an
action or claim, any time in which the person
against which the action or claim, as applicable,
is brought is outside of the United States shall
not count towards the accrual of that period.

280a
(9) Rule of construction
Nothing in paragraph (7) may be construed as
altering any right that any private party may
have to maintain a suit for a violation of this
chapter.
*****
31 U.S.C. § 5318
§ 5318 Compliance, exemptions, and summons
authority
(a) General powers of Secretary.—The Secretary
of the Treasury may (except under section 5315 of
this title and regulations prescribed under section
5315)—
(1) except as provided in subsections (b)(2) and
(h)(4), delegate duties and powers under this
subchapter to an appropriate supervising agency
and the United States Postal Service;
(2) require a class of domestic financial
institutions or nonfinancial trades or businesses to
maintain appropriate procedures, including the
collection and reporting of certain information as
the Secretary of the Treasury may prescribe by
regulation, to ensure compliance with this
subchapter and regulations prescribed under this
subchapter or to guard against money laundering,
the financing of terrorism, or other forms of illicit
finance;
(3) examine any books, papers, records, or other
data of domestic financial institutions or

281a
nonfinancial trades or businesses relevant to the
recordkeeping or reporting requirements of this
subchapter;
(4) summon a financial institution or nonfinancial
trade or business, an officer or employee of a
financial institution or nonfinancial trade or
business (including a former officer or employee),
or any person having possession, custody, or care
of the reports and records required under this
subchapter, to appear before the Secretary of the
Treasury or his delegate at a time and place
named in the summons and to produce such books,
papers, records, or other data, and to give
testimony, under oath, as may be relevant or
material to an investigation described in
subsection (b);
(5) exempt from the requirements of this
subchapter any class of transactions within any
State if the Secretary determines that—
(A) under the laws of such State, that class of
transactions is subject to requirements
substantially similar to those imposed under
this subchapter; and
(B) there is adequate provision for the
enforcement of such requirements;
(6) rely on examinations conducted by a State
supervisory agency of a category of financial
institution, if the Secretary determines that—
(A) the category of financial institution is

282a
required to comply with this subchapter and
regulations prescribed under this subchapter; or
(B) the State supervisory agency examines the
category of financial institution for compliance
with this subchapter and regulations prescribed
under this subchapter; and
(7) prescribe an appropriate exemption from a
requirement under this subchapter and
regulations prescribed under this subchapter. The
Secretary may revoke an exemption under this
paragraph or paragraph (5) by actually or
constructively notifying the parties affected. A
revocation is effective during judicial review.
(b) Limitations on summons power.—
(1) Scope of power.—The Secretary of the
Treasury may take any action described in
paragraph (3) or (4) of subsection (a) only in
connection with investigations for the purpose of
civil enforcement of violations of this subchapter,
section 21 of the Federal Deposit Insurance Act,
section 4111 of the National Housing Act, or
chapter 2 of Public Law 91-508 (12 U.S.C. 1951 et
seq.) or any regulation under any such provision.
(2) Authority to issue.—A summons may be
issued under subsection (a)(4) only by, or with the
approval of, the Secretary of the Treasury or a
supervisory level delegate of the Secretary of the
Repealed by Pub. L. 101-73, Title IV, § 407, Aug. 9, 1989, 103
Stat. 363.
1

283a
Treasury.
(c) Administrative aspects of summons.—
(1) Production at designated site.—A
summons issued pursuant to this section may
require that books, papers, records, or other data
stored or maintained at any place be produced at
any designated location in any State or in any
territory or other place subject to the jurisdiction
of the United States not more than 500 miles
distant from any place where the financial
institution or nonfinancial trade or business
operates or conducts business in the United
States.
(2) Fees and travel expenses.—Persons
summoned under this section shall be paid the
same fees and mileage for travel in the United
States that are paid witnesses in the courts of the
United States.
(3) No liability for expenses.—The United
States shall not be liable for any expense, other
than an expense described in paragraph (2),
incurred in connection with the production of
books, papers, records, or other data under this
section.
(d) Service of summons.—Service of a summons
issued under this section may be by registered mail
or in such other manner calculated to give actual
notice as the Secretary may prescribe by regulation.
(e) Contumacy or refusal.—

284a
(1) Referral to Attorney General.—In case of
contumacy by a person issued a summons under
paragraph (3) or (4) of subsection (a) or a refusal
by such person to obey such summons, the
Secretary of the Treasury shall refer the matter to
the Attorney General.
(2) Jurisdiction of court.—The Attorney
General may invoke the aid of any court of the
United States within the jurisdiction of which—
(A) the investigation which gave rise to the
summons is being or has been carried on;
(B) the person summoned is an inhabitant; or
(C) the person summoned carries on business or
may be found,
to compel compliance with the summons.
(3) Court order.—The court may issue an order
requiring the person summoned to appear before
the Secretary or his delegate to produce books,
papers, records, and other data, to give testimony
as may be necessary to explain how such material
was compiled and maintained, and to pay the
costs of the proceeding.
(4) Failure to comply with order.—Any failure
to obey the order of the court may be punished by
the court as a contempt thereof.
(5) Service of process.—All process in any case
under this subsection may be served in any
judicial district in which such person may be

285a
found.
(f) Written and signed statement required.—No
person shall qualify for an exemption under
subsection (a)(5) unless the relevant financial
institution or nonfinancial trade or business
prepares and maintains a statement which—
(1) describes in detail the reasons why such
person is qualified for such exemption; and
(2) contains the signature of such person.
(g) Reporting of suspicious transactions.—
(1) In general.—The Secretary may require any
financial institution, and any director, officer,
employee, or agent of any financial institution, to
report any suspicious transaction relevant to a
possible violation of law or regulation.
(2) Notification prohibited.—
(A) In general.—If a financial institution or
any director, officer, employee, or agent of any
financial institution, voluntarily or pursuant to
this section or any other authority, reports a
suspicious transaction to a government
agency—
(i) neither the financial institution, director,
officer, employee, or agent of such institution
(whether or not any such person is still
employed by the institution), nor any other
current or former director, officer, or

286a
employee of, or contractor for, the financial
institution or other reporting person, may
notify any person involved in the transaction
that the transaction has been reported or
otherwise reveal any information that would
reveal that the transaction has been
reported,;2 and
(ii) no current or former officer or employee of
or contractor for the Federal Government or
of or for any State, local, tribal, or territorial
government within the United States, who
has any knowledge that such report was
made may disclose to any person involved in
the transaction that the transaction has been
reported, or otherwise reveal any information
that would reveal that the transaction has
been reported, other than as necessary to
fulfill the official duties of such officer or
employee.
(B) Disclosures in certain employment
references.—
(i) Rule of construction.—Notwithstanding
the application of subparagraph (A) in any
other context, subparagraph (A) shall not be
construed as prohibiting any financial
institution, or any director, officer, employee,
or agent of such institution, from including
information that was included in a report to
which subparagraph (A) applies—
2

So in original.

287a
(I) in a written employment reference that
is provided in accordance with section
18(w) of the Federal Deposit Insurance Act
in response to a request from another
financial institution; or
(II) in a written termination notice or
employment reference that is provided in
accordance with the rules of a selfregulatory organization registered with the
Securities and Exchange Commission or
the Commodity Futures Trading
Commission,
except that such written reference or
notice may not disclose that such
information was also included in any
such report, or that such report was
made.
(ii) Information not required.—Clause (i)
shall not be construed, by itself, to create any
affirmative duty to include any information
described in clause (i) in any employment
reference or termination notice referred to in
clause (i).
(3) Liability for disclosures.—
(A) In general.—Any financial institution that
makes a voluntary disclosure of any possible
violation of law or regulation to a government
agency or makes a disclosure pursuant to this
subsection or any other authority, and any
director, officer, employee, or agent of such

288a
institution who makes, or requires another to
make any such disclosure, shall not be liable to
any person under any law or regulation of the
United States, any constitution, law, or
regulation of any State or political subdivision
of any State, or under any contract or other
legally enforceable agreement (including any
arbitration agreement), for such disclosure or
for any failure to provide notice of such
disclosure to the person who is the subject of
such disclosure or any other person identified in
the disclosure.
(B) Rule of construction.—Subparagraph (A)
shall not be construed as creating—
(i) any inference that the term “person”, as
used in such subparagraph, may be construed
more broadly than its ordinary usage so as to
include any government or agency of
government; or
(ii) any immunity against, or otherwise
affecting, any civil or criminal action brought
by any government or agency of government
to enforce any constitution, law, or regulation
of such government or agency.
(4) Single designee for reporting suspicious
transactions.—
(A) In general.—In requiring reports under
paragraph (1) of suspicious transactions, the
Secretary of the Treasury shall designate, to the
extent practicable and appropriate, a single

289a
officer or agency of the United States to whom
such reports shall be made.
(B) Duty of designee.—The officer or agency
of the United States designated by the
Secretary of the Treasury pursuant to
subparagraph (A) shall refer any report of a
suspicious transaction to any appropriate law
enforcement, supervisory agency, or United
States intelligence agency for use in the conduct
of intelligence or counterintelligence activities,
including analysis, to protect against
international terrorism.
(C) Coordination with other reporting
requirements.—Subparagraph (A) shall not be
construed as precluding any supervisory agency
for any financial institution from requiring the
financial institution to submit any information
or report to the agency or another agency
pursuant to any other applicable provision of
law.
(5) Considerations in imposing reporting
requirements.—
(A) Definitions.—In this paragraph, the terms
“Bank Secrecy Act”, “Federal functional
regulator”, “State bank supervisor”, and “State
credit union supervisor” have the meanings
given the terms in section 6003 of the AntiMoney Laundering Act of 2020.
(B) Requirements.—In imposing any
requirement to report any suspicious

290a
transaction under this subsection, the Secretary
of the Treasury, in consultation with the
Attorney General, appropriate representatives
of State bank supervisors, State credit union
supervisors, and the Federal functional
regulators, shall consider items that include—
(i) the national priorities established by the
Secretary;
(ii) the purposes described in section 5311;
and
(iii) the means by or form in which the
Secretary shall receive such reporting,
including the burdens imposed by such means
or form of reporting on persons required to
provide such reporting, the efficiency of the
means or form, and the benefits derived by
the means or form of reporting by Federal law
enforcement agencies and the intelligence
community in countering financial crime,
including money laundering and the
financing of terrorism.
(C) Compliance program.—Reports filed
under this subsection shall be guided by the
compliance program of a covered financial
institution with respect to the Bank Secrecy
Act, including the risk assessment processes of
the covered institution that should include a
consideration of priorities established by the
Secretary of the Treasury under section 5318.
(D) Streamlined data and real-time

291a
reporting.—
(i) Requirement to establish system.—In
considering the means by or form in which
the Secretary of the Treasury shall receive
reporting pursuant to subparagraph (B)(iii),
the Secretary of the Treasury, acting through
the Director of the Financial Crimes
Enforcement Network, and in consultation
with appropriate representatives of the State
bank supervisors, State credit union
supervisors, and Federal functional
regulators, shall—
(I) establish streamlined, including
automated, processes to, as appropriate,
permit the filing of noncomplex categories
of reports that—
(aa) reduce burdens imposed on persons
required to report; and
(bb) do not diminish the usefulness of
the reporting to Federal law enforcement
agencies, national security officials, and
the intelligence community in combating
financial crime, including the financing
of terrorism;
(II) subject to clause (ii)—
(aa) permit streamlined, including
automated, reporting for the categories
described in subclause (I); and

292a
(bb) establish the conditions under
which the reporting described in item
(aa) is permitted; and
(III) establish additional systems and
processes as necessary to allow for the
reporting described in subclause (II)(aa).
(ii) Standards.—The Secretary of the
Treasury—
(I) in carrying out clause (i), shall establish
standards to ensure that streamlined
reports relate to suspicious transactions
relevant to potential violations of law
(including regulations); and
(II) in establishing the standards under
subclause (I), shall consider transactions,
including structured transactions, designed
to evade any regulation promulgated under
this subchapter, certain fund and asset
transfers with little or no apparent
economic or business purpose, transactions
without lawful purposes, and any other
transaction that the Secretary determines
to be appropriate.
(iii) Rule of construction.—Nothing in this
subparagraph may be construed to preclude
the Secretary of the Treasury from—
(I) requiring reporting as provided for in
subparagraphs (B) and (C); or

293a
(II) notifying Federal law enforcement with
respect to any transaction that the
Secretary has determined implicates a
national priority established by the
Secretary.
(6) Sharing of threat pattern and trend
information.—
(A) Definitions.—In this paragraph—
(i) the terms “Bank Secrecy Act” and “Federal
functional regulator” have the meanings
given the terms in section 6003 of the AntiMoney Laundering Act of 2020; and
(ii) the term “typology” means a technique to
launder money or finance terrorism.
(B) Suspicious activity report activity
review.—Not less frequently than
semiannually, the Director of the Financial
Crimes Enforcement Network shall publish
threat pattern and trend information to provide
meaningful information about the preparation,
use, and value of reports filed under this
subsection by financial institutions, as well as
other reports filed by financial institutions
under the Bank Secrecy Act.
(C) Inclusion of typologies.—In each
publication published under subparagraph (B),
the Director shall provide financial institutions
and the Federal functional regulators with
typologies, including data that can be adapted

294a
in algorithms if appropriate, relating to
emerging money laundering and terrorist
financing threat patterns and trends.
(7) Rules of construction.—Nothing in this
subsection may be construed as precluding the
Secretary of the Treasury from—
(A) requiring reporting as provided under
subparagraphs (A) and (B) of paragraph (6); or
(B) notifying a Federal law enforcement agency
with respect to any transaction that the
Secretary has determined directly implicates a
national priority established by the Secretary.
(8) Pilot program on sharing with foreign
branches, subsidiaries, and affiliates.—
(A) In general.—
(i) Issuance of rules.—Not later than 1 year
after the date of enactment of this paragraph,
the Secretary of the Treasury shall issue
rules, in coordination with the Director of the
Financial Crimes Enforcement Network,
establishing the pilot program described in
subparagraph (B).
(ii) Considerations.—In issuing the rules
required under clause (i), the Secretary shall
ensure that the sharing of information
described in subparagraph (B)—
(I) is limited by the requirements of

295a
Federal and State law enforcement
operations;
(II) takes into account potential concerns of
the intelligence community; and
(III) is subject to appropriate standards
and requirements regarding data security
and the confidentiality of personally
identifiable information.
(B) Pilot program described.—The pilot
program described in this paragraph shall—
(i) permit a financial institution with a
reporting obligation under this subsection to
share information related to reports under
this subsection, including that such a report
has been filed, with the institution’s foreign
branches, subsidiaries, and affiliates for the
purpose of combating illicit finance risks,
notwithstanding any other provision of law
except subparagraph (A) or (C);
(ii) permit the Secretary to consider,
implement, and enforce provisions that would
hold a foreign affiliate of a United States
financial institution liable for the disclosure
of information related to reports under this
section;
(iii) terminate on the date that is 3 years
after the date of enactment of this paragraph,
except that the Secretary of the Treasury may
extend the pilot program for not more than 2

296a
years upon submitting to the Committee on
Banking, Housing, and Urban Affairs of the
Senate and the Committee on Financial
Services of the House of Representatives a
report that includes—
(I) a certification that the extension is in
the national interest of the United States,
with a detailed explanation of the reasons
that the extension is in the national
interest of the United States;
(II) after appropriate consultation by the
Secretary with participants in the pilot
program, an evaluation of the usefulness of
the pilot program, including a detailed
analysis of any illicit activity identified or
prevented as a result of the program; and
(III) a detailed legislative proposal
providing for a long-term extension of
activities under the pilot program,
measures to ensure data security, and
confidentiality of personally identifiable
information, including expected budgetary
resources for those activities, if the
Secretary of the Treasury determines that
a long-term extension is appropriate.
(C) Prohibition involving certain
jurisdictions.—
(i) In general.—In issuing the rules required
under subparagraph (A), the Secretary of the
Treasury may not permit a financial

297a
institution to share information on reports
under this subsection with a foreign branch,
subsidiary, or affiliate located in—
(I) the People’s Republic of China;
(II) the Russian Federation; or
(III) a jurisdiction that—
(aa) is a state sponsor of terrorism;
(bb) is subject to sanctions imposed by
the Federal Government; or
(cc) the Secretary has determined
cannot reasonably protect the security
and confidentiality of such information.
(ii) Exceptions.—The Secretary is
authorized to make exceptions, on a case-bycase basis, for a financial institution located
in a jurisdiction listed in subclause (I) or (II)
of clause (i), if the Secretary notifies the
Committee on Banking, Housing, and Urban
Affairs of the Senate and the Committee on
Financial Services of the House of
Representatives that such an exception is in
the national security interest of the United
States.
(D) Implementation updates.—Not later
than 360 days after the date on which rules are
issued under subparagraph (A), and annually
thereafter for 3 years, the Secretary of the

298a
Treasury, or the designee of the Secretary, shall
brief the Committee on Banking, Housing, and
Urban Affairs of the Senate and the Committee
on Financial Services of the House of
Representatives on—
(i) the degree of any information sharing
permitted under the pilot program and a
description of criteria used by the Secretary
to evaluate the appropriateness of the
information sharing;
(ii) the effectiveness of the pilot program in
identifying or preventing the violation of a
United States law or regulation and
mechanisms that may improve that
effectiveness; and
(iii) any recommendations to amend the
design of the pilot program.
(9) Treatment of foreign jurisdictionoriginated reports.—Information related to a
report received by a financial institution from a
foreign affiliate with respect to a suspicious
transaction relevant to a possible violation of law
or regulation shall be subject to the same
confidentiality requirements provided under this
subsection for a report of a suspicious transaction
described in paragraph (1).
(10) No offshoring compliance.—No financial
institution may establish or maintain any
operation located outside of the United States the
primary purpose of which is to ensure compliance

299a
with the Bank Secrecy Act as a result of the
sharing granted under this subsection.
(11) Definitions.—In this subsection:
(A) Affiliate.—The term “affiliate” means an
entity that controls, is controlled by, or is under
common control with another entity.
(B) Bank Secrecy Act; State bank
supervisor; State credit union
supervisor.—The terms “Bank Secrecy Act”,
“State bank supervisor”, and “State credit union
supervisor” have the meanings given the terms
in section 6003 of the Anti-Money Laundering
Act of 2020.
(h) Anti-money laundering programs.—
(1) In general.—In order to guard against money
laundering and the financing of terrorism through
financial institutions, each financial institution
shall establish anti-money laundering and
countering the financing of terrorism programs,
including, at a minimum—
(A) the development of internal policies,
procedures, and controls;
(B) the designation of a compliance officer;
(C) an ongoing employee training program; and
(D) an independent audit function to test
programs.

300a
(2) Regulations.—
(A) In general.—The Secretary of the
Treasury, after consultation with the
appropriate Federal functional regulator (as
defined in section 509 of the Gramm-LeachBliley Act), may prescribe minimum standards
for programs established under paragraph (1),
and may exempt from the application of those
standards any financial institution that is not
subject to the provisions of the rules contained
in part 103 of title 31, of the Code of Federal
Regulations, or any successor rule thereto, for
so long as such financial institution is not
subject to the provisions of such rules.
(B) Factors.—In prescribing the minimum
standards under subparagraph (A), and in
supervising and examining compliance with
those standards, the Secretary of the Treasury,
and the appropriate Federal functional
regulator (as defined in section 509 of the
Gramm-Leach-Bliley Act (12 U.S.C. 6809)) shall
take into account the following:
(i) Financial institutions are spending private
compliance funds for a public and private
benefit, including protecting the United
States financial system from illicit finance
risks.
(ii) The extension of financial services to the
underbanked and the facilitation of financial
transactions, including remittances, coming
from the United States and abroad in ways

301a
that simultaneously prevent criminal persons
from abusing formal or informal financial
services networks are key policy goals of the
United States.
(iii) Effective anti-money laundering and
countering the financing of terrorism
programs safeguard national security and
generate significant public benefits by
preventing the flow of illicit funds in the
financial system and by assisting law
enforcement and national security agencies
with the identification and prosecution of
persons attempting to launder money and
undertake other illicit activity through the
financial system.
(iv) Anti-money laundering and countering
the financing of terrorism programs described
in paragraph (1) should be—
(I) reasonably designed to assure and
monitor compliance with the requirements
of this subchapter and regulations
promulgated under this subchapter; and
(II) risk-based, including ensuring that
more attention and resources of financial
institutions should be directed toward
higher-risk customers and activities,
consistent with the risk profile of a
financial institution, rather than toward
lower-risk customers and activities.
(3) Concentration accounts.—The Secretary

302a
may prescribe regulations under this subsection
that govern maintenance of concentration
accounts by financial institutions, in order to
ensure that such accounts are not used to prevent
association of the identity of an individual
customer with the movement of funds of which the
customer is the direct or beneficial owner, which
regulations shall, at a minimum—
(A) prohibit financial institutions from allowing
clients to direct transactions that move their
funds into, out of, or through the concentration
accounts of the financial institution;
(B) prohibit financial institutions and their
employees from informing customers of the
existence of, or the means of identifying, the
concentration accounts of the institution; and
(C) require each financial institution to
establish written procedures governing the
documentation of all transactions involving a
concentration account, which procedures shall
ensure that, any time a transaction involving a
concentration account commingles funds
belonging to 1 or more customers, the identity
of, and specific amount belonging to, each
customer is documented.
(4) Priorities.—
(A) In general.—Not later than 180 days after
the date of enactment of this paragraph, the
Secretary of the Treasury, in consultation with
the Attorney General, Federal functional

303a
regulators (as defined in section 509 of the
Gramm-Leach-Bliley Act (15 U.S.C. 6809)),
relevant State financial regulators, and relevant
national security agencies, shall establish and
make public priorities for anti-money
laundering and countering the financing of
terrorism policy.
(B) Updates.—Not less frequently than once
every 4 years, the Secretary of the Treasury, in
consultation with the Attorney General, Federal
functional regulators (as defined in section 509
of the Gramm-Leach-Bliley Act (15 U.S.C.
6809)), relevant State financial regulators, and
relevant national security agencies, shall
update the priorities established under
subparagraph (A).
(C) Relation to national strategy.—The
Secretary of the Treasury shall ensure that the
priorities established under subparagraph (A)
are consistent with the national strategy for
countering the financing of terrorism and
related forms of illicit finance developed under
section 261 of the Countering Russian Influence
in Europe and Eurasia Act of 2017 (Public Law
115-44; 131 Stat. 934).
(D) Rulemaking.—Not later than 180 days
after the date on which the Secretary of the
Treasury establishes the priorities under
subparagraph (A), the Secretary of the
Treasury, acting through the Director of the
Financial Crimes Enforcement Network and in
consultation with the Federal functional

304a
regulators (as defined in section 509 of the
Gramm-Leach-Bliley Act (15 U.S.C. 6809)) and
relevant State financial regulators, shall, as
appropriate, promulgate regulations to carry
out this paragraph.
(E) Supervision and examination.—The
review by a financial institution of the priorities
established under subparagraph (A) and the
incorporation of those priorities, as appropriate,
into the risk-based programs established by the
financial institution to meet obligations under
this subchapter, the USA PATRIOT Act (Public
Law 107-56; 115 Stat. 272), and other antimoney laundering and countering the financing
of terrorism laws and regulations shall be
included as a measure on which a financial
institution is supervised and examined for
compliance with those obligations.
(5) Duty.—The duty to establish, maintain and
enforce an anti-money laundering and countering
the financing of terrorism program as required by
this subsection shall remain the responsibility of,
and be performed by, persons in the United States
who are accessible to, and subject to oversight and
supervision by, the Secretary of the Treasury and
the appropriate Federal functional regulator (as
defined in section 509 of the Gramm-Leach-Bliley
Act (15 U.S.C. 6809)).

*****

305a

31 U.S.C.A. § 5321
§ 5321. Civil penalties
(a)(1) A domestic financial institution or
nonfinancial trade or business, and a partner,
director, officer, or employee of a domestic financial
institution or nonfinancial trade or business,
willfully violating this subchapter or a regulation
prescribed or order issued under this subchapter
(except sections 5314, 5315, and 5336 of this title or
a regulation prescribed under sections 5314, 5315,
and 5336), or willfully violating a regulation
prescribed under section 21 of the Federal Deposit
Insurance Act or section 123 of Public Law 91-508, is
liable to the United States Government for a civil
penalty of not more than the greater of the amount
(not to exceed $100,000) involved in the transaction
(if any) or $25,000. For a violation of section
5318(a)(2) of this title or a regulation prescribed
under section 5318(a)(2), a separate violation occurs
for each day the violation continues and at each
office, branch, or place of business at which a
violation occurs or continues.
(2) The Secretary of the Treasury may impose an
additional civil penalty on a person not filing a
report, or filing a report containing a material
omission or misstatement, under section 5316 of this
title or a regulation prescribed under section 5316. A
civil penalty under this paragraph may not be more
than the amount of the monetary instrument for
which the report was required. A civil penalty under
this paragraph is reduced by an amount forfeited

C:\Users\HEL\Desktop\Template for Apendix
Documents.docx

306a
under section 5317(b) of this title.
(3) A person not filing a report under a regulation
prescribed under section 5315 of this title or not
complying with an injunction under section 5320 of
this title enjoining a violation of, or enforcing
compliance with, section 5315 or a regulation
prescribed under section 5315, is liable to the
Government for a civil penalty of not more than
$10,000.
(4) Structured transaction violation.—
(A) Penalty authorized.—The Secretary of the
Treasury may impose a civil money penalty on any
person who violates any provision of section 5324.
(B) Maximum amount limitation.—The
amount of any civil money penalty imposed under
subparagraph (A) shall not exceed the amount of
the coins and currency (or such other monetary
instruments as the Secretary may prescribe)
involved in the transaction with respect to which
such penalty is imposed.
(C) Coordination with forfeiture provision.—
The amount of any civil money penalty imposed by
the Secretary under subparagraph (A) shall be
reduced by the amount of any forfeiture to the
United States in connection with the transaction
with respect to which such penalty is imposed.
(5) Foreign financial agency transaction
violation.—

307a
(A) Penalty authorized.—The Secretary of the
Treasury may impose a civil money penalty on any
person who violates, or causes any violation of,
any provision of section 5314.
(B) Amount of penalty.—
(i) In general.—Except as provided in
subparagraph (C), the amount of any civil
penalty imposed under subparagraph (A) shall
not exceed $10,000.
(ii) Reasonable cause exception.—No
penalty shall be imposed under subparagraph
(A) with respect to any violation if—
(I) such violation was due to reasonable
cause, and
(II) the amount of the transaction or the
balance in the account at the time of the
transaction was properly reported.
(C) Willful violations.—In the case of any
person willfully violating, or willfully causing any
violation of, any provision of section 5314—
(i) the maximum penalty under subparagraph
(B)(i) shall be increased to the greater of—
(I) $100,000, or
(II) 50 percent of the amount determined
under subparagraph (D), and

308a
(ii) subparagraph (B)(ii) shall not apply.
(D) Amount.—The amount determined under
this subparagraph is—
(i) in the case of a violation involving a
transaction, the amount of the transaction, or
(ii) in the case of a violation involving a failure
to report the existence of an account or any
identifying information required to be provided
with respect to an account, the balance in the
account at the time of the violation.
(6) Negligence.—
(A) In general.—The Secretary of the Treasury
may impose a civil money penalty of not more
than $500 on any financial institution or
nonfinancial trade or business which negligently
violates any provision of this subchapter (except
section 5336) or any regulation prescribed under
this subchapter (except section 5336).
(B) Pattern of negligent activity.—If any
financial institution or nonfinancial trade or
business engages in a pattern of negligent
violations of any provision of this subchapter
(except section 5336) or any regulation prescribed
under this subchapter (except section 5336), the
Secretary of the Treasury may, in addition to any
penalty imposed under subparagraph (A) with
respect to any such violation, impose a civil money
penalty of not more than $50,000 on the financial
institution or nonfinancial trade or business.

309a
(7) Penalties for international counter money
laundering violations.—The Secretary may
impose a civil money penalty in an amount equal to
not less than 2 times the amount of the transaction,
but not more than $1,000,000, on any financial
institution or agency that violates any provision of
subsection (i) or (j) of section 5318 or any special
measures imposed under section 5318A.
(b) Time limitations for assessments and
commencement of civil actions.—
(1) Assessments.—The Secretary of the Treasury
may assess a civil penalty under subsection (a) at
any time before the end of the 6-year period
beginning on the date of the transaction with
respect to which the penalty is assessed.
(2) Civil actions.—The Secretary may commence
a civil action to recover a civil penalty assessed
under subsection (a) at any time before the end of
the 2-year period beginning on the later of—
(A) the date the penalty was assessed; or
(B) the date any judgment becomes final in any
criminal action under section 5322 in connection
with the same transaction with respect to which
the penalty is assessed.
(c) The Secretary may remit any part of a forfeiture
under subsection (c) or (d)1 of section 5317 of this
title or civil penalty under subsection (a)(2) of this
1

So in original. Section 5317 does not contain a subsec. (d).

310a
section.
(d) Criminal penalty not exclusive of civil
penalty.—A civil money penalty may be imposed
under subsection (a) with respect to any violation of
this subchapter notwithstanding the fact that a
criminal penalty is imposed with respect to the same
violation.
(e) Delegation of assessment authority to
banking agencies.—
(1) In general.—The Secretary of the Treasury
shall delegate, in accordance with section
5318(a)(1) and subject to such terms and
conditions as the Secretary may impose in
accordance with paragraph (3), any authority of
the Secretary to assess a civil money penalty
under this section on depository institutions (as
defined in section 3 of the Federal Deposit
Insurance Act) to the appropriate Federal banking
agencies (as defined in such section 3).
(2) Authority of agencies.—Subject to any term
or condition imposed by the Secretary of the
Treasury under paragraph (3), the provisions of
this section shall apply to an appropriate Federal
banking agency to which is delegated any
authority of the Secretary under this section in the
same manner such provisions apply to the
Secretary.
(3) Terms and conditions.—
(A) In general.—The Secretary of the Treasury

311a
shall prescribe by regulation the terms and
conditions which shall apply to any delegation
under paragraph (1).
(B) Maximum dollar amount.—The terms
and conditions authorized under subparagraph
(A) may include, in the Secretary’s sole
discretion, a limitation on the amount of any
civil penalty which may be assessed by an
appropriate Federal banking agency pursuant
to a delegation under paragraph (1).
(f) Additional damages for repeat violators.—
(1) In general.—In addition to any other fines
permitted under this section and section 5322,
with respect to a person who has previously
violated a provision of (or rule issued under) this
subchapter, section 21 of the Federal Deposit
Insurance Act (12 U.S.C. 1829b), or section 123 of
Public Law 91-508 (12 U.S.C. 1953), the Secretary
of the Treasury, if practicable, may impose an
additional civil penalty against such person for
each additional such violation in an amount that
is not more than the greater of—
(A) if practicable to calculate, 3 times the profit
gained or loss avoided by such person as a
result of the violation; or
(B) 2 times the maximum penalty with respect
to the violation.
(2) Application.—For purposes of determining
whether a person has committed a previous

312a
violation under paragraph (1), the determination
shall only include violations occurring after the
date of enactment of the Anti-Money Laundering
Act of 2020.
(g) Certain violators barred from serving on
boards of United States financial
institutions.—
(1) Definition.—In this subsection, the term
“egregious violation” means, with respect to an
individual—
(A) a criminal violation—
(i) for which the individual is convicted; and
(ii) for which the maximum term of
imprisonment is more than 1 year; and
(B) a civil violation in which—
(i) the individual willfully committed the
violation; and
(ii) the violation facilitated money laundering
or the financing of terrorism.

313a
(2) Bar.—An individual found to have committed an
egregious violation of the Bank Secrecy Act, as
defined in section 6003 of the Anti-Money
Laundering Act of 2020, or any rules issued under
the Bank Secrecy Act, shall be barred from serving
on the board of directors of a United States financial
institution during the 10-year period that begins on
the date on which the conviction or judgment, as
applicable, with respect to the egregious violation is
entered.
*****
17 C.F.R. § 240.17a–8
§ 240.17a–8 Financial recordkeeping and
reporting of currency and foreign
transactions.
Every registered broker or dealer who is subject to
the requirements of the Currency and Foreign
Transactions Reporting Act of 1970 shall comply
with the reporting, recordkeeping and record
retention requirements of chapter X of title 31 of the
Code of Federal Regulations. Where chapter X of
title 31 of the Code of Federal Regulations and
§ 240.17a–4 of this chapter require the same records
or reports to be preserved for different periods of
time, such records or reports shall be preserved for
the longer period of time.
*****

314a
31 C.F.R. § 1010.810
§ 1010.810 Enforcement.
(a) Overall authority for enforcement and
compliance, including coordination and direction of
procedures and activities of all other agencies
exercising delegated authority under this chapter, is
delegated to the Director, FinCEN.
(b) Authority to examine institutions to determine
compliance with the requirements of this chapter is
delegated as follows:
(1) To the Comptroller of the Currency with
respect to those financial institutions regularly
examined for safety and soundness by national
bank examiners;
(2) To the Board of Governors of the Federal
Reserve System with respect to those financial
institutions regularly examined for safety and
soundness by Federal Reserve bank examiners;
(3) To the Federal Deposit Insurance
Corporation with respect to those financial
institutions regularly examined for safety and
soundness by FDIC bank examiners;
(4) To the Federal Home Loan Bank Board with
respect to those financial institutions regularly
examined for safety and soundness by FHLBB
bank examiners;

315a
(5) To the Chairman of the Board of the
National Credit Union Administration with
respect to those financial institutions regularly
examined for safety and soundness by NCUA
examiners.
(6) To the Securities and Exchange Commission
with respect to brokers and dealers in securities
and investment companies as that term is
defined in the Investment Company Act of 1940
(15 U.S.C. 80–1 et seq.);
(7) To the Commissioner of Customs and Border
Protection with respect to §§ 1010.340 and
1010.830;
(8) To the Commissioner of Internal Revenue
with respect to all financial institutions, except
brokers or dealers in securities, mutual funds,
futures commission merchants, introducing
brokers in commodities, and commodity trading
advisors, not currently examined by Federal
bank supervisory agencies for soundness and
safety; and
(9) To the Commodity Futures Trading
Commission with respect to futures commission
merchants, introducing brokers in commodities,
and commodity trading advisors.
(10) To the Federal Housing Finance Agency
with respect to the housing government
sponsored enterprises, as defined in §
1010.100(mmm) of this part.

316a
(c) Authority for investigating criminal violations of
this chapter is delegated as follows:
(1) To the Commissioner of Customs and Border
Protection with respect to § 1010.340;
(2) To the Commissioner of Internal Revenue
except with respect to § 1010.340.
(d) Authority for the imposition of civil penalties for
violations of this chapter lies with the Director of
FinCEN.
(e) Periodic reports shall be made to the Director,
FinCEN by each agency to which compliance
authority has been delegated under paragraph (b) of
this section. These reports shall be in such a form
and submitted at such intervals as the Director,
FinCEN may direct. Evidence of specific violations of
any of the requirements of this chapter may be
submitted to the Director, FinCEN at any time.
(f) The Director, FinCEN or his delegate, and any
agency to which compliance has been delegated
under paragraph (b) of this section, may examine
any books, papers, records, or other data of domestic
financial institutions relevant to the recordkeeping
or reporting requirements of this chapter.

317a
(g) The authority to enforce the provisions of 31
U.S.C. 5314 and §§ 1010.350 and 1010.420 of this
chapter has been redelegated from FinCEN to the
Commissioner of Internal Revenue by means of a
Memorandum of Agreement between FinCEN and
IRS. Such authority includes, with respect to 31
U.S.C. 5314 and 1010.350 and 1010.420 of this
chapter, the authority to: assess and collect civil
penalties under 31 U.S.C. 5321 and 31 CFR
1010.820; investigate possible civil violations of
these provisions (in addition to the authority already
provided at paragraph (c)(2)) of this section); employ
the summons power of subpart I of this part 1010;
issue administrative rulings under subpart G of this
part 1010; and take any other action reasonably
necessary for the enforcement of these and related
provisions, including pursuit of injunctions.
*****
31 C.F.R. § 1023.320
§ 1023.320 Reports by brokers or dealers in
securities of suspicious transactions.
(a) General.
(1) Every broker or dealer in securities within
the United States (for purposes of this section, a
“broker-dealer”) shall file with FinCEN, to the
extent and in the manner required by this
section, a report of any suspicious transaction
relevant to a possible violation of law or
regulation. A broker-dealer may also file with
FinCEN a report of any suspicious transaction
that it believes is relevant to the possible

318a
violation of any law or regulation but whose
reporting is not required by this section. Filing
a report of a suspicious transaction does not
relieve a broker-dealer from the responsibility of
complying with any other reporting
requirements imposed by the Securities and
Exchange Commission or a self-regulatory
organization (“SRO”) (as defined in section
3(a)(26) of the Securities Exchange Act of 1934,
15 U.S.C. 78c(a)(26)).
(2) A transaction requires reporting under the
terms of this section if it is conducted or
attempted by, at, or through a broker-dealer, it
involves or aggregates funds or other assets of
at least $5,000, and the broker-dealer knows,
suspects, or has reason to suspect that the
transaction (or a pattern of transactions of
which the transaction is a part):
(i) Involves funds derived from illegal activity or
is intended or conducted in order to hide or
disguise funds or assets derived from illegal
activity (including, without limitation, the
ownership, nature, source, location, or control of
such funds or assets) as part of a plan to violate
or evade any Federal law or regulation or to
avoid any transaction reporting requirement
under Federal law or regulation;
(ii) Is designed, whether through structuring or
other means, to evade any requirements of this
chapter or of any other regulations promulgated
under the Bank Secrecy Act;

319a
(iii) Has no business or apparent lawful purpose
or is not the sort in which the particular
customer would normally be expected to engage,
and the broker-dealer knows of no reasonable
explanation for the transaction after examining
the available facts, including the background
and possible purpose of the transaction; or
(iv) Involves use of the broker-dealer to
facilitate criminal activity.
(3) The obligation to identify and properly and
timely to report a suspicious transaction rests
with each broker-dealer involved in the
transaction, provided that no more than one
report is required to be filed by the brokerdealers involved in a particular transaction (so
long as the report filed contains all relevant
facts).
(b) Filing procedures—
(1) What to file. A suspicious transaction shall
be reported by completing a Suspicious Activity
Report (“SAR”), and collecting and maintaining
supporting documentation as required by
paragraph (d) of this section.
(2) Where to file. The SAR shall be filed with
FinCEN in a central location, to be determined
by FinCEN, as indicated in the instructions to
the SAR.
(3) When to file. A SAR shall be filed no later
than 30 calendar days after the date of the

320a
initial detection by the reporting broker-dealer
of facts that may constitute a basis for filing a
SAR under this section. If no suspect is
identified on the date of such initial detection, a
broker-dealer may delay filing a SAR for an
additional 30 calendar days to identify a
suspect, but in no case shall reporting be
delayed more than 60 calendar days after the
date of such initial detection. In situations
involving violations that require immediate
attention, such as terrorist financing or ongoing
money laundering schemes, the broker-dealer
shall immediately notify by telephone an
appropriate law enforcement authority in
addition to filing timely a SAR. Broker-dealers
wishing voluntarily to report suspicious
transactions that may relate to terrorist activity
may call FinCEN’s Financial Institutions
Hotline at 1–866–556–3974 in addition to filing
timely a SAR if required by this section. The
broker-dealer may also, but is not required to,
contact the Securities and Exchange
Commission to report in such situations.
(c) Exceptions.
(1) A broker-dealer is not required to file a SAR
to report:
(i) A robbery or burglary committed or
attempted of the broker-dealer that is reported
to appropriate law enforcement authorities, or
for lost, missing, counterfeit, or stolen securities
with respect to which the broker-dealer files a
report pursuant to the reporting requirements

321a
of 17 CFR 240.17f–1;
(ii) A violation otherwise required to be reported
under this section of any of the Federal
securities laws or rules of an SRO by the brokerdealer or any of its officers, directors,
employees, or other registered representatives,
other than a violation of 17 CFR 240.17a–8 or
17 CFR 405.4, so long as such violation is
appropriately reported to the SEC or an SRO.
(2) A broker-dealer may be required to
demonstrate that it has relied on an exception
in paragraph (c)(1) of this section, and must
maintain records of its determinations to do so
for the period specified in paragraph (d) of this
section. To the extent that a Form RE–3, Form
U–4, or Form U–5 concerning the transaction is
filed consistent with the SRO rules, a copy of
that form will be a sufficient record for purposes
of this paragraph (c)(2).
(3) For the purposes of this paragraph (c) the
term “Federal securities laws” means the
“securities laws,” as that term is defined in
section 3(a)(47) of the Securities Exchange Act
of 1934, 15 U.S.C. 78c(a)(47), and the rules and
regulations promulgated by the Securities and
Exchange Commission under such laws.
(d) Retention of records. A broker-dealer shall
maintain a copy of any SAR filed and the original or
business record equivalent of any supporting
documentation for a period of five years from the
date of filing the SAR. Supporting documentation

322a
shall be identified as such and maintained by the
broker-dealer, and shall be deemed to have been
filed with the SAR. A broker-dealer shall make all
supporting documentation available to FinCEN or
any Federal, State, or local law enforcement agency,
or any Federal regulatory authority that examines
the broker-dealer for compliance with the Bank
Secrecy Act, upon request; or to any SRO that
examines the broker-dealer for compliance with the
requirements of this section, upon the request of the
Securities and Exchange Commission.
(e) Confidentiality of SARs. A SAR, and any
information that would reveal the existence of a
SAR, are confidential and shall not be disclosed
except as authorized in this paragraph (e). For
purposes of this paragraph (e) only, a SAR shall
include any suspicious activity report filed with
FinCEN pursuant to any regulation in this chapter.
(1) Prohibition on disclosures by brokers or
dealers in securities.
(i) General rule. No broker-dealer, and no
director, officer, employee, or agent of any
broker-dealer, shall disclose a SAR or any
information that would reveal the existence of a
SAR. Any broker-dealer, and any director,
officer, employee, or agent of any broker-dealer
that is subpoenaed or otherwise requested to
disclose a SAR or any information that would
reveal the existence of a SAR, shall decline to
produce the SAR or such information, citing this
section and 31 U.S.C. 5318(g)(2)(A)(i), and shall
notify FinCEN of any such request and the

323a
response thereto.
(ii) Rules of construction. Provided that no
person involved in any reported suspicious
transaction is notified that the transaction has
been reported, this paragraph (e)(1) shall not be
construed as prohibiting:
(A) The disclosure by a broker-dealer, or
any director, officer, employee, or agent of a
broker-dealer, of:
(1) A SAR, or any information that
would reveal the existence of a SAR, to
FinCEN or any Federal, State, or local
law enforcement agency, or any
Federal regulatory authority that
examines the broker-dealer for
compliance with the Bank Secrecy Act;
or to any SRO that examines the
broker-dealer for compliance with the
requirements of this section, upon the
request of the Securities Exchange
Commission; or
(2) The underlying facts, transactions,
and documents upon which a SAR is
based, including but not limited to,
disclosures:
(i) To another financial institution, or
any director, officer, employee, or
agent of a financial institution, for the
preparation of a joint SAR; or

324a
(ii) In connection with certain
employment references or termination
notices, to the full extent authorized in
31 U.S.C. 5318(g)(2)(B); or
(B) The sharing by a broker-dealer, or any
director, officer, employee, or agent of the
broker-dealer, of a SAR, or any information
that would reveal the existence of a SAR,
within the broker-dealer’s corporate
organizational structure for purposes
consistent with Title II of the Bank Secrecy
Act as determined by regulation or in
guidance.
(2) Prohibition on disclosures by government
authorities. A Federal, State, local, territorial,
or Tribal government authority, or any director,
officer, employee, or agent of any of the
foregoing, shall not disclose a SAR, or any
information that would reveal the existence of a
SAR, except as necessary to fulfill official duties
consistent with Title II of the Bank Secrecy Act.
For purposes of this section, “official duties”
shall not include the disclosure of a SAR, or any
information that would reveal the existence of a
SAR, in response to a request for disclosure of
non-public information or a request for use in a
private legal proceeding, including a request
pursuant to 31 CFR 1.11.
(3) Prohibition on disclosures by Self–
Regulatory Organizations. Any self-regulatory
organization registered with the Securities and
Exchange Commission, or any director, officer,

325a
employee, or agent of any of the foregoing, shall
not disclose a SAR, or any information that
would reveal the existence of a SAR except as
necessary to fulfill self-regulatory duties with
the consent of the Securities Exchange
Commission, in a manner consistent with Title
II of the Bank Secrecy Act. For purposes of this
section, “self-regulatory duties” shall not include
the disclosure of a SAR, or any information that
would reveal the existence of a SAR, in response
to a request for disclosure of non-public
information or a request for use in a private
legal proceeding.
(f) Limitation on liability. A broker-dealer, and any
director, officer, employee, or agent of any brokerdealer, that makes a voluntary disclosure of any
possible violation of law or regulation to a
government agency or makes a disclosure pursuant
to this section or any other authority, including a
disclosure made jointly with another institution,
shall be protected from liability to any person for any
such disclosure, or for failure to provide notice of
such disclosure to any person identified in the
disclosure, or both, to the full extent provided by 31
U.S.C. 5318(g)(3).
(g) Compliance. Broker-dealers shall be examined by
FinCEN or its delegatees for compliance with this
section. Failure to satisfy the requirements of this
section may be a violation of the Bank Secrecy Act
and of this chapter.
(h) Applicability date. This section applies to
transactions occurring after December 30, 2002.

